<html>
<title> - HEARING ON RESPONSE TO TERRORISM: HOW IS THE DEPARTMENT OF HOMELAND SECURITY IMPROVING OUR CAPABILITIES?</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



  HEARING ON RESPONSE TO TERRORISM: HOW IS THE DEPARTMENT OF HOMELAND 
                  SECURITY IMPROVING OUR CAPABILITIES?

=======================================================================

                                HEARING

                               before the

                          SELECT COMMITTEE ON
                           HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 19, 2003

                               __________

                           Serial No. 108-11

                               __________

    Printed for the use of the Select Committee on Homeland Security


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house


                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
96-664                      WASHINGTON : 2004
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                 SELECT COMMITTEE ON HOMELAND SECURITY

                 Christopher Cox, California, Chairman

Jennifer Dunn, Washington            Jim Turner, Texas, Ranking Member
C.W. Bill Young, Florida             Bennie G. Thompson, Mississippi
Don Young, Alaska                    Loretta Sanchez, California
F. James Sensenbrenner, Jr.,         Edward J. Markey, Massachusetts
Wisconsin                            Norman D. Dicks, Washington
W.J. (Billy) Tauzin, Louisiana       Barney Frank, Massachusetts
David Dreier, California             Jane Harman, California
Duncan Hunter, California            Benjamin L. Cardin, Maryland
Harold Rogers, Kentucky              Louise McIntosh Slaughter, New 
Sherwood Boehlert, New York          York
Lamar S. Smith, Texas                Peter A. DeFazio, Oregon
Curt Weldon, Pennsylvania            Nita M. Lowey, New York
Christopher Shays, Connecticut       Robert E. Andrews, New Jersey
Porter J. Goss, Florida              Eleanor Holmes Norton, District of 
Dave Camp, Michigan                  Columbia
Lincoln Diaz-Balart, Florida         Zoe Lofgren, California
Bob Goodlatte, Virginia              Karen McCarthy, Missouri
Ernest J. Istook, Jr., Oklahoma      Sheila Jackson-Lee, Texas
Peter T. King, New York              Bill Pascrell, Jr., New Jersey
John Linder, Georgia                 Donna M. Christensen, U.S. Virgin 
John B. Shadegg, Arizona             Islands
Mark E. Souder, Indiana              Bob Etheridge, North Carolina
Mac Thornberry, Texas                Charles Gonzalez, Texas
Jim Gibbons, Nevada                  Ken Lucas, Kentucky
Kay Granger, Texas                   James R. Langevin, Rhode Island
Pete Sessions, Texas                 Kendrick B. Meek, Florida
John E. Sweeney, New York

                      John Gannon, Chief of Staff

         Uttam Dhillon, Chief Counsel and Deputy Staff Director

                  Steven Cash, Democrat Staff Director

                    Michael S. Twinchek, Chief Clerk

                                  (II)




                            C O N T E N T S

                               __________

                           MEMBER STATEMENTS

    The Honorable Christopher Cox, Chairman, Select Committee on 
      Homeland Security..........................................     1
    The Honorable Lincoln-Balart, a Representative in Congress 
      From the State of Florida..................................    30
    The Honorable Dave Camp, a Representative in Congress From 
      the State of Michigan......................................    25
    The Honorable Donna M. Christensen, a Representative in 
      Congress From the U.S. Virgin Islands......................    22
    The Honorable Jennifer Dunn, a Representative in Congress 
      From the State of Washington...............................     6
    The Honorable Bob Etheridge Representative in Congress From 
      the State of North Carolina................................    41
    The Honorable Sheila-Lee Jackson, Representative in Congress 
      From the State of Texas....................................    33
    The Honorable James R. Langevin, a Representative in Congress 
      From the State of Rhode Island.............................    37
    The Honorable Zoe Lofgren, a Representative in Congress From 
      the State of Rhode Island..................................    27
      Prepared Statement.........................................     8
    The Honorable Nita M. Lowey, a Representative in Congress 
      From the State of New York.................................    31
    The Honorable Eleanor Holmes Norton, a Representative in 
      Congress From the District of Columia......................    47
    The Honorable Bill Pascrell, Jr. Representative in Congress 
      From the State of New Jersey...............................    39
    The Honorable Loretta Sanchez, a Representative in Congress 
      From the State of California...............................     5
    The Honorable Bennie G. Thompson, a Representative in 
      Congress From the State of Mississippi.....................     3
      Prepared Statement.........................................     7
    The Honorable Jim Turner, a Representative in Congress From 
      the State of Texas.........................................     3

                                WITNESS

    The Honorable Michael Brown, Under Secretary for Emergency 
      Preparedness and Response, Department of Homeland Security.     9
      Prepared Statement.........................................    12

              ADDITIONAL MATERIAL SUBMITTED FOR THE RECORD

    Questions for the Record.....................................    59

                                 (III)

 
  HEARING ON RESPONSE TO TERRORISM: HOW IS THE DEPARTMENT OF HOMELAND 
                  SECURITY IMPROVING OUR CAPABILITIES?

                              ----------                              


                        Thursday, June 19, 2003

                          House of Representatives,
                     Select Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to call, at 2:05 p.m., in room 
2318, Rayburn House Office Building, Hon. Christopher Cox 
[chairman of the committee] presiding.
    Present: Representatives Cox, Dunn, Camp, Diaz-Balart, 
King, Linder, Thornberry, Granger, Sessions, Turner, Sanchez, 
Harman, Lowey, Norton, Lofgren, McCarthy, Jackson-Lee, 
Pascrell, Christensen, Etheridge, Lucas, Langevin and Meek.
    Chairman Cox. [Presiding.] Good afternoon. A quorum being 
present, the Select Committee on Homeland Security will come to 
order. The committee is meeting today to hear testimony on the 
status of the Emergency Preparedness and Response Directorate.
    I would like to welcome the members in attendance this 
afternoon and thank our witness, Undersecretary for 
Preparedness and Response Michael Brown, for appearing before 
this committee.
    Mr. Brown, your comments will be particularly relevant as 
the committee prepares to embark for a visit to the ports of 
Los Angeles and Long Beach, in California, for a series of 
meetings with Los Angeles and Orange County first responders.
    The mission of the Emergency Preparedness and Response 
Directorate is critical to fulfilling the overarching goal of 
the Department of Homeland Security: to make America safe from 
terrorism.
    More specifically, the mission of the department is, first 
and most importantly, to prevent a terrorist attack; second, to 
enhance our preparedness, in particular by focusing on critical 
infrastructure; and third, to ensure the most effective 
response should an attack occur despite our best efforts to 
prevent it.
    The decision to create the Homeland Security Department was 
intended to ensure that prevention, preparedness and response 
would be seamlessly integrated. The legislation authorizing the 
department enacted just last year created the Emergency 
Preparedness and Response Directorate, which consolidates six 
Federal entities, in order to permit a structure that lets us 
tailor our emergency preparations to the known and suspected 
threats that we face.
    The more that the Homeland Security Department develops its 
capabilities to analyze and assess the capabilities and 
intentions of America's terrorist enemies, the better will be 
our preparedness and our response.
    The Homeland Security Act identifies specific duties for 
the EP&R Directorate. Among those are to promote an effective 
emergency responder program. Since we enacted the Homeland 
Security Act of 2002, Congress has been making unprecedented 
levels of appropriations, sharing resources to achieve this 
objective.
    Since September 11, we have supported the estimated 2 
million first responders across America by increasing the 
funding for first responder grants by over 1,000 percent.
    However, homeland security is a team effort that requires a 
new partnership between and among the Federal Government, state 
and local first responders. The Federal Government is committed 
to providing the funds and training to first responders so that 
they can be adequately prepared to protect our citizens in the 
event of a terrorist attack.
    But first responders need more than dollars. They also need 
information.
    How is the department providing states and localities the 
intelligence they need to allocate resources and to be 
prepared? How is the EP&R directorate working to build two-way 
communications to glean intelligence information from first 
responders that they learn from the streets on the front lines 
in the war on terrorism?
    How are the states doing by way of providing the Federal 
Government with their emergency response plans so that the 
department can coordinate priorities regionally and nationally?
    How is the department using intelligence and its own threat 
analyses of terrorist capabilities and intentions to distribute 
funds to those areas where the terrorist threat is greatest?
    Title V of the Homeland Security Act also charges the 
directorate with the responsibility of developing a Federal 
response plan. The intent of this provision is to ensure that 
our nation has a single, coordinated plan to respond in the 
event of another terrorist emergency. The committee looks 
forward to hearing how far the directorate has come in 
developing this plan.
    Title II of the act requires that the Secretary, through 
the resources of the information, analysis, and protection 
directorate shall ``provide intelligence and information 
analysis and support to other elements of the department. Just 
as EP&R makes use of the most advanced meteorological 
information to predict a hurricane or a tornado and to pinpoint 
possible affected areas, EP&R must make use of intelligence 
information to inform its planning and preparedness activities. 
The committee will be interested to hear how that intelligence 
information is being analyzed and developed within the 
department, how it is being used within the directorate, and 
how it is being shared with state and local law enforcement and 
first responders.
    Mr. Brown, I appreciate the challenge you have before you 
given that the department was first organized less than four 
months ago. Much of your effort necessarily can only be a work 
in progress. But in homeland security, time is of the essence. 
And I and members of this committee are looking forward to your 
assessment of how far we have come, how much farther we need to 
go, and how this committee can be of help.
    I look forward to hearing your testimony.
    The Chair now recognizes Mr. Turner, the ranking Democrat 
member, for any statement he may have.
    Mr. Turner. Thank you, Mr. Chairman.
    It is good to have Secretary Brown here with us today.
    Welcome.
    I think we all understand that the attacks of September 11 
changed our world, and made it clear that the Federal 
Government had to change the way we will meet the clear and 
present danger to this country posed by terrorism. Therefore we 
created the Department of Homeland Security. A core mission of 
that department was stated in Homeland Security Presidential 
Directive 5; To ensure that all levels of government across the 
Nation have the capability to work efficiently and effectively 
together using a national approach to domestic incident 
management.''
    Our purpose here today is to make sure that that mandate is 
being fulfilled. It is our duty to make sure that the full 
force of the U.S. government is being put into action to 
prepare America to prevent, respond to and recover from 
terrorist attacks.
    The first reports from the front lines of the war on 
terrorism are mixed. I have talked with state and local 
officials across the country, men and women who are responsible 
for our the public safety, the individuals who make the key 
decisions locally on how to prepare their communities. Some of 
them tell me that they haven't yet heard from the Department of 
Homeland Security about the coordination of Federal, state and 
local response assets. They have yet to be involved in the 
development of an integrated terrorism response strategy, one 
that I believe would meet the standard of the efficient and 
effective mandate of the presidential directive.
    We look forward to hearing today from Secretary Brown about 
the approach that we are taking to enhance incident management.
    In my conversations with firefighters, police officers, and 
health care workers who will be the first to respond to an 
attack on our soil, many of them tell me that they have yet to 
receive the specialized training and equipment they believe is 
necessary to respond to and recover from a terrorist attack.
    In the case of the nation's fire service, many departments 
lack basic training and equipment that they need to protect 
their communities from emergencies. The people I have talked to 
range all the way from the mayor of New York City to citizens 
on the street in my hometown of Crockett, Texas, population 
7,500.
    In addition, people ask in all quarters, ``What does the 
Homeland Security Advisory System and its color codes really 
mean to me?''
    A recent survey of New York City residents reported that 
although 64 percent of the population is very concerned about 
the possibility of another terrorist attack, only 16 percent 
took any action in response to the most recent elevation of the 
alert level.
    So we have a large number of concerned citizens, but the 
truth is that many of them have no idea what they should be 
doing when an alert is given.
    Our government must lead forcefully, but thus far the 
message does not seem to be getting through. After talking with 
state and local officials, first responders, and others about 
improving our capacity to respond to the threat of terrorism, 
one message comes through loud and clear: We must move faster, 
and we must be stronger in our efforts.
    Faster in our efforts to bring together the Federal, state, 
and local officials to meet the mandate of the Department of 
Homeland Security, to ensure that all levels of the government 
across the Nation have the capacity to work efficiently and 
effectively together. Stronger in our efforts to train, 
exercise, and equip the men and women on the front lines, and 
more vigorous in our efforts to prepare individuals, families, 
and communities for the threats that lie ahead.
    This is what we owe to the American people. When our nation 
has been under its greatest time of trial, this Congress and 
the government have worked with speed and strength of purpose.
    We all recall from our history books that in the first 100 
days of President Roosevelt's tenure, he worked with the 
Congress to build a plan that saved the Nation from economic 
devastation.
    It has been 16 months since September 11. It has been well 
over 100 days since the founding of the Department of Homeland 
Security. In my judgment, we must move faster, and we must be 
stronger in our efforts to protect America.
    This is our objective. It is one that I think we all 
approach with unity and with resolve, and I am glad that we 
have the opportunity today to discuss these critical issues 
with you, Secretary Brown.
    And thank you, Madame Chairman.
    Ms. Dunn. [Presiding.] Thank you, Mr. Turner. I now yield 
myself a few minutes for an opening statement. We are very 
happy you are here with us today, Secretary Brown. Thank you 
for coming before us today. We are eager to hear your 
testimony.
    First, I want to thank you for the help you have provided 
in supporting first responders all over the country. It is very 
important in our effort to fight terrorism that those 
individuals on the front lines have the resources that they 
need to effectively prevent and respond to a terrorist attack, 
or to a natural disaster.
    I believe an integral part in achieving success is through 
adequate funding levels. I was very happy to hear that the 
Appropriations Committee recently reported out a bill that will 
include $4.4 billion for first responders.
    They are the backbone of our communities, and it is 
important that we give them the proper resources for training, 
equipment, exercises and for planning.
    My home state of Washington has many elements that make it 
susceptible, especially susceptible to a terrorist attack, with 
both a large deep-water port and hundreds of miles of border.
    Through ODP funding and the High-Threat Urban Area Program, 
my state of Washington has received over $70 million in grants 
in fiscal year 2003. And I thank you, Secretary Brown, for 
assisting local responders in my state for preparing for an 
attack.
    However, there continue to be many concerns in local 
communities that they are not receiving enough funding for 
equipment and training. This is exasperated, of course, when 
the threat level is adjusted upward.
    An important part of this committee's mission is to have 
oversight over the newly created Department of Homeland 
Security. Currently, ODP funds are allocated directly to 
states, with 80 percent being passed through the local 
communities.
    There are concerns that arise when states pass the majority 
of their funds to large cities, with smaller communities not 
receiving their fair share.
    I believe it is important to look into this formula for 
first responder funding, and address of the changes needed. 
Secretary Ridge agreed, and said that you are doing such a 
review currently.
    In addition, a primary part of your mission at EP&R is to 
minimize losses from all disasters, including terrorist attack. 
When Congress approved the Homeland Security Act, we integrated 
six different components into your directorate to help you 
achieve that mission.
    When integrating so many different components into a single 
unit, communication becomes a major priority.
    Communication between the different components, as well as 
with state and local officials, is needed for effective 
response. And I hope today to hear your efforts in that field 
as you testify before us.
    While I believe we have done a good job in routing out 
terrorism around the world, we know that the threats still 
exist, and we must be ready to respond. So I too look forward 
to hearing how the Department of Homeland Security is prepared 
to deal with this eventuality.
    Are there other members who wish to give opening 
statements?
    Any members on this side?
    All right, the Chair recognizes Ms. Sanchez for an opening 
statement.
    Ms. Sanchez. Thank you, Madam Chair.
    And thank you, Secretary Brown, for being here with us 
today.
    You know, since September 11, one of the most high profile 
issues surrounding our nation's new homeland security mission 
is of course the whole nature of first responders, who is to do 
that, and who is to pay for emergency response system.
    And I am sure that there hasn't been a single member who 
has not discussed this with their local police and their fire, 
their hospitals, their emergency health care workers, because 
many of them do feel that it is an unfunded mandate, something 
coming from the Federal Government.
    I mean, they know that they have to do it. They know that 
they are responsible for their people. They are the first ones 
there. But it is costing them quite a bit of money to do all of 
this, and in particular when we go from a yellow to an orange 
alert or an orange alert to a red alert, they consider that 
they need to staff up, need to put more people out, need to 
protect more assets.
    And so, many of them are very, very worried about the whole 
issue of funding. And I hope that as we detail what you have 
been able to do in this department, that you will also talk 
about some of the funding issues.
    And one that I want to put right on the table is the whole 
issue of the fact that we have, to some extent, done some 
granting processes, either through the congressional method, 
through a supplemental and also through the appropriations 
process.
    But more importantly, I know that the department has done 
some grant-based and state grant-based types of programs.
    What I see to be one of the biggest problems with that is 
that those programs revolve around additional equipment or 
equipment that different agencies might need. Whereas in 
talking to law enforcement and fire and others, up and down the 
state of California, at least, where a large amount of the 
population lives--we are the fifth largest economy in the 
world--their biggest problem has been that they need to put 
more staff on, or they need to pay overtime.
    And so, fully over 80 percent of their costs when they go 
on Orange alert, for example, are really for monies that aren't 
covered in any way coming out of the Federal system.
    And so, I would like to, when the question begins, get your 
opinion on what we could do at the Federal level to help with 
some of those costs that really are just a very heavy burden at 
the local level.
    In addition to that, we have, of course, FEMA, urban search 
and rescue teams. We have nuclear incident response teams. We 
have a whole bunch of other first responders that we need to 
discuss and talk about and see how this is all fitting. And, of 
course, a lot of it comes to funding.
    The chairman, Mr. Cox, talked about the fact that we need 
to share intelligence. And that is true. But when you have an 
incident and you need to respond, it is all about being able to 
get there.
    So as somebody who represents Disneyland, Anaheim 
Convention Center, the World Champion Angels, the Arrowhead 
Pond with its might docks, all these places, it is very 
important for me to see that we are working at the Federal 
level to ensure we have a good plan and we have a good funding 
plan.
    Thank you.
    Ms. Dunn. Thank you very much, Ms. Sanchez.
    Are there members on the other side who wish to give 
opening statements?
    Let me call then on Mr. Langevin for an opening statement.
    Mr. Langevin. Thank you, Mr. Chairman. I would like to 
welcome our witness, Undersecretary Michael Brown. I know you 
have a mammoth task facing you, and I appreciate your 
willingness to be here today to provide some insight on the 
progress you are making, and to answer our questions about 
critical issues of preparedness and response.
    The Emergency Preparedness and Response Directorate is a 
critical component of DHS, in particular because of its close 
relationship with our state and local officials and first 
responders. If this unit is not operating effectively, all of 
our communities are placed at tremendous risk. So, I am very 
interested in hearing about how the EP&R Directorate is 
operating thus far, what level of communication and outreach is 
taking place between EP&R and our state and local personnel, 
what additional resources and assistance we on the Committee 
might provide to help you improve your operations, and what 
message we can bring back to the elected officials and first 
responders in our districts about where they should be focusing 
their energies and what help and guidance is available to them 
from DHS.
    I am perplexed, along with many of my colleagues, about the 
apparently overlapping roles of the EP&R Directorate and the 
Office for Domestic Preparedness, housed within the Border and 
Transportation Security Directorate. This division, at least on 
its face, looks like a recipe for duplication of efforts; or 
worse, crucial tasks falling through the cracks. In addition, 
it seems to be breeding unnecessary confusion at the state and 
local level, at the very time we should be ensuring a clear, 
direct and streamlined system for information-sharing, 
technical guidance and funding assistance. Our governors, 
mayors, firefighters, police officers and emergency medical 
workers are relying on us to provide this consistency and 
stability.
    Finally, I am interested to hear about an issue that is a 
top priority for me, and that is the intelligence aspect of 
DHS. Specifically, I hope the Undersecretary will touch on the 
level of interaction he and his staff have had with the 
Information Analysis and Infrastructure Protection Directorate, 
and whether he is receiving sufficient intelligence to properly 
determine where to dedicate scarce resources and how to best 
guide state and local responders to do the same. Without this 
intelligence capacity, it seems to me that DHS cannot operate 
effectively.
    Again, I thank Undersecretary Brown for being with us 
today, and I appreciate the chairman giving me this time.
    Chairman Cox. [Presiding.] Does any member of the majority 
side wish to make an opening statement?
    Ms. Lofgren. I would like to ask unanimous consent to 
submit my statement for the record.
    Chairman Cox. Without objection, all members will be 
permitted five days to submit additional statements, which will 
be included in full in the record.
    Any other member wish to be recognized for purposes of an 
opening statement?

 PREPARED STATEMENT OF THE HONORABLE BENNIE THOMPSON, A REPRESENTATIVE 
               IN CONGRESS FROM THE STATE OF MISSISSIPPI

    I am pleased that Under Secretary Brown has joined us today to tell 
us how the Emergency Preparedness and Response Directorate is improving 
the Nation' ability to respond to terrorism. As the Ranking Member on 
the Subcommittee that provides oversight for his Directorate, I am very 
interested in Mr. Brown' testimony, and sincerely hope that he can 
clarify the specific responsibilities of his Directorate, as opposed to 
the responsibilities of other components of the Department, such as the 
Office for Domestic Preparedness.
    Specifically, it is important for the Committee to understand the 
division of responsibility between ODP and the EP&R Directorate, given 
that so many of their functions seem to overlap. State and local 
governments have expressed confusion about which organization within 
DHS is their principal point of contact as they enhance their 
capability to respond to acts of terrorism and other disasters and 
emergencies. Ultimately, who in the Administration is `` charge''of 
assuring that the Nation is prepared--at all levels--to respond to 
terrorist acts?
    The Department has stated that it is working to ensure that all 
levels of government across the Nation have the capability to work 
efficiently and effectively together, using a national approach to 
domestic incident management. We must make sure that the might of the 
U.S. Government--working hand in hand with State and local 
governments--is being put into action to prepare America, so that we 
can prevent, respond to and recover from terrorist attacks.
    In order to be more effective, the Department of Homeland Security 
must work harder to listen to the needs, successes and frustrations of 
our first line of homeland defense--the first responders. DHS must 
create more open and lines of communication. The men and women who 
prepare our communities for disasters and then help our communities to 
rapidly recover are absolutely critical. I have met frequently with 
these men and women in my District, and I have told them that the work 
we do here in Washington must match the needs of people at the local 
level.
    In its former life as FEMA, the EP&R Directorate was widely viewed 
as a ``success story,'' by becoming more responsive to communities 
after major disasters and emergencies. Can EP&R still effectively 
perform its traditional disaster response and recovery mission, given 
DHS's primary focus on terrorism prevention and preparedness? Are we 
ready for the next major earthquake or hurricane, or in my District, 
the next major flood?
    On April 24 of this year, the President declared a flood disaster 
in 31 Mississippi counties, including 10 counties within my District. I 
want to ensure that EP&R--as a component of DHS--still has the 
resources and support of both the Department and the Administration to 
quickly distribute desperately needed disaster relief to affected 
residents and local governments.
    Our focus on terrorism, while appropriate, must not overtake our 
critical responsibility to quickly and efficiently respond to all 
disasters, natural or man-made. EP&R must have the authorities to 
assemble and direct the response resources of the Federal Government 
whenever they are required.
    In addition, the Administration should fully support all emergency 
grant programs for State and local governments. I am concerned that the 
Administration's fiscal year 04 budget request for both the FIRE Grant 
program and the Emergency Management Performance Grant program were far 
below the appropriated levels in fiscal year 2003. How does DHS propose 
that States and localities plan, train, and exercise for--and respond 
to--acts of terrorism and other disasters without sufficient resources 
to build their response capabilities?
    We must move faster and we must be stronger in our efforts to 
protect and defend the United States of America. I hope the testimony 
we hear today will clearly describe the Administration's plan for doing 
so.

 PREPARED STATEMENT OF THE HONORABLE ZOE LOFGREN, A REPRESENTATIVE IN 
                 CONGRESS FROM THE STATE OF CALIFORNIA

    Thank you Chairman Cox and Ranking Member Turner for holding this 
important hearing. I also want to welcome Undersecretary for Emergency 
Preparedness and Response, Michael D. Brown. I look forward to your 
testimony and comments.
    A little over 10 years ago, the Federal Emergency Management Agency 
(FEMA) was widely thought to be one of the least effective departments 
in the Federal Government. It was inefficient, unresponsive and 
wasteful.
    Under the outstanding leadership of Director James Lee Witt, FEMA 
underwent a dramatic change throughout the 1990's. Director Witt 
transformed the very culture of FEMA. It became an effective disaster 
response agency that provided hands-on assistance to those at risk, 
both before and after disaster strikes. FEMA adopted a new emphasis on 
customer service providing communities and businesses with skills, 
knowledge, services and technology to minimize damage and loss from all 
kinds of natural and man-made disasters. In short, FEMA became a model 
government agency.
    When people think of FEMA today, they think of an agency that helps 
our citizens in the most desperate of times. FEMA teaches people how to 
get through a disaster. It helps equip local and state emergency 
preparedness officials. It coordinates the Federal response to a 
disaster. It makes disaster assistance available to states, 
communities, businesses and individuals. FEMA' mission is crucially 
important, and the people of FEMA work very hard each and every day to 
complete their mission. I want to make sure that FEMA keeps its 
sterling reputation.
    As we all know, FEMA is now part of the Department of Homeland 
Security. I consider FEMA to be one of the true bright spots within 
DHS. That being said, I have serious concerns about the mission of FEMA 
becoming blurred.
    In section 101 of the Homeland Security Act (PL 107-296) the 
mission of the Department of Homeland Security is explicitly defined. 
One of the primary missions of the Department is to ``...ensure that 
the functions of the agencies and subdivisions within the Department 
that are not related directly to securing the homeland are not 
diminished or neglected except by a specific explicit Act of 
Congress;''
    Is DHS in compliance with this directive? Is the staff of FEMA 
spending more time on fighting terrorism than disaster preparedness? 
Both of these are important tasks, and both must be done well. However, 
disaster preparedness, response and recovery must not take a back seat 
to the war on terror.
    Is FEMA still fully prepared to address multiple disasters? Not too 
far to the west of Washington, DC, there are terrible floods ravaging 
West Virginia. What is FEMA doing to help people recover? If a major 
earthquake, like the Loma Prieta earthquake of 1989, struck my hometown 
of San Jose tomorrow, would FEMA also be able to provide critically 
needed resources to the San Francisco Bay Area?
    I want to be reassured by Undersecretary Brown that FEMA is 
fulfilling its mission. I want to hear that you have the staff, 
resources and access within DHS to get the job done. I do not want to 
see a slow return to the early 1990' when FEMA was nothing more than an 
ineffective bureaucracy.
    To be perfectly honest with you, I have not been impressed with the 
overall leadership of the Department of Homeland Security. The 
Department is moving too slow, and we do not have the luxury of time. 
We are quickly approaching the 2-year anniversary of the September 1 1 
Is America actually safer than it was on September 10, 2001? Have we 
accurately and comprehensively identified the threats? Have we reduced 
our vulnerabilities? Is the Nation sufficiently prepared to prevent and 
respond to future terrorist attacks? Unfortunately, I believe the 
answer to these questions is, for the most part, no.
    Undersecretary Brown, FEMA should be a shining example of 
efficiency within DHS. I hope that you will tell us today that you are 
playing a leading role to get this department up and running. It would 
be most unfortunate and irresponsible for FEMA to fall apart as a 
result of its absorption into the Department of Homeland Security.
    If not, the committee welcomes our witness, Hon. Michael Brown, for 
your opening statement.

STATEMENT OF HON. MICHAEL BROWN, UNDER SECRETARY FOR EMERGENCY 
   PREPAREDNESS AND RESPONSE, DEPARTMENT OF HOMELAND SECURITY

    Mr. Brown. Good afternoon, Chairman Cox, Mr. Turner, and 
members of the committee. My name is Michael Brown, and I am 
the undersecretary of Homeland Security for emergency 
preparedness and response.
    I really appreciate the opportunity to testify before you 
today. You invited me here today to discuss the question have 
we improved our capability to respond to a terrorist attack?
    My answer is yes, we have. By bringing 22 different 
departments agencies into the Department of Homeland Security, 
and integrating their capabilities, we are strengthening our 
ability to respond to terrorist attacks.
    EP&R, in particular, has increased its ability to respond 
to terrorist attacks by incorporating new assets into our 
directorate, thereby strengthening the well-tested, all-hazards 
focus that FEMA previously had.
    We have increased coordination of Federal planning and 
response activities, and are more effectively using resources 
to support first responders and preparedness efforts at the 
state and local level.
    These improvements will continue to strengthen our ability 
to respond to all types of disasters. Our mission in the 
Department of Homeland Security is to prepare for, respond to, 
recover from and lessen the impact of all types of disasters.
    This all-hazards approach is the core of our strength in 
responding to any disaster, including those caused by acts of 
terrorism. Regardless of the cause of an incident, we have 
established a robust system of emergency management.
    This system has been practiced at the local, state and 
Federal levels of government. It is the foundation for 
responding to a terrorist attack. Over the past 5 years, we 
have responded to an average of more than 100 presidentially 
declared disasters and emergencies each year.
    Thanks to the leadership of President Bush and Secretary 
Ridge and the Congress, we now have the opportunity to 
coordinate our Federal preparedness and response systems as 
never before.
    On February 28, President Bush signed Homeland Security 
Presidential Directive Number Five, On the Management of 
Domestic Incidents. HSPD-5 calls for the creation of a single, 
comprehensive, National Incident Management System and for the 
integration of the separate Federal response plans into a 
single, all-discipline, all-hazards National Response Plan.
    The Secretary of homeland security is responsible for 
developing and implementing both of these initiatives. We are 
actively participating in the task force created by Secretary 
Ridge to develop the National Response Plan and a framework for 
the National Incident Management System.
    Establishing who is in charge is an important 
accomplishment in the post-9/11 era. EP&R's new structure for 
response is based on the Incident Management System.
    Thus, we are better aligned to meet the needs of both the 
state and local responders. The division now includes many 
national response assets formerly maintained within other 
Federal agencies.
    These assets include the National Disaster Medical System, 
the Domestic Emergency Support Team, the Strategic National 
Stockpile, the Nuclear Incident Response Teams, and the 
Metropolitan Medical Response System.
    Consolidating national response plans and assets improves 
our responsibilities and increases coordination within DHS, 
other Federal departments and agencies, as well as the state 
and local entities.
    The Federal Government will continue to provide the 
services the American people have become accustomed to during 
emergencies and disasters. But now, within the Department of 
Homeland Security, we are better able to maximize Federal 
resources, streamline delivery processes and focus programs and 
assets on state and local response needs.
    But increased coordination by itself does not entirely 
account for our improved ability to respond to disasters. The 
Department of Homeland Security has distributed significant 
resources in support of homeland security efforts directly into 
out neighborhoods, our communities and the states.
    In order to help state and local governments prepare for 
disasters, including terrorism, EP&R is working in close 
partnership with other grant-making organizations within the 
department to distribute our fiscal 2003 grants.
    In April we provided $165 million to help state and local 
governments better prepare to respond to all-hazards 
preparedness activities and emergency management.
    Just last week, we began to distribute the $745 million 
appropriated by Congress for the Assistance to Fire Fighters 
Grant Program. At the end of this process, we will have 
distributed nearly 7,000 grants directly to local fire 
departments.
    These grants will help build their basic response 
capabilities for all types of emergencies. We will begin 
awarding nearly $74 million in grants to upgrade and enhance 
state and local emergency operations centers later this month.
    Along with the Office of Community Oriented Policing 
Services, we will award $146.5 million this fiscal year to fund 
demonstration projects establishing standards for interoperable 
equipment nationwide.
    Just last month, we provided nearly $19 million in grants 
to states and territories to expand the Community Emergency 
Response Team program. This program trains citizens to better 
prepare for emergency situations in their local communities.
    The CERT program is a key component of Citizen Corps, 
President Bush's initiative to involve Americans into 
preparedness of their communities. We have increased the number 
of local Citizen Corps councils by 209 just since March 1, for 
a total of 560 councils in 51 states and territories.
    When I recently announced the CERT grants in Olaphe, 
Kansas, I had the good fortune to meet CERT members who had 
worked to help their neighbors recover from the recent record 
number of tornadoes in the Midwest. This is an excellent 
example of what the CERT program and Citizen Corps can do to 
accomplish preparedness at the local level.
    Since the creation of the department, we have demonstrated 
the operational readiness of EP&R's National Interagency 
Emergency Operations Center, our regional operations centers, 
the NDMS, the desk, and other specialized support teams that we 
now have.
    During Operation Liberty Shield, these assets and team 
worked in close coordination with the DHS Homeland Security 
Center and other elements of the department to prepare for any 
potential domestic incidents.
    The recent TOPOFF II exercise allowed DHS to test its new 
procedures. EP&R was able to establish an operational 
relationship with the DHS Crisis Action Team and our new 
systems, such as the Strategic National Stockpile.
    This exercise was very useful, not only because it helped 
us to see what is working but also to see what needs 
improvement.
    By pinpointing challenges through exercises, we are helping 
ensure a better response and a more timely delivery of 
assistance. Practicing with these specialized teams and working 
in close partnership with the other DHS elements, we will 
strengthen what we have done well in the past.
    Since March 1, EP&R has provided disaster relief in 33 
presidentially declared disasters and emergencies in 26 states 
from Alaska to New York.
    These disasters include events such as a Presidents Day 
snowstorm, the Columbia Shuttle and the devastating, and the 
devastating number of tornadoes that struck across the Midwest 
and the South.
    Increased coordination, effective use of resources and 
continual training have helped us to improve our capability to 
respond to a terrorist attack and simultaneously sustain our 
ability to respond to all kinds of disasters, including 
terrorism.
    There is more that we can do to continue that improvement, 
and I have outlined some of the actions that we are going to 
take to do that. Following the leadership and the direction of 
President Bush and Secretary Ridge, I am committed to making 
certain that we are ready to respond to any incident that 
occurs, whether natural or manmade.
    The department looks forward to working with Congress as a 
partner in that commitment.
    Mr. Chairman, I appreciate the opportunity to testify 
today, and I am certainly happy to answer any questions the 
members might have.
    [The statement of Mr. Brown follows:]

  PREPARED STATEMENT OF THE HONORABLE MICHAEL BROWN, UNDER SECRETARY 
EMERGENCY PREPAREDNESS AND RESPONSE DIRECTORATE DEPARTMENT OF HOMELAND 
                                SECURITY

    Good morning, Chairman Cox and Members of the Committee. I am 
Michael Brown, Under Secretary for the Emergency Preparedness and 
Response Directorate of the Department of Homeland Security.
    Since becoming the Emergency Preparedness and Response Directorate 
(EP&R) of the Department of Homeland Security (DHS) just over 100 days 
ago, the Federal Emergency Management Agency (FEMA) has continued its 
traditional role of leading the Nation in preparing for, preventing, 
responding to, and recovering from disasters caused by all hazards. 
Because the Department was created to secure the homeland, FEMA has 
also taken on new emergency management and homeland security 
responsibilities.
    By bringing 22 Departments and Agencies into DHS and integrating 
their capabilities, we are strengthening our ability to respond to 
terrorist attacks. EP&R in particular has increased its ability to 
respond to terrorist attacks by incorporating new assets into our 
Directorate, thereby strengthening our all-hazards focus.
    When FEMA became part of DHS on March 1, 2003, we were responding 
to the loss of the Space Shuttle Columbia. Since that time, we have 
responded to an additional 33 major disasters and emergencies in 26 
States caused by tornadoes, floods, and snowstorms.
    We have continued to better prepare First Responders and State and 
local governments for all hazards through grants and training programs.
    We have provided assistance to thousands of disaster victims and 
continued our efforts to support the recovery of New York from the 
terrorist attack on the World Trade Center on September 11.
    In short, we have continued to carry out our mission to lead 
America to prepare for, prevent, respond to and recover from disasters, 
whether they are natural or man-made. This was our mission before 
joining the new Department and remains our mission today. As a result 
of the Homeland Security Act, we have also taken on new emergency 
management and homeland security responsibilities as we entered the 
Department.
    It was an honor to serve Joe Allbaugh as the Deputy Director and 
General Counsel of FEMA. It is also a great honor for me to now serve 
Secretary Tom Ridge as I lead the Emergency Preparedness and Response 
Directorate (EP&R) into a new era as part of DHS. EP&R will be divided 
into four disciplines--preparedness, mitigation, response and recovery. 
This reorganization reflects the traditional areas of emergency 
management. It also resembles the organizational flow used by many 
States, who continue to be our principal partners in emergency 
management.
    Preparedness
    Since March 1, the Preparedness Division has continued to implement 
its preparedness grants and training programs, and has already put to 
use its new assets since the transition to DHS. The Preparedness 
Division had the opportunity to test its capabilities during the 
exercises including the nationwide Top Officials 2 exercise (TOPOFF II) 
in May 2003, as well as providing funding to State, tribal and local 
governments through a variety of grant programs.
    The recent Top Officials 2 (TOPOFF II) exercise served as a good 
test of significant new organizational structures and provided some 
good lessons as to how our efforts could be improved. It tested new 
procedures, such as our operational relationship with the DHS's Crisis 
Action Team, and inherited systems, such as the Strategic National 
Stockpile. This exercise was a success, in part because it revealed 
several areas for improvement that the Directorate is now addressing. 
By pinpointing challenges through exercises, we can help ensure a 
better response and a more timely delivery of assistance. The exercise 
also validated that our existing processes and procedures will allow 
EP&R to respond to a disaster, including a terrorist attack with a 
weapon of mass destruction.
    Although national level exercises like TOPOFF II are important and 
valuable, community-based exercises are equally important for a 
comprehensive and truly effective national exercise program. Recently, 
a train carrying hazardous materials derailed near Laguna, New Mexico. 
Fortunately, local emergency responders and the New Mexico Office of 
Emergency Services were ready. A response exercise held just weeks 
earlier had prepared responders for such an event. The bottom line is 
that community-based exercises work, and they work at the first 
responder level, where they are most needed.
    Communities must have the funding to support such planning and 
exercises. In April, we provided $165 million in Emergency Management 
Performance Grants (EMPG) to help state and local governments better 
prepare to respond to all hazards preparedness activities and emergency 
management.
    As a sign of the growing national interest in individual and 
community preparedness, Citizen Corps has increased its number of local 
councils by 377 since March 1, for a total of more than 628 Councils in 
51 States and Territories. Councils are serving nearly 35 percent of 
the U.S. population or approximately 90 million people. Five new 
affiliates have partnered with Citizen Corps since March, including the 
U.S. Junior Chamber of Commerce, the National Volunteer Fire Council, 
the National Voluntary Organizations Active in Disaster, the Points of 
Light Foundation, and the National Safety Council.
    A key component of Citizen Corps is the Community Emergency 
Response Team (CERT) program, which helps train citizens to be better 
prepared to respond to emergency situations in their communities. In 
May 2003, we provided nearly $19 million in grant funds to states and 
territories to expand the CERT program through additional state-offered 
Train-the-Trainer courses and to help communities start CERT programs 
and expand existing teams. When I announced these grants recently in 
Olathe, Kansas, I had the good fortune to meet Community Emergency 
Response Team members who worked together to help their neighbors 
recover from the recent destructive tornadoes in the Midwest. This is a 
fine example of what CERT can accomplish.
    DHS is committed to helping fire fighters improve their 
effectiveness and stay safe. The responsibilities of the fire service 
have increased since 9/11 to include planning for and responding to 
possible terrorist attacks. This year, Congress appropriated $750 
million for grants to increase fire departments? basic fire suppression 
response capabilities for all types of emergencies, including fire 
suppression. For fiscal year 2004 the Administration proposes to better 
coordinate fire department grants with other First Responder programs 
and focus the grants on the equipment and training required for 
responding to terrorist events as part of the Office for Domestic 
Preparedness.
    Our National Emergency Training Center, which includes the National 
Fire Academy and the Emergency Management Institute, continues to 
provide training to the leaders of the first responder community. We 
train more than 15,000 students a year on campus and more than 100,000 
students a year off campus. Our training prepares first responders from 
the fire, EMS and emergency management community, as well as local 
officials all across the country. With the addition of Noble Training 
Center in Anniston, Alabama, our capabilities are being expanded and we 
will be able to reach more first responders than ever before.
    Many of our State and local partners told us that their Emergency 
Operations Centers (EOCs) are in need of physical and technical 
improvements to enable them to provide an effective command and control 
structure to respond to all-hazards disasters and to house secure 
communications equipment. We expect to award nearly $74 million in 
grants to upgrade and enhance state and local EOCs this month.
    Mutual aid remains one of our top priorities, both through the 
enhancement of existing mutual aid systems such as the Emergency 
Management Assistance Compact and through the development of new inter-
local and intrastate agreements and compacts. There is an urgent need 
to enhance and integrate mutual aid agreements among State and local 
governments and to tie them into a national system for requesting, 
receiving, and managing emergency response resources. Such a system 
will greatly enhance the Nation's ability to respond to all types of 
disasters and will provide senior officials and elected leaders at all 
level of government with the ability to ``see'' real-time an inventory 
of nearby response assets. This month, working with EP&R and the 
National Emergency Management Association, eight States participated in 
a test to identify the kind, type and quantity of resources available 
in their community that could be used for mutual aid response.
    Interoperability is a critical component of any response, 
regardless of the hazard. EP&R, in close coordination with the Office 
of Community Oriented Policing Services (COPS), will award a total of 
$146.5 million in grants this fiscal year. Local jurisdictions across 
the Nation will compete for demonstration projects that will explore 
uses of equipment and technologies to increase interoperability among 
the fire service, law enforcement, and emergency medical service 
communities. These demonstration projects will serve as models of 
interoperable solutions that can be shared throughout the nation.
    On February 28, 2003, the President established a single, 
comprehensive national incident management system and provided for the 
integration of separate Federal response plans into a single all-
discipline, all-hazards national response plan. The Secretary of 
Homeland Security is responsible for developing and implementing both 
initiatives. EP&R is actively participating in the task force created 
by Secretary Ridge to develop the National Response Plan (NRP) and a 
framework for National Incident Management System (NIMS). As directed 
in the Department of Homeland Security Act of 2002, EP&R will play a 
key role in the management and maintenance of NIMS once it is 
developed.
    Mitigation
    Since the integration into DHS, the Mitigation Division has focused 
primarily on two Presidential initiatives: the flood map modernization 
program and pre-disaster mitigation. This groundwork sets the stage for 
results for the rest of this fiscal year and beyond.
    We have nearly $200 million available for our flood map 
modernization program this fiscal year--$149 million appropriated by 
Congress and $50 million in National Flood Insurance Program (NFIP) 
policyholder fees.
    The funding enables us to embark on a multi-year effort to update 
and digitize our flood map inventory, which consists of 100,000 paper 
panels. Updating flood insurance rate maps will make community 
assessment of flood risks more accurate and improve floodplain 
management decisions. An updated map inventory will also provide the 
basis for prudent flood insurance decisions and an actuarially sound 
insurance rating.
    Flood risk identification is central to informing decision-makers 
at all levels of government and in helping to shape their assessment of 
risks. Effective flood hazard mitigation hinges, in the final analysis, 
on accurate identification of the risk. A sustained commitment to the 
President's initiative for updating the NFIP's flood map inventory will 
result in even more effective risk reduction.
    Our flood map modernization initiative reflects, too, the 
President's overall management agenda: the effort will be citizen-
centered, results-oriented, and market-based. We have been laying the 
groundwork for this significant undertaking and plan to award a 
contract for the flood map modernization program this summer.
    We have also continued our commitment to hazard mitigation 
programs. This fiscal year, Congress appropriated $149 million for the 
Pre-disaster Mitigation Program. We have provided planning grants to 
the states and five territories to assist in identifying and 
prioritizing cost effective mitigation projects.4
    The competitive Pre-Disaster Mitigation Grant (PDM) program will be 
announced soon. This competitive pre-disaster program is another 
Presidential initiative that will allow us to do risk reduction work 
before the next disaster occurs. The intent of this new program is to 
provide a consistent source of funding to State, Tribal, and local 
governments for pre-disaster hazard mitigation planning and projects.
    The PDM program provides a significant opportunity to raise risk 
awareness and to reduce the Nation's disaster losses through mitigation 
planning that includes risk assessment, and the implementation of pre-
identified, cost-effective mitigation measures before disasters occur. 
Examples of these measures include establishing retrofitting existing 
structures to protect against natural hazard events and acquisition and 
relocation of flood-prone structures. Funding these hazard mitigation 
plans and projects will reduce overall risks to the population and 
infrastructure and - in the long-term - will reduce reliance on funding 
from disaster assistance programs following an event.
    EP&R also issued guidance for the Flood Mitigation Assistance (FMA) 
program for fiscal year 2003. As in prior years, EP&R will award 
planning, technical assistance and flood mitigation project grants 
under the FMA program. For fiscal year 2003, we have established a 
national priority of mitigating National Flood Insurance Program 
repetitive flood loss properties for both the PDM and FMA programs.
    Response
    Since March 1, the Response Division has been working to merge our 
various new assets, teams and responsibilities into the Emergency 
Preparedness and Response Directorate.
    The Response Division's structure is based on the Incident 
Management System so that it is aligned to meet the needs of State and 
local responders. In addition, it is designed to meet the President's 
direction to establish a National Incident Management System (NIMS). 
Further, the Division includes many national response assets formerly 
maintained within other Federal agencies. These include: the National 
Disaster Medical System (NDMS); the Domestic Emergency Support Team 
(DEST); the Strategic National Stockpile; and the Nuclear Incident 
Response Team (NIRT).
    As part of these efforts, over the last 100 days, the Response 
Division has detailed personnel to the Transportation Security 
Administration to develop the National Response Plan (NRP) and the NIMS 
and has initiated the necessary steps to create dedicated, rapid-
deployment DHS Incident Management Teams.
    We have conducted joint planning with DHS to enhance operational 
readiness of the National Interagency Emergency Operations Center 
(NIEOC), Regional Operations Centers, NDMS, DEST and other specialized 
support teams during Operation Liberty Shield.
    We have been working with the Office of Emergency Response, 
including the NDMS, on a wide array of issues, such as transferring 
staff to the EP&R headquarters building, integrating NDMS assets into 
the EP&R structure, and enhancing operational readiness of NDMS teams. 
We continue to work with the Department of Health and Human Services to 
delineate roles and responsibilities related to the Strategic National 
Stockpile. We are incorporating the DEST and NIRT into EP&R planning 
and response capabilities. We have been working to integrate these 
response assets into a mission capable organization that will build 
upon the proven disaster response foundation.
    This consolidation of national response assets allows the Federal 
Government not only to provide the services which existed prior to the 
establishment of DHS that the American people have become accustomed to 
during emergencies and disasters, but also it enhances our ability to 
maximize Federal resources, streamline delivery processes and focus 
programs and assets on State and local needs.
    Prior to joining DHS, the focus of the disaster programs within 
FEMA was one of an all- hazards approach. This focus remains today and 
benefits from the more global perspective of DHS and its related 
components.
    However, we are not resting on our past achievements. We will be 
working with the Congress, other Federal partners, state and local 
leaders, and other affected stakeholders to continue to enhance our 
ability to respond effectively to all types of disasters.
    Recovery
    EP&R has provided disaster relief in 33 presidentially declared 
disasters and emergencies in 26 States from Alaska to New York since 
March 1. These disasters include such events as the President's Day 
snowstorm and the devastating tornadoes that struck across the Midwest 
and South last month.
    When I traveled to some of the areas hardest hit by the tornadoes, 
I had the opportunity to meet with some of the victims of these 
terrible storms. Their lives had been totally devestated. They had lost 
family members. They had lost their homes. I can't adequately describe 
in words the impact of looking into the eyes of people who have lost 
everything. But when things are at their worst, our people are at their 
best--I have never been more proud to be a part of the Federal 
organization that already had individuals on the ground providing 
assistance to those in need and getting the process of disaster 
recovery underway.
    We have received more than 66,000 disaster assistance applications 
at our National Processing Services Centers and have provided disaster 
victims with more than $80 million for housing and other immediate 
disaster relief needs.
    Further, EP&R is conducting regular assessments of our Disaster 
Field Office activities, including After Action meetings for disasters 
such as Typhoon Chata'an and Pongsona that devastated Guam and Chuuk, 
so that we can continually make improvements in our disaster 
operations.
    EP&R has already declared two Fire Management Assistance grants 
this wildfire season for Hawaii and New Mexico to assist in 
controlling, managing, and mitigating fires that were threatening to 
become major disasters.
    In our ongoing efforts to assist the recovery from the terrorist 
attacks of September 11, EP&R is finalizing a Memorandum of 
Understanding with the Centers for Disease Control and Prevention to 
fulfill requirements in the Consolidated Appropriations Resolution of 
2003. This agreement will provide $90 million for administering 
baseline and follow-up screening, clinical exams, and health monitoring 
for emergency services, rescue, and recovery personnel.
    EP&R continues to break new ground in disaster relief as we 
implement improvements in our programs following Congressional 
approval. We have just recently implemented the new replacement housing 
provision authorized by the Disaster Mitigation Act of 2000 for the 
first time on a large scale during the recent tornado disasters.
    Additionally, EP&R is implementing new regulations for the Crisis 
Counseling and Training Program that provides states with funds for 
crisis counseling for disaster victims. This program proved to be 
vitally important in our recovery efforts for 9/11. While there are 
established program timelines for providing counseling services, the 
new regulations provide greater flexibility to extend the program in 
limited circumstances to deal with the impacts of catastrophic events, 
such as terrorism.
    As we provide assistance to disaster-stricken communities, we 
continue to look for ways to improve. The Recovery Division has also 
taken the first steps in redesigning the Public Assistance Program. 
While we process Public Assistance in a timely and efficient maimer, we 
want to reduce delivery times to State and local governments, and be 
more prepared to provide this assistance under the stress of terrorist 
incidents and other catastrophic events.
    If our first hundred days within DHS are any indication, the next 
100 days may be just as busy for our recovery programs as we provide 
disaster relief in the upcoming hurricane and wildfire seasons, as well 
as for disasters and emergencies that may be caused by other hazards, 
whether natural or man-made.
    Conclusion
    During the first 100 days as part of the Department of Homeland 
Security, the Emergency Preparedness and Response Directorate has 
continued to carry out its mission to prepare for, prevent, respond to, 
and recovery from disasters and emergencies caused by all hazards. And 
we will continue to do so.
    Again, I appreciate the opportunity to testify before you today. I 
would be glad to answer any questions that you have.

    Chairman Cox. Well, I thank you very much for that 
outstanding statement.
    Let me begin by asking about the coordination between your 
directorate and the rest of the department on the subject of 
threat-based decision-making for grant allocation. We are, in 
Congress, as you know, increasing substantially the amount of 
money that we are making available for both the preparedness 
and response. We are expecting in the future that we will have 
within the department a capability to analyze intelligence and 
rank threats, to look at capabilities of terrorist, enemies of 
the United States, and to look at their intentions so to spend 
our money accordingly.
    We know that because this is early on in the construction 
of this department, that that capability isn't there yet and we 
are working in Congress to help the department get it 
established. What are you doing in the short term to base your 
spending decisions, your grant decisions and so on, on 
prioritized threats from terrorist groups with specific 
capabilities, rather than simply rationing the money out to 
feed so many hungry mouths?
    Mr. Brown. I would respond in two ways, Mr. Chairman. I 
would say, let me divide it up into two categories. First of 
all, we recognize and want to appreciate the incredible 
resources that the Congress has given us.
    And I will use the Fire Grants as an example of the first 
way that I think we are working to better coordinate the 
dispersal of those dollars.
    Every time I speak or I am out talking to groups, and we 
also need to include this concept about grants guidance, is 
that we have got to get smarter about how we utilize the money.
    So I say to the departments I speak to, and will use my 
home state of Colorado as an example, that when we do these 
Fire Grants, we do not want Denver and Boulder and Longmont and 
Fort Collins, all those communities along the front range, all 
applying for the same thing.
    I mean, it is great for us all, for every fire department, 
to have the same toy, I know they all want the best equipment 
they can get.
    But instead our approach should be this: Along the front 
range of Colorado, what are the vulnerabilities? What 
capabilities do they need to build? And so I want them to come 
together and apply for those Fire Grants based on that 
intrastate regional basis, and look at it as how we build 
capabilities and solve vulnerabilities.
    And if we write that into the grant-making process and 
force them to do that, that will mean that instead of Denver, 
Boulder and Fort Collins and Longmont all applying for the same 
thing, they will apply for different things by which they are 
most qualified to get, and then on a regional basis they will 
get what they are qualified for and solve the vulnerabilities. 
That is the first point.
    Chairman Cox. Which goes to a priority that you are placing 
on the joint use of resources, rather than replicating them 
side by side?
    Mr. Brown. Absolutely, Mr. Chairman.
    Chairman Cox. And what my question goes to rather is the 
extent that you are operating in the area of fire suppression 
grants, for example. How is it that we determine that fire is 
the more serious threat that we face from terrorists, we have 
got to sort of work backward to the event that we are preparing 
for, and how did we pick that compared to some other thing?
    I mean, let me tell you what is behind my questioning and 
my inquiry into how the department is facing these challenges. 
FEMA's job in the past was a lot easier in this respect, 
because we have all of human history to rely upon in predicting 
the weather, for example.
    So if we are responding to natural disasters--tornadoes, 
floods, even forest fires, and so on--we know with a fair 
degree of mathematical certainty what it is we can expect. We 
know the physics of how it operates, we know a lot about it. We 
can even rather accurately predict the frequency. And certainly 
if it is tornadoes and so on we can pinpoint regions that are 
more prone to this.
    Terrorism is completely different because we start out with 
question marks in all of these boxes and then we fill it in 
based on what we can garner through intelligence.
    And so if we are going to make the kinds of decisions that 
have been routine and become second nature for FEMA in the 
natural disaster area, we have got to be able to tap into 
increasingly analysis of terrorist capabilities and intentions 
and estimate what they are going to do to us, where and how, 
what is the most likely. And then from there flows our decision 
to prepare in a certain way, to look at this or that kind of 
infrastructure, to give our first responders this or that 
equipment and training.
    Mr. Brown. You are absolutely right, Mr. Chairman. That is 
the second point that I want to make, is that in addition to 
doing the dual use, there is a second component of how we use 
the money smarter and more wisely, and that is to coordinate 
closely with IAIP, state and local, FBI, CIA, to develop that 
threat analysis that tells us what the vulnerabilities are. And 
we currently do that through a capability assessment review 
program that we have in the states, where we go to them and 
say, What are the vulnerabilities, both natural and manmade? 
The terrorist vulnerabilities, for example.
    And then once we get those vulnerabilities, then within the 
department we will issue grants guidance that will drive the 
money toward those vulnerabilities.
    Now, what I will tell you is what we don't have the answer 
to yet, at least that I don't have the answer to yet, is how we 
are going to rank those vulnerabilities. But the whole concept 
of getting a threat assessment through IAIP, working with all 
the other directors, including the science and technology 
group, identifying the capability assessments, whether those 
threats are, and then driving the money to those threats is 
exactly what the plan is for the department.
    Chairman Cox. Is it fair to say that, from the creation of 
the department, which was, after all, just last year, that is 
not the way we have been making these grants in the past, and 
that our end point is as you described and that we are now 
headed in that direction?
    Mr. Brown. You know, I hate to sound like a lawyer, Mr. 
Chairman, but it is a little bit of both. We were doing some of 
that prior to March 1, in the sense that FEMA had always tried 
to get folks to focus on what are the needs, what are the 
capabilities that we have to build?
    What is the additional factor now post-March 1, actually 
post-9/11, how do we identify the threats, what are the threats 
and what are the vulnerabilities, and drive the many toward 
those threats and vulnerabilities.
    The focus has shifted more to the latter.
    Chairman Cox. I want to thank you for fully addressing 
that.
    I reserve the balance of my questions for later on if we 
have time.
    And recognize Mr. Turner for 5 minutes of questions.
    Mr. Turner. Thank you, Mr. Chairman.
    Mr. Secretary, I want to ask you a little bit about the 
role of your directorate and the role of the Office for 
Domestic Preparedness. For example, the Office for Domestic 
Preparedness maintains a database of state terrorism 
preparedness assessments and statewide strategies for 
terrorism. As I understand it, that is the information that is 
required of the states in order to even be eligible for 
participation in the grant program.
    Am I correct on that?
    Mr. Brown. I think so.
    Mr. Turner. That is pretty important information, I would 
think, to know what the state preparedness assessments are and 
what their strategies are for dealing with terrorism. Does 
anyone in your directorate have access to that information?
    Mr. Brown. Yes, we do, Mr. Turner. And what is interesting 
is--President Bush originally proposed that ODP move into FEMA. 
And, so we had started down a path of building a relationship 
with ODP and FEMA about how we were going to work together and 
coordinate all these assessments.
    Now that it is gone the other direction and those programs 
are moving all into ODP, we just have to reverse process. And 
so there is a close coordination between ODP and Emergency 
Preparedness and Response about how we do the exercises 
together, how we do the capability assessments together, so 
that we are not duplicating efforts and that we are truly 
addressing vulnerabilities.
    Mr. Turner. Well, who it is in your directorate that has 
access to the information that is available in the ODP state's 
file?
    Mr. Brown. It is the preparedness division.
    We have preparedness, response, recovery, and mitigation. 
The preparedness division, which is where our original Office 
of National Preparedness was housed, it is that core group of 
people that have access to it.
    Mr. Turner. And who in that preparedness section is the 
person that reviews the filings that the state makes with ODP?
    Mr. Brown. I assume it would be Dave Garrett, who is one of 
our branch managers.
    But I will double check that and make for sure about the 
individual name.
    Mr. Turner. And when Mr. Garrett reviews it, what does he 
do with it? What is the purpose of his review?
    Mr. Brown. The purpose is to see that until we come fully 
together, that all of the grant programs that we have are not 
duplicating what ODP is doing and vice versa, so that when Andy 
Mitchell and his group is putting out money that they are not 
duplicating what we are doing. The end game is to have a one-
stop shop where we have an effort to review all of these 
capability assessment reviews and we would put the money where 
it is going to be best used.
    Mr. Turner. So am I correct to say that at this point, the 
sole purpose of and the sole use of those documents that the 
states have prepared is to determine who gets grants and how 
much?
    Mr. Brown. Well, not necessarily, because a capability 
assessment review process can be used for numerous things. I 
mean, it can be used for, obviously, preparing grant programs 
for what people need to be doing in that particular 
jurisdiction. But it can also be used to identify what types of 
first responder needs we might have on other bases. You don't 
do a capability assessment review on one single, narrow 
vulnerability, but on a wide scope of vulnerabilities.
    So we do that wide scope review and then figure out what is 
best. We even make those reviews available to other departments 
within the Federal Government that might have programs that 
could utilize that information. It is not something that we all 
grab and hold close to our chest that we try to use across the 
Federal Government.
    Mr. Turner. How will DHS know if a state or a local 
government has done enough to prepare for a terrorist attack or 
natural disaster or some other type of accident in which you 
might be involved?
    Mr. Brown. Secretary Ridge and the President both have a 
great philosophy, that this is going to be a matrixed and 
measured organization, and that we will have measurements by 
which we will gauge the development of standards. And then if 
states meet those standards as the world goes on, as the 
terrorists get better, which we hope they don't and we can stop 
them from doing that, but as technology changes, those 
standards will change.
    So the whole concept is to develop standards, keep those 
standards moving up with technology and measure the states' 
performance against those standards.
    Mr. Turner. Do you have in place standards that have been 
made available to states and local governments in areas such as 
communication equipment, so that they will be interoperable, or 
standards for other type of equipment that would be needed in 
case of response. Have those standards have been published and 
disseminated?
    Mr. Brown. Congress has just given us somewhere in excess 
of $54 million, which we are going to use on a competitive 
basis to identify the best demonstration projects across the 
states to do interoperating studies so that we can create and 
put in place those standards.
    Right now, everyone wants to talk about interoperability 
and say that we have got to have everyone talking to everyone 
else, and they always use the example of 9/11 and that no one 
could talk to anyone else.
    What we want to avoid is creating a situation where, 
indeed, everyone can talk to everyone else, because we will be 
just as interoperable if that occurs.
    So what we are trying to do is establish a National 
Incident Management System, and a National Incident Management 
Standard by which people will be able to talk to one another 
when they need to talk to one another.
    And it is through these demonstration projects that we will 
establish standards for one how and when you do that, and two, 
the equipment that it will take to meet those standards.
    Mr. Turner. Thank you, Mr. Secretary.
    Ms. Dunn. [Presiding.] The gentleman's time has expired. 
Mr. Secretary, this committee is very focused on homeland 
security. It is our responsibility to be the oversight 
committee over the department, as you well know.
    You are a FEMA guy, and you are coming into an organization 
where FEMA is one of the primary agencies that has been meshed 
under your responsibilities.
    We are looking for a focused approach to the consideration 
of our vulnerabilities and the responses to a terrorist attack. 
What percentage of your time would you say you are spending on 
looking at the area of natural disasters, which was certainly 
your responsibility before you came to this job, versus 
considering our vulnerability with respect to potential 
terrorist threats?
    Mr. Brown. I would say, Madame Chairman, that I spend all 
of my time looking at all vulnerabilities, and that we do not 
differentiate on a broad scale the difference between terrorism 
and natural disasters.
    What we focus on like a laser beam is how do we get this 
country, one--the department focuses like a laser beam--on how 
do we prevent a terrorist attack from occurring.
    My response within my directorate is to focus like a laser 
beam on how we respond if, indeed, there is a terrorist event. 
And the response system for doing that is very similar to what 
you would do in a natural disaster.
    So what I have to do is to develop the capability of first 
responders to respond to a natural disaster, to respond to a 
terrorist incident, and, unfortunately, to respond to something 
like a terrorist incident that is not caused by a terrorist but 
caused by just, you know, some goofball that causes an 
anhydrous ammonia truck to spill out here on 395.
    I have got to make certain that every first responder has 
everything the need to respond to all of those incidents.
    Ms. Dunn. Do you believe it is appropriate to retain all of 
the responsibilities of FEMA within the Homeland Security 
Department? For example, the dealing with natural disasters 
like hurricanes and floods.
    Mr. Brown. Absolutely, absolutely. What you do not want to 
do is to create a dual-track system of response in this 
country. We have, throughout the course of this country, 
developed incredibly good state and local partnerships. And we 
cannot forget, folks, we really cannot forget that--I know this 
becoming trite because everyone uses it now--but when they dial 
911, the don't reach 202-646-3900. They reach somebody in your 
district and in your hometown.
    And so what we have to do is make certain that they have 
the training and the equipment to respond to everything. 
Firefighters, policemen, the FBI, the Department of Defense, 
everyone will tell you that the best way to respond to any kind 
of disaster, any kind of incident is through a structured 
incident command system. And we must keep that incident command 
system in place for any kind of disaster.
    And if we go down the path of trying to separate the two, 
we are going to have duplicative efforts. We are going to have 
wasted money. We are going to have people that are not going 
to--I mean, they are going to worry about whether they should 
be thinking about a tornado or a hurricane or a natural 
disaster or a terrorist incident or what I call the goofball 
incident. And we can't have that. We have to have them prepared 
to respond to any incident.
    Ms. Dunn. Do you believe there should be a Department of 
Homeland Security official in each region around the United 
States?
    And if you do believe that, do you believe that they should 
be housed with FEMA? Or do you think FEMA ought to be the 
representative?
    Mr. Brown. Well, interestingly, one of the things that I 
proposed during the transition prior--before we were even going 
to know if there was going to be a department--any legislation 
or not, was the concept of putting someone in every state. FEMA 
kind of does that now with our FCO program. When a disaster 
occurs, we have someone there.
    And I think--I don't think, I know--that the vision of 
Secretary Ridge and Secretary England is to create a regional 
concept such that we are in very close contact with the state 
and locals on a day-to-day basis and know what their needs are, 
know how to communicate with them. And that is the model I want 
to take from FEMA.
    I mean, let's be honest, FEMA has been successful over the 
past, you know, since its creation since 1979 primarily because 
it has partnerships with state and local and other departments 
within the Federal Government. We must create that same kind of 
partnership with the Department of Homeland Security in order 
for us to be successful also.
    And that is exactly the kind of strategy that Secretary 
England and Secretary Ridge and the President want to pursue in 
this department.
    Ms. Dunn. The Homeland Security Act states that the Nuclear 
Incident Response Team shall operate as an organizational unit 
of the department in case of emergency. I know during the 
recent TOPOFF exercise that took place in my hometown in 
Seattle, the response team was temporarily transferred over to 
the Department of Homeland Security.
    My question is in case of a threat of an attack, how do you 
determine when the Nuclear Incident Response Team will be 
transferred over to the Department of Homeland Security? What 
takes place? And what is the communication in making that 
decision?
    Mr. Brown. Well, actually, this is a very good example of 
how we are already coordinating with some of the assets that we 
have been given operational control over, but which remain 
housed in another department. And we have already entered into 
an MOU with the Department of Energy on how that will operate.
    And I am proud to tell you that we have worked incredibly 
close with the NIRTs and have actually deployed the NIRTs prior 
to TOPOFF II to do surveillance, to do other types of works. 
And so the operational aspect that we have with the NIRTs is 
working incredibly well. And I think that is the same with the 
stockpile, with the desk, which we exercised in TOPOFF II. 
Those operational agreements are already in place.
    Are they in their final form? They are today. And I can 
tell you that as we get operational experience through all the 
exercises that we will do, I am sure we will tweak those as we 
go along.
    Ms. Dunn. Thank you very much, Mr. Secretary.
    We are going to go in order of appearance at this hearing, 
so if you have questions you want to start out?
    Let me call then on Ms. Christensen, who will have the 
floor for 8 minutes for questions.
    Ms. Christensen. Thank you, Madame Chair. I, too, want to 
welcome Mr. Brown to the committee. We are glad to have you, 
and have your FEMA experience on board in the Department of 
Homeland Security, and I want to thank you for the attention 
that you have been paying to the territories in your new 
capacity.
    Are you planning to do a regional approach in managing your 
directorate, and if so, how close are you to setting that 
structure in place?
    Mr. Brown. We are. What is interesting is since FEMA 
comprised the majority of the assets that came in to the 
emergency preparedness and response, we have just simply 
adopted that FEMA regional structure. We are currently using 
that.
    So what we are doing now is partaking the other assets that 
we have and figuring ways that we can match those assets up to 
our regions. For example, the Strategic National Stockpile has 
certain locations around the country, and so we are making 
certain that we tie those in into the closest geographical FEMA 
region, and/or the closest region that makes sense in terms of 
the operational capability.
    Ms. Christensen. So it is already set up so that is the 
Virgin Islands, for example, has to get a quick response in the 
case of any incident, they know that they go to New York where 
they always have done it?
    Mr. Brown. Absolutely. None of that has changed today.
    Ms. Christensen. I am still also concerned with the 
coordination of the different agencies that are a part of the 
emergency preparedness and response.
    I know you have answered several questions already about 
the Office of Domestic Response. What about the Department of 
Health and Human Services, which has some responsibility also 
for emergency preparedness and response?
    Can you talk a little bit about the coordination between 
your directorate and that department?
    Mr. Brown. Certainly. And I will give you and example of 
that. While we have operational control of the Strategic 
National Stockpile, we still rely upon the expertise of the 
CDC, HHS and others to tell us what needs to be in there and 
how best to deploy and utilize the stockpile.
    So those kinds of operational coordination efforts are in 
place and working incredibly well, in my humble opinion. I 
think the recent SARS example is a great, the SARS outbreak, is 
a great example of how that kind of coordination occurs from 
the moment we know something is occurring
    On the Saturday that we kind of first learned of SARS, HHS, 
DHS were already in contact with CDC, had conference calls all 
day long about what is the threat, is it terrorist-related, not 
terrorist-related, what are the vulnerabilities in this 
country, what do we need to do with the stockpile?
    Those kinds of things occur today. We are not waiting. I 
mean, time, as the chairman said earlier, is of the essence. We 
are doing that now.
    Ms. Christensen. So, I do have that concern that a lot of 
time is going to be wasted in coordinating, but you feel that 
through the exercises that, for example, like the one that we 
just had that those efforts at coordinating will be fine-tuned 
so that they move smoothly and efficiently and they are able to 
respond immediately?
    Mr. Brown. Let me just say, there was never any serious 
discussion that I heard, but, you know, you heard, you always 
hear rumblings in Washington, and one of the rumblings I heard 
was that we perhaps might postpone TOPOFF II.
    There was no desire within the department to do that. We do 
not want to waste any time. I brought with me today, which I 
will certainly share with the full committee at the appropriate 
time, the June exercise schedule.
    This is just June, of all the exercises that we are doing 
to practice this coordination with the state and local. Madame 
Chairman, we are not going to waste any time.
    I mean, I think it is of the utmost importance that we 
continue down this path of trying to do exercises and 
strengthening our relationships, not only with the territories, 
but the state and locals, all of the partnerships that we have.
    Ms. Christensen. The National Response Plan is to create a 
single comprehensive national approach. This question may have 
been asked, maybe not exactly: Is there a template plan that 
each state and territory has to guide us in developing our 
portion, segment of the plan?
    Mr. Brown. You are just about to get that. That is a great 
question. We have developed the concept, the concept is in 
place, the task force is now vetting that through the 
department, and we are getting ready to include the state and 
locals in that vetting process so that the are a part of that 
National Response Plan.
    We would be absolutely nuts if we did not include them, 
because they are the ones who, again, natural disaster, 
terrorist incident, are going to get that 911 call, so they are 
an integral part of what we are doing in terms of the NRP.
    Ms. Christensen. And for this single national coordinated 
approach, for things like communication systems, what are you 
telling the different localities in terms of moving ahead on 
their own communications systems?
    Are they being told to wait until we do this on the 
national level? We have reached some consensus on a national 
level as to the best way to proceed? Are they being told, well, 
use these parameters at this point so that we know that they 
will be able to be interoperable? What are you telling the 
local agencies?
    Mr. Brown. Well, we are, I guess I would say, telling them 
two things. One is we are telling them that whatever they have 
ongoing, make sure it is what you really need.
    And two, we are telling them that the money that the 
Congress has given us for the interoperability studies is 
coming out. And to the extent that they might want to wait to 
see how those demonstration projects come about, that is great.
    But do not do anything that is going to risk the lives or 
property in your jurisdictions today. If there is something 
that you have, a system that is going to meet your needs today, 
go ahead and do that.
    We have had a few questions about the ability of these 
people to respond and the cost of their beefing up security, 
for example, when we are at Orange Alert.
    I am ranking member on National Parks, Recreation, and 
Public Lands. And the director of the park service tells me 
that every time we go to Orange Alert, they end up spending 
$64,000 a day of funding in their agency that would otherwise 
be spent perhaps for park maintenance or other necessities.
    Is that being addressed? And is it addressed through the 
budget requests so that the agencies don't have to spend funds 
that ought to be spent elsewhere, similarly to the cities and 
towns around the country?
    Mr. Brown. Secretary Ridge recognizes that the threat-level 
matrix right now is causing the exact kind of concerns that you 
are addressing in your question. And we are doing internally a 
review of what can we do to take the IAIP piece, the portion of 
it we have now, and better get information to local law 
enforcement about what they need to know, help them to develop 
a checklist of what they can or cannot. Well, cannot: They can 
do anything they want to do. But the thing we would suggest 
they do or not do at different levels just like we do within 
EP&R.
    When we go from one level to another, based on the 
intelligence and the information we have about the threat 
level, we may have a checklist of 100 things. But based on the 
information and the intelligence we have, we might do 40 of 
those or 20 of those. We might do 100 of them, all of them 
based on that intelligence that we have.
    And what we want to do, and I think what the Secretary 
wants to do, is develop a system where we can get that same 
kind of information to state and locals so they can make an 
informed decision about are they going to do everything or just 
portions of things, and do they need to do it in this 
jurisdiction but maybe not in a different jurisdiction.
    Ms. Christensen. I just have a question--
    Ms. Dunn. The gentlelady's time has expired.
    Ms. Christensen. Thank you.
    Ms. Dunn. Thank you, Ms. Christensen.
    Time now goes to Mr. Camp. Eight minutes, Mr. Camp.
    Mr. Camp. I thank the chairman.
    Mr. Brown, I raised this issue with Secretary Ridge when he 
testified before our committee. The Red Cross is the only 
nongovernmental agency with mandated responsibilities. Under 
the Federal response plan--and I know they were involved in 
TOPOFF II exercise--and obviously, because of their expertise 
in disaster preparedness and response.
    But I am interested in your thoughts on their role in the 
overall homeland security effort and particularly as it relates 
to mandated activities that the Red Cross pursues, and whether 
you envision any funding provided by the department to the Red 
Cross for the activities that they perform that are required 
under homeland security functions or other areas. But I am just 
interested in your thoughts on that.
    Mr. Brown. First of all, let me just say publicly that the 
Red Cross is an incredibly good partner of the Department of 
Homeland Security. They provide an invaluable service to us, 
particularly in times of any kind of disaster, whether it is 9/
11 or hurricanes or anything else.
    One of my goals is to create a system where all of the 
volunteer agencies--and whoever becomes the leader of that is 
kind of immaterial to me--but we have to develop a system where 
once emergency preparedness and response and the Department of 
Homeland Security has done everything it is authorized to under 
the law for a victim, that we have a central database where we 
know at that point that this particular victim can also tap 
into the resources of the different volunteer agencies.
    And so much like we have an emergency support team function 
within the department, a crisis action team where we bring 
everyone together, I would like to see the volunteer agencies 
do that also. And I think the Red Cross is very well positioned 
to do that type of effort so that once we have exhausted the 
resources that we have and the authorities that we have and 
they now need to turn to other places to get assistance or 
help, there is that place to do it. And the Red Cross is 
perfectly situated to do that for us.
    Mr. Camp. It sounds like you are envisioning almost a two-
step process where first they determine what Federal resources 
are available and then they go somewhere else and determine 
where the private resources are. Is that correct?
    Mr. Brown. That is correct in the recovery phase. In the 
response phase, I am not suggesting any change at all. In the 
response phase, the Red Cross does exactly what it should be 
doing, helping us coordinate all the volunteer efforts, 
coordinating blood supplies, coordinating medical response, 
everything.
    I am talking about in terms of the long-term recovery after 
disaster has occurred.
    Mr. Camp. And with regard to any required functions that 
the Red Cross may perform, any thoughts on funding that may be 
made available to the agency because of that?
    Mr. Brown. No, there is not. I know that they have come and 
spoken to me about some of their funding needs. And I 
appreciate their concerns. We just have to go the budgetary 
process and see what we might be able to do to help.
    Mr. Camp. You have also mentioned in your prepared 
testimony the goal of expanding national training courses and 
programs, obviously, to involve more first responders in those. 
And I am interested in the standards that the states may use to 
oversee those programs.
    Are there any national standards in place, particularly for 
the training programs? And then, I guess, for equipment as well 
that often is used in these programs.
    Mr. Brown. Just want to make sure I understand the 
question, Mr. Camp. Are you talking about training for first 
responders or training for volunteers?
    Mr. Camp. Training for first responders.
    Mr. Brown. OK. Yes. Certainly. We have all the standards 
that we established that went to our grant programs and to our 
training programs though Emmetsburg U.S. Fire Administration. 
ODP has the same kind of standards that they provide to first 
responders.
    So there is a standard baseline by which we are trying to 
get all first responders to, including urban search and rescue 
teams.
    So as we work on those standards, it is an evolving 
process. But the standard today is going to change based on the 
intelligence that we receive and what the threat is tomorrow. 
And so, that standard today may be different tomorrow.
    Mr. Camp. How about for equipment?
    Mr. Brown. It is a great point because we often talk about 
inoperability of communications. And we forget that there is 
also interoperability of equipment.
    And we forget that there is also interoperability of 
equipment. And that is to me an equal percent as 
interoperability of communications.
    There is a great photograph at the U.S. Fire Academy about 
two fire departments that were fighting a fire. And they have 
flocked together joints that are about the length of this table 
I am sitting at to try to get one fire truck from one county to 
hook up to a fire truck from another county. And so, we are 
trying to establish those kind of standards of interoperability 
also.
    Mr. Camp. Thank you, and I wondered how the agency of the 
department assesses the capabilities of state and localities to 
respond to a disaster. I realize programs like TOPOFF II, and 
it looks as though you have a number of programs scheduled for 
June as well. What are the criteria for assessing the 
preparedness of states and localities and also Native Americans 
for responding to these problems?
    Mr. Brown. I think the best way for me to answer the 
question is to say that we do it through the capability 
assessment review. So what I need to do is to get to you the 
specifics of those cars, as we call them, that apply standards 
to different types of jurisdictions. Again, while we may have a 
baseline and a standard for all first responders, a first 
responder obviously in Los Angeles may have different needs 
than a first responder of, you know, where my home is in the 
backwoods of Colorado.
    So we have different standards based on what their needs 
are. And those capability assessment reviews provide those 
different levels.
    And I just off the top of my head couldn't give you those 
different standards. But we will certainly get those to you.
    Mr. Camp. And lastly, I think all of us are inundated with 
private sector and other ideas about equipment and standards, 
and I know this has come up in other testimony with, I think, 
the Secretary and others. And I know there is a Web site and 
all of that. But if you have any ideas in terms of how best we 
can forward on the ideas that we receive? And if you can 
describe the way you sort of vet those and how you review those 
and try to bring to the surface the ideas that may actually be 
helpful.
    Mr. Brown. This is actually probably one of the most 
exciting things that is going on in the Department of Homeland 
Security. And it is particularly exciting for me, as you said, 
Congressman, one of the old FEMA guys, and that is that we have 
never had before what I would call an R&D shop, which is the 
science and technology director of the Department of Homeland 
Security.
    So for the first time I have the ability to turn to 
somebody and say, You know, I have got these guys screaming at 
me all day about they have got the best product in the world 
that is going to solve everything and it is the greatest thing 
since sliced bread. Would you really look at this and tell me 
if that is true or not?
    So now within the department we have that R&D shop to do 
that very thing. So I would say if you have got ideas, hopes, 
industries in your districts that say we have got the greatest 
thing that is going to solve all of homeland security's 
problems, give those to me and I am going to give them to Chuck 
Queary in science and technology and say, Go tell me if this is 
something that works and go tell me if this is something that I 
can utilize.
    Sometimes we don't even know what questions to ask, and 
that is why we have the science and technology groups tell us, 
We have been watching how you are doing business and you ought 
to do it this way, or we have this product that is going to 
help you better.
    Mr. Camp. All right, thank you very much.
    Thank you, Chairman.
    Chairman Cox. [Presiding.] Ms. Lofgren?
    Ms. Lofgren. Thank you, Mr. Chairman.
    And thank you, Mr. Brown.
    I have listened with great interest today, and I have 
actually listening to your all hazards description recalling 
back on my prior life as a member of local government, which 
was a lot of fun. And really, historically, although the 
individuals involved in FEMA, I think were always excellent, 
there was a time when the department itself was not well 
regarded. And I assure you we remember that time.
    And really, it has been good since. I remember the response 
to Loma Prieta was disorganized, in 1989. FEMA really went 
through a transformation and became an agency that was really 
known for efficiency and cutting some red tape, really one of 
the best Federal agencies that existed. And it was not 
inefficient or unresponsible or wasteful, as it had been in the 
past.
    And so, I want to ask the question really from a different 
point of view, which is I want to make sure that as we turn our 
attention to terrorism, as obviously we must, we also don't 
lose the efficiency that is so important to the Nation on the 
non-terrorist disasters. I mean, there may or may not be a 
terrorist attack in San Jose. There will be an earthquake in 
San Jose. I mean, that is--
    Mr. Brown. You are stealing my lines without using my 
speeches.
    Ms. Lofgren. Oh, is that right? Gosh.
    So I wanted to probe and get some assurances from you that 
we are not diminishing our capacity in the non-terrorism side 
of your activities. Can you give me any guidance there?
    Mr. Brown. Let me give you an example. The first couple of 
weeks of May, we were going to the TOPOFF II exercise in which 
we had the dirty bomb in Washington and the bioattack in 
Chicago. FEMA actively participated in that. EP&R actually 
participated in that exercise. Over 500 people, we exercised 
the domestic emergency support team, the nuclear incident 
response teams, the national disaster medical teams, and at the 
same time responded to 492, a record number, of tornadoes in 
the Midwest.
    We did all of that simultaneously. I think it speaks very 
highly of the men and women who have made up FEMA in the past, 
who now make up the Emergency Preparedness Response 
Directorate, that we know how to do that job, and we know how 
to do it under multiple difficult circumstances.
    Ms. Lofgren. Well, let me follow up, because I have a 
concern, and maybe it is misplaced relative to the Fire Grant. 
Really the purpose of the Fire Grant program initially was 
really to enhance the capacity of fire departments across the 
country that have a variety of preparedness levels. And we have 
had requests for grants that way exceed the amount of funding 
that has been available.
    This was pre-9/11. I mean, just to get departments up to 
speed. And my understanding is that the grants-to-request 
ratio, they were only able to respond to 10 percent of the 
requests pre-9/11.
    Now, this is a question, not a statement. It is my 
understanding that at this point, the Administration has asked 
that all the Fire Grant funds be aligned with terrorism 
preparedness planning. And I am concerned that if we were not 
adequately bringing our fire departments up to standard, just 
in terms of regular fire issues, and now we are realigning what 
funding there is available to terrorism alone, what are we 
creating in terms of preparedness for your garden variety city 
fire departments?
    Mr. Brown. And with all due respect, I would not 
characterize it in that fashion.
    Ms. Lofgren. OK.
    Mr. Brown. I think what we have said is we want to make 
certain that you are one, addressing basic fire fighting needs 
and if there is a terrorism component, if indeed you are a 
department that is already kind of well staffed and well 
equipped but you are coming in for another grant for something 
else, that there is a terrorism component to that.
    At the same time, we don't want to ignore the very small 
fire departments that, as you say, lack the very basic 
equipment to do anything. Because even though they may be a 
small department, they may be the first responder to a chemical 
attack or a chemical accident somewhere.
    And to go to your other point, about the ratio, just for 
the record, we have 20,000 applications for the Fire Grants 
requesting over $2.2 billion in grants. We will do 
approximately 7,000 grants this year with the $745 million that 
you gave us. So there is a lot of demand out there.
    What Secretary Ridge wants to make certain that I do is 
that we use that money wisely and we use it for both things, 
those basic fire fighting services and terrorism, where it is 
appropriate.
    Ms. Lofgren. Following up on the chairman's line of 
questioning at the opening, we do want to make sure that 
funding follows threat. I mean, the component with the Fire 
Grant program is unrelated to terrorism, and that is just to 
bring departments up to standard. But I am concerned that 
lacking the kind of threat assessment that we should have, we 
really can't do that. When will we have that kind of guidance 
accomplished to your satisfaction?
    Mr. Brown. When will we have the guidance that fits into 
the threat?
    Ms. Lofgren. The threat analysis.
    Mr. Brown. Well, the threat analysis, I am really not 
qualified to answer that. But I will certainly go back and talk 
to my colleagues in the department and find out what kind of 
time line.
    But the point you make is absolutely correct is that once 
we start, you know, once we really integrate all of the 
intelligence gathering apparatus, once we have all of those 
threat assessments done, we will be able to do a phenomenal 
job. And I think the Administration will just, I mean, we will 
be on cloud nine when we are able to marry those two up and 
drive that money to where it is addressing those threats.
    Ms. Lofgren. Let me ask you, there was an article, and it 
may not be accurate, but I will quote it and you can set us 
straight if it is wrong, on the chemical attack readiness in 
The Washington Post about a week and a half ago indicating that 
we do not have the ability in the United States really even to 
test for the common chemicals that would be used in an attack. 
Are you involved with remedying that? Or is that an accurate 
analysis?
    Mr. Brown. I am not familiar with the quote. But 
generically I would say I don't think that is totally accurate, 
because we do a lot of training, particularly with the fire 
departments, about chemical, you know, making sure they have 
the right kind of protective equipment. What are the kinds?
    I will tell you, we just had a briefing today with the CIA 
about particular kinds of chemicals that are potential threats. 
So we use that kind of analysis and intelligence now to drive 
the kind of equipment and training that we do for the first 
responders.
    Ms. Lofgren. If I get you a copy of the article, would you 
mind getting back to me on the details of where we actually 
are?
    Mr. Brown. Sure. Be happy to. Certainly, be happy to do 
that.
    Ms. Lofgren. I would very much appreciate that.
    Mr. Brown. Happy to do that.
    Ms. Lofgren. And I guess I have lots more questions, but I 
see the yellow light is on and my time is about up. So I will 
thank you for your courtesy in being here with us today. Just 
on the interoperability of equipment, if I could. I remember 
during the Oakland fire when mutual aid came into play, but 
none of the hoses would fit into Oakland's hydrants. I mean, it 
was a disastrous situation.
    So I am eager if you could also, when you take a look at 
that article, give us some idea of, you know, what needs to be 
standardized and where we are in standardizing them in first 
responder-land. And that would be very helpful.
    Mr. Brown. Be happy to do that.
    Ms. Lofgren. Thank you.
    I yield back.
    Chairman Cox. Mr. Diaz-Balart?
    Mr. Diaz-Balart. Thank you, Mr. Chairman.
    Thank you, Mr. Brown, for being here today.
    Mr. Brown. My pleasure.
    Mr. Diaz-Balart. I have appreciated your testimony in fact 
have liked what I have heard. Ms. Lofgren took some of my 
questions, in fact. I wanted to hear--
    Mr. Brown. I have a couple here that you can--
    Mr. Diaz-Balart. --and did hear from you and appreciate it. 
Your commitment that response preparation with regard to 
natural disasters will continue to be a priority.
    Coming from Florida, we are big fans of FEMA because we 
have seen how FEMA has responded and helped our communities 
with even extraordinary natural disasters, such as major 
hurricanes. So I was very pleased to hear that commitment from 
you.
    With regard to the issue of I guess what we would call the 
double threat of terrorist utilizing the occurrence of a 
natural disaster to attack, perhaps could you tell us about the 
resources and thinking that you have devoted to preparing with 
exercises and/or other ways for that double threat possibility?
    Mr. Brown. Let me answer the question this way. I would be 
happy to sit down with you and talk to you about some of the 
thought processes that we have gone through about how 
terrorists might utilize a natural disaster to complicate and 
exacerbate the problem. What I really don't want to do is 
publicly discuss kind of our thoughts about how they might do 
that. But that is something that is in our thinking.
    Mr. Diaz-Balart. Very well.
    Thank you, Mr. Chairman.
    Chairman Cox. Ms. Lowey?
    Ms. Lowey. Thank you, Mr. Chairman. And welcome, Mr. 
Secretary.
    I want you to know that we all understand the enormity of 
your responsibilities. In fact, as I look at the little boxes, 
I can't quite figure it out.
    And I was going to start with another question, but maybe I 
should just ask this one. I think you mentioned that your 
office and the office of Domestic Preparedness were to become a 
one-stop shop.
    Now, if that is the case, then why is it, as I am looking 
at this chart, that ODP and EP&R, two different directorates, 
that both disseminate first responder funds, are not operating 
on the same directorate for increased coordination.
    In fact, as I look at this list of appropriations grants--
unfortunately, you didn't get too many--they will all come 
through the other agency, ODP, basic formula grants, state and 
local law enforcement. There is a whole list, adding up to 
$4.446 billion, et cetera, et cetera, et cetera. A lot of zeros 
there.
    Is this a mistake?
    Mr. Brown. My commitment to--
    Ms. Lowey. Shouldn't it all be in your directorate? The 
national exercise program, standards and testing. You talk 
about your work on standards and testing, prepositioned 
equipment caches, management and Administration contractor 
support, et cetera, et cetera. So it has all going to ODP.
    Mr. Brown. The President originally proposed that it all 
come to FEMA, EP&R. The Administration now wants it all to go 
to ODP. My commitment is that we will fulfill wherever it goes. 
Frankly, I mean that, wherever it goes.
    Ms. Lowey. That is a nice answer, but what do you really 
think?
    Mr. Brown. I am not trying to be disingenuous here. 
Wherever it goes, we are going to make it work, because it is 
not about the money. It is not about who has the grants. It is 
about getting that money out to the state and locals as 
effectively and efficiently as we can. And I mean that from the 
bottom of my heart.
    Ms. Lowey. But you don't have control over it. It is going 
through ODP.
    Mr. Brown. No, but you know, what? I have got a lot of--
    Ms. Lowey. You will call them morning and tell them what to 
do?
    Mr. Brown. I have got a lot of folks that I am going to 
send over there to show them and help them put out grants and 
put out guidance and everything else.
    Ms. Lowey. Well, I understand that you are respectful of 
Administration directives, but in this difficult time, when 
everyone is trying to sort it all out, I would hope that you 
would watch this carefully and express your views. And if it is 
not operating as efficiently as you think it should, maybe 
there would be changes.
    And following up on that, I am delighted that you are going 
to be working on interoperability. I am wondering if you will 
have some kind of a buy-provisions.
    Now September 11--I am from New York--September 11 happened 
a long time ago in the eyes of many of the firefighters and the 
police and the average citizens. And there have been many 
Orange Alerts since then.
    However, many of the communities don't want to wait. There 
is no directive from the states as to what kind of a equipment 
they should buy. And many of our counties, every town and 
village, are buying different equipment. But now you are doing 
a study now that is quite a while from September 11, and I am 
pleased that you are doing it now. And you are going to be 
providing directives.
    By the way, I had called FEMA months ago trying to see if 
there was any kind of directive to the states, to the towns, to 
the villages, because I really wanted to save them money. But 
there wasn't any. Everyone should do what they have to do.
    So maybe you should really think about that, because when 
do you think your study will be completed? Ms. Lofgren 
mentioned the hoses. I was talking about interoperability of 
communications. When do you think your study will be completed?
    Mr. Brown. Well, we are going to get the money out the door 
just as quickly as we can. In fact, I think--yes, the grant 
money for the interoperability demonstration project is 
starting to go out the door next month. And that is $54 million 
to do those projects. And--
    Ms. Lowey. And how long do you expect those funds--
    Mr. Brown. That is the rub right there, to do those 
projects will take probably, you know, six months to a year or 
more and then to study then and figure out what is the best one 
and how do we get those standards out there.
    At the same time that we are doing that, technology is 
moving along at 100 miles an hour. And I am already aware of 
some technology that is out there. But even though someone may 
have a particular system, with this other system, you could 
actually come in and take control of the frequencies and allow 
these folks to communicate with one another. So we have to stay 
on top of that daily. And I have not heard the concept of a 
buy-back provision. But it is something that we would--
    Ms. Lowey. I am just saying that because I know that in 
my--in New York, in my district--the towns and villages are 
really being squeezed. The property taxes are up 18 to 20 
percent. And yet they feel this is so important. They are 
buying the trucks that hold the various communication systems, 
MICK systems, and you know all of the ones, I expect, that are 
out there.
    And so I think we should maybe think about that, because 
they have to balance their budgets and the Federal Government 
doesn't. And it might be helpful if we can provide some 
assistance to these towns and villages that are really strapped 
and need the help.
    Mr. Brown. OK.
    Ms. Lowey. A specific question regarding Indian Point 
Energy Center in Buchanan, New York. It is located, as you 
probably know, on the eastern bank of the Hudson River a few 
miles north of my district. Nearly 300,000 people reside within 
10 miles of the plant. And the 50-mile peak injury zone 
encompasses all of New York City, major urban centers in New 
York, New Jersey and Connecticut.
    And independent analysis of the emergency response plan for 
Indian Point, completed by former FEMA director James Lee Witt, 
concluded that the plans were fundamentally unworkable. In the 
four counties surrounding Indian Point Nuclear Facility and New 
York State have all refused to submit certification documents 
to FEMA, similarly convinced that the plans are wholly 
inadequate.
    Yet FEMA has repeatedly postponed ruling on the adequacy of 
the plans, demanding certain planning documents from the 
counties almost five weeks after its decision was due. And the 
counties aren't going to provide that information, because 
there is concern that FEMA might use any information to approve 
the plans, which they all think shouldn't be approved.
    Westchester and Rockland Counties have made it clear time 
and time again that they will not submit certification 
information, which is their right.
    My question to you, sir, has the agency set itself a new 
submission deadline, or is it operating under an open-ended 
schedule? Is it possible that FEMA would certify the emergency 
response plans without the cooperation of the states and the 
counties?
    Mr. Brown. I am surprised by the question.
    Ms. Lowey. You are really not.
    Mr. Brown. No, in all seriousness, we have received the 
plans from Rockland, Orange and Putnam Counties. We do not have 
the plans yet from Westchester County.
    I am not going to have an open-ended process.
    Ms. Lowey. You have them from Rockland?
    Mr. Brown. Yes.
    Ms. Lowey. I do not think so.
    Mr. Brown. I think we do. We will figure it out. I think we 
do, I think it is Westchester.
    Ms. Lowey. Well, we will discuss that. I think Westchester, 
Rockland have not submitted plans, unless they did it today.
    Mr. Brown. OK. I am not committed and am not going to have 
an open-ended process on a review of this, because our number 
one priority is to protect the health, welfare and safety of 
the residents in that area.
    Number two, I am working very closely with the Nuclear 
Regulatory Commission to look at Director Witt's report and 
what needs to be done.
    And I have made a commitment to myself and to others that 
we are going to get a decision out on this and get a decision 
out on this very quickly. And we are going to do it based on 
our review of those plans, and we are going to work very 
closely with the state and locals.
    Ms. Lowey. I hope so. My red light is on. OK, is that my 
red light? Let me just say thank you.
    Chairman Cox. I do not know who else's it would be.
    [Laughter.]
    Ms. Lowey. Thank you very much, and I hope we can follow 
up, because there is a great deal of concern, as you can 
imagine in the communities.
    Mr. Brown. I am very aware of that.
    Ms. Lowey. Thank you very much.
    Chairman Cox. Ms. Jackson Lee.
    Ms. Jackson-Lee. Thank you very much, Mr. Chairman. 
Appreciate the committee's indulgence, and the witness's 
indulgence. And as I indicated to the chairman as I was in the 
room at the very beginning, we are holding a homeland security-
somewhat hearing in judiciary.
    We are dealing, Mr. Chairman, ranking member, with the 
question of identity cards from the Mexican consulars, and our 
hearing is simultaneous, and I serve on that committee.
    So I thank the witness for his indulgence as we proceed.
    Let me first of all say that we want to be able to help 
you, and we want to be able to make this nation safe. And it 
comes to my attention that I believe that on this date, June 
19, 2003,--and might I note to Texans, a happy Juneteenth; it 
is a very special holiday for us--but I notice that on June 19, 
2003, I do not think that we have reached the level of promise 
that necessitates or gives us comfort of safety.
    This is not in any way to suggest that there are not a lot 
of hard-working individuals that are doing so. So I am going to 
have a series of questions, first of all a very simple one, 
does your particular sub-department have the Citizen Corp 
responsibility?
    Mr. Brown. Yes, ma'am, we do.
    Ms. Jackson-Lee. Tell me where we are in the Citizen Corps, 
how you are doing outreach, and because we are keeping to this, 
Mr. Chairman, I decided to do an opening--I am trying to 
determine my time, how much time do I have?
    Eight minutes, thank you very much.
    Tell me what the outreach has been on the Citizen Corps. 
How do you reach to communities to even provide them with the 
information that such opportunities exist? How many have you 
done, and can I get a report on how many you have done 
throughout the nation, and break it down between urban and 
rural, and then how many you have done in the state of Texas? 
If I could start with that I would appreciate it.
    Mr. Brown. Well, one, I will get those figures to you, 
Congresswoman Jackson Lee. I will tell you that just yesterday 
I was in New York City doing a Citizen Corps presentation to 
the Megacities Conference in which all of the largest urban 
areas across the country had come together to form Citizen 
Corps Councils and to figure out how to strengthen those 
Citizen Corps Councils in those megacities.
    And I was extremely pleased by the turnout. We have since 
March 1--I was just kind of getting ready to thumb through my 
opening statement--we have, I think, about 500 Citizen Corps 
Councils around the country, and it has--
    Ms. Jackson-Lee. How much, I am sorry, sir--
    Mr. Brown. In excess of 500. I will go back and look in my 
statement.
    Ms. Jackson-Lee. And what has been your outreach to let 
them know about it? I now you had a speech yesterday, but what 
has been the approach to reach out to these cities and rural 
areas?
    Mr. Brown. In rural areas? Speaking engagements, we have a 
staff that is doing nothing but trying to reach through 
congressional districts, through the senators, through the 
governors, through county governors working through the U.S. 
Conference of Mayors.
    All of these different intergovernmental groups are getting 
the Citizen Corps, USA Freedom Corps message of the President 
out to all those areas.
    Ms. Jackson-Lee. And the Citizen Corps is organizing 
communities around the idea of homeland security and giving 
them skills and training?
    Mr. Brown. Absolutely. Through the CERT Program is probably 
the cornerstone of--
    Ms. Jackson-Lee. Are they getting funding?
    Mr. Brown. They did not get funding in 2003. But with the 
2002 money, we have taken that 2002 money and increased it even 
without the money. We have been able to get that grass roots 
effort going to form these councils.
    There is currently within the department, I think, a 
request that is coming up to the Hill to reprogram about $25 
million for those efforts.
    Ms. Jackson-Lee. Let me, I don't want to cut you off, but 
if I can get that in writing, specifically that broad question 
that I asked, I think you have something here that you wanted 
to say, and I certainly will let you do that. Some note that 
has just been passed to you.
    But let me be sure to emphasize that where I am from there 
is little to zero knowledge about Citizen Corps.
    Now, I would like to publicly invite you to my region, my 
area in particular, the fourth-largest city in the nation, 
Houston, and it has been, it is, number seven on the 
vulnerability list.
    But let me move on to a next point, so if we can get, let 
me extend that invitation to you as we speak.
    Mr. Brown. And we will do that.
    Ms. Jackson-Lee. Because I think it is very important. You 
now, what we experience, we are close to the border, and as I 
indicated we are in a very intense hearing now on the Mexican 
matricula card that people are complaining about as the 
potential to terrorism.
    I have a different opinion, but we have all these concerns.
    Let me move now to just this idea of getting the 
communities, the neighborhoods safe. That has been what I have 
been arguing for and advocating for, and that is why I opened 
up and said are we safe?
    I think whatever question we ask in this hearing, in any of 
the hearings of homeland security, I am very pleased that we 
will be visiting one of the regions out West, and onsite 
hearing that the chairman and ranking member are allowing to 
have, on-site, in the neighborhoods, in the region, to find out 
about safety of ports.
    But my concern is are we safe, do people believe that we 
are safe? No, I do not think so. With the backdrop of the Iraqi 
war, with the looters, the continued deaths in the region, I 
still think people are looking that terrorism is around the 
corner.
    My concern, you have got $750 million--I think that is the 
number: I hope it is not billion; I think it is million. I wish 
it was, but I think it is million, and our folk are frustrated.
    I have got neighborhoods that are organizing themselves in 
an appropriate manner to secure those neighborhoods. They 
cannot access dollars.
    I have got the University of Texas Medical Center that is 
attempting to put together a structure that is dealing with 
bioterrorism, and they cannot access dollars.
    So they are confused about how to access dollars, and, of 
course, when you hear University of Texas Medical Center, you 
are saying, you possibly could not be confused, but this is at 
the grass-roots level where they are collaborating with the 
community.
    What are we doing to get the dollars in the hands of our 
first responders, our community groups, and might I say to you, 
this trickle-down effect going to the state, the states then 
layering it with let me get some applications together, let me 
get some instructions.
    What are we doing to get the dollars in the hands of our 
first responders, our community groups, and might I say to you, 
this trickle-down effect going to the state, the states then 
layering it with let me get some applications together, let me 
get some instructions.
    And then when I go home, my director of public safety or 
director of security--it is called homeland security, I 
believe--director for the city of Houston is without knowledge. 
Not that he is without knowledge, but he does not have any 
access directly to getting these dollars.
    Mr. Secretary, we are in trouble. And our monies are being 
held and coddled and nurtured. They might be gaining interest, 
but they are not gaining interest on behalf of the security of 
the American people and where I come from.
    So tell us why can't we convince you that we can be secure. 
And when I say that, secure from thievery and the misuse of 
Federal funds? In this instance, just as we have created a 
crisis with respect to our colored alerts and we tell people 
when you hear the orange you are one step away, get ready. They 
tell you to calm down a little bit on yellow and down the road.
    But I believe you have got to get rid of these so-called 
binding, restrictive regs that are not getting the dollars so 
that these folk can get on the ground with a variety of secure 
measures. We can't even communicate with each other across 
county lines because our first responders don't have the money 
to buy the equipment.
    Let me stop for a moment and answer the question. I want us 
to get a regulation in this committee to break the regulations 
that you have already got to get the money inside firsthand to 
the first responders. Houston is not the only city, but we are 
number seven on the list in terms of what we call threats. Can 
you just answer that very large and long question?
    Mr. Brown. Well, yes. One, I want to thank you for your 
perception that citizen preparedness and preparing and securing 
neighborhoods and communities is the way to secure this 
homeland. You are absolutely correct.
    And I think the President was absolutely brilliant in 
forming USA Freedom Corps and Citizen Corps, because that is 
the way that we can accomplish two things. One, is to secure 
the homeland. And two, is take some of the pressure off the 
first responders.
    For every individual citizen that is doing something in a 
Citizen Corps program, that is one less thing that a first 
responder has to do. So the President was brilliant in that 
regard and we have got to get that message out and get those 
programs going.
    And so, I am more than happy to come down and work with you 
in your district--
    Ms. Jackson-Lee. Excellent.
    Mr. Brown. --to get those going.
    In terms of the money, I will do everything in my power to 
get the money down as quickly as possible. The department has 
already distributed about $4.4 billion. I will go back to my 
oral statement, but, I mean, I won't do it now, but the list of 
the monies that we have done fire fighting grants, the ODP 
grants for the all hazard preparedness training that we are 
doing. I think it was $165 million. The $54 million that we are 
doing next month for the interoperability demonstration 
project. There is a huge list of dollars that we are getting 
out.
    What I am hearing from you is the concern that those monies 
are not getting down to the level it needs quickly enough. I 
share that concern. And the Secretary and I will make certain 
that we address that problem and get that done.
    Ms. Jackson-Lee. We will work hand in glove, then, Mr. 
Secretary, on this, because I believe this is a plus of safety 
and security in this nation. Because when the orange goes to 
red, where we will be looking to will be the people that will 
have to address the question on the ground, outside of the 
beltway. Thank you.
    Thank you, Mr. Chairman.
    Chairman Cox. Mr. Langevin?
    Mr. Langevin. Since the creation of this Select Committee, 
one of my primary concerns has been the intelligence 
collection, analysis and distribution capabilities of the 
Department of Homeland Security. I share the strong belief of 
our Ranking Member, Mr. Turner, and many other members, that 
this function is the lifeblood of the new agency, and until it 
is fully operational, all other agency functions will be 
compromised.
    Therefore, I am interested in a detailed description of 
what relationship the EP&R Directorate has with the IA/IP 
Directorate-what information are you receiving, in what form is 
it presented to you, and from whom are you receiving it? Once 
you receive this information, how are you using it to 
prioritize your efforts and decide how to expend staff, time 
and financial resources?
    Finally, while I firmly believe our first responders need 
significantly more resources in order to effectively perform 
the responsibilities with which we have entrusted them, it is 
equally important that they know what to do with these 
resources once they get them. I would like to know how, or 
whether, the necessary intelligence is making its way to our 
state and local responders so that they, too, can properly 
prioritize their efforts and be prepared for the most 
threatening risks. Are you confident that they have the 
guidance they need from DHS, and from EP&R specifically, to 
protect our communities?
    Mr. Brown. We are getting the information. There, as you 
are very well aware of, there are currently six people staffed 
in the IAIP directorate within the Department of Homeland 
Security. So with those limited resources and that staffing 
that they are just now going through, I mean, they don't even 
have a Senate-confirmed--General Labute--I don't think has even 
been confirmed yet, may have just have had a hearing.
    But even with that limited amount of staffing, we are 
already able to get both classified and unclassified 
information.
    Give you a couple of examples how that works and what we do 
with it. During Operation Liberty Shield--let me just back up, 
Congressman: Even before Operation Liberty Shield, we were 
still getting classified and unclassified information, CIA, 
FBI, law enforcement agencies. We will take that information, 
we do take that information, within EP&R and we use that 
information to preposition assets, to inform local first 
responders about particular threats, to maybe utilize the 
strategic national stockpile to maybe move it, locate it in 
particular areas, to use the Nuclear Incident Response Team, to 
preposition it or utilize some of its capabilities to do lab 
analysis and other things for us.
    So we are already getting the information and utilizing 
that information in determining how we are going to respond if 
indeed there is a terrorist attack.
    You are also asking what form that we get that? I am not 
going to hazard a guess how many different forms, but I will 
just describe to you generally the different kind of forms we 
get it.
    I get it personally from briefings from intelligence 
analysts, from folks who do the presidential briefings on 
threat analysis. CIA analysts will come and brief me and other 
members, secretaries in the Department of Homeland Security. We 
will get it through copies of the threat matrix. We will get it 
through the law enforcement announcements, law enforcement 
threats that come through. And I am sure there are other ways, 
but just off the top of my head, those are the kinds of forms 
that we get the information.
    Mr. Langevin. At or above the top secret level?
    Mr. Brown. Oh, yes. I am talking about TS and SCI 
information. We are talking about the highest levels of secure 
information.
    We then use that to either preposition assets or to 
activate regional operation centers, to put certain assets on 
notification, whether it is a 24-hour notification or a 12 
hour, sometimes a 6-hour notification. We use it in all sorts 
of ways to shorten our response time, which is one of my 
priorities and goals in the new department.
    Does that adequately answer your question?
    Mr. Langevin. Do I have any remaining time?
    Chairman Cox. The gentleman has two minutes and 15 seconds 
remaining.
    Mr. Langevin. I Yield my time to the ranking member if he 
would like.
    Chairman Cox. Mr. Turner is recognized under yielded time 
for 2 minutes.
    Mr. Turner. I will yield my--
    Mr. Brown. Mr. Chairman, while they are yielding their 
time, may I clarify one thing I said to you, Congressman?
    We have six people at EP&R who are assigned IAIP to help us 
do and transfer that information. Not that there are six people 
at IAIP.
    Mr. Langevin. I may have some additional questions--
    Mr. Brown. Absolutely, sure.
    Chairman Cox. Mr. Pascrell is recognized for one minute and 
40 seconds and has his own time following.
    Mr. Pascrell. Thank you.
    Undersecretary Brown, I am very interested in what you said 
in response to the question concerning the Fire Act. I know 
FEMA has done a spectacular job in a very short period of time 
processing about 18 or 19,000 applications per year from the 
31,500 fire departments throughout the United States, 1 million 
firefighters.
    They have done such a great job that now you are suggesting 
we move the Fire Act out of the U.S. Fire Administration, where 
FEMA is. And under the President's budget, you want to put that 
program into the Office of Domestic Preparedness. So far, am I 
correct?
    Mr. Brown. That is the proposal, yes, sir.
    Mr. Pascrell. Well, I have to take issue and big issue at 
this. I wrote the act. It belongs in FEMA, and it does not 
belong to be melded with the terroristic aspects of the 
preparedness division. And I will tell you why. That is why I 
feel about this, strongly.
    Secretary Ridge sat in our chair not too long ago and 
guaranteed the integrity of the Fire Act. The Fire Act was 
written long before 9/11. It reflects the very basic needs of 
fire departments throughout the United States of America. There 
were $4 to $5 billion in needs that were requested in a program 
which started with $100 million, as you well know.
    FEMA put its ragtag group, and I mean that respectfully, 
together with the assistance of firefighters to review every 
application. And they did a spectacular job. What was so unique 
about the fire act is that the money went directly to the 
community fire department. Did not go through the county. Did 
not go through the state where any money could be siphoned off. 
That is one of the reasons it is so successful. And that is one 
of the reasons why some people want to dig their teeth into it.
    Let me bring to your attention what has happened to the 
COPS program and then I would ask you the question, can you 
assure me that this is what you don't have in mind. The COPS 
program budgeted the last year--
    Chairman Cox. Will the gentleman yield?
    Mr. Pascrell. Sure.
    Chairman Cox. The gentleman has used up an additional 1 
minute beyond the yielded time. If the gentleman would like to 
ask unanimous consent to take his allotted time out of order, 
he could continue with his questioning.
    Mr. Pascrell. Yes.
    Chairman Cox. Without objection.
    Mr. Pascrell. Thank you.
    In the COPS program, $928 million dollars was budged in the 
2003 budget. This year, in 2004, the President is recommending 
that the COPS program get only $163 million. The program has 
bipartisan support. It has been successful.
    There is a $500 million per state and local law enforcement 
terrorism prevention grants. What we are doing, Mr. Brown, is 
melding many of these programs, and now we are not responding 
to the very basic needs that exist in the smaller as well as 
the larger communities.
    And I am very concerned, and I want to state very clearly, 
that the Fire Act was not meant to be sent to the governors of 
any state. It was meant to respond to our brave firefighters, 
as was the COPS program, that goes directly to the police 
departments of each community. It does not go through the 
governors.
    Obviously, there is a great need. Obviously, every 
university report and survey has indicated there is a reduction 
of crime, and that is one of the reasons, not the only reason, 
but that is one of the reasons we have put more cops on the 
street.
    We had very basic needs before 9/11. We have other needs 
now also.
    I am afraid that when you meld those monies, that the 
firefighters are going to play second fiddle. And I would ask 
you this question very specifically: Can you make a commitment 
today that the integrity of the Fire Grant program will not be 
changed?
    Mr. Brown. Yes.
    Mr. Pascrell. Thank you.
    My second question is this, what are you doing to improve 
coordination between the Department of Homeland Security and 
state and local officials? Do you know what the main problem 
was on 9/11? What are you doing about it?
    Mr. Brown. A couple of things, Congressman. First is trying 
to integrate them into the development of the national response 
plan. They have to be a part of that. If they are not, if we 
fail to include them, then we have just ignored the partnership 
basis upon which other members of this committee have 
recognized has made FEMA and now EPNR successful.
    At one time it was not very successful. And I think it was 
not successful because we did not know how to work with the 
state and locals.
    So my commitment to you is that I will continue to work 
with state and locals because I recognize, I used to be a local 
guy. I used to be a state guy.
    Mr. Pascrell. I know.
    Mr. Brown. And I know that is where the rubber meets the 
road, and that is where the 9/11 calls go to. And that is who 
we have to prepare to defend this country in case of a 
terrorist attack or a natural disaster.
    So I want to do everything that I possibly and humanly can 
to maintain and strengthen those state and local partnerships.
    We cannot--when I say we, I am talking about the Federal 
Government--cannot succeed without those partnerships.
    Mr. Pascrell. Let me ask you this question. How many 
consultants has your division hired?
    Mr. Brown. I am not trying to play games here. Define 
``consultant.''
    Mr. Pascrell. The office of undersecretary, and you have 
many divisions; I am looking at your chart. I want to know over 
these different divisions within your area, your office, how 
many consultants have you hired?
    Mr. Brown. Well, I have hired no consultants. We have some 
technical advisers, now technical advisory contracts. And if 
that is the information you want, I will get that information 
for you.
    Mr. Pascrell. Why I am asking the question, Mr. Brown, is 
this, and you said, and I am glad I know, you have local 
experience. And I know that you appreciate what I am saying as 
an example the Fire Act and the COPS program, although the COPS 
program is not under your jurisdiction.
    The best consultants we have, Mr. Brown, I am convinced of 
this, is the cops and firefighters and EMTs in the local 
communities. They know what is needed. And we don't need any 
high-priced consultants from Washington, D.C., to tell the 
locals what they need.
    Mr. Brown. Amen.
    Mr. Pascrell. They can clear up a tremendous amount of the 
complexities here. We can get right to the chase. And if we 
listen to them, if we bring them to Washington and sit them 
down and ask them, What do you need? And by the way, I have 
done that in my own local community, as many of the Congress 
folk have.
    And we have found out that one of the major problems is 
communication. And we need cooperation from the FCC. There are 
not enough bands there. This is crucial and at the very center 
of trying to protect ourselves.
    We are in a different situation now. We are dealing with 
non-state terrorism. State terrorism is easy to respond to. 
Non-state terrorism is absolutely impossible, but we try to 
make it possible.
    So you are going to need all of the communication you need. 
Please help the first responders put up a network of 
communication, which we do not have in most areas of this 
country. I beg of you to make that a priority.
    Mr. Brown. Two responses, Congressman. Number one, I will 
make that commitment to you.
    Number two, as you well know, I am preaching to the choir 
here, the reason the Fire Grant program is successful and the 
reason that I think it is money very well spent by the Federal 
Government, is that, as you well know, we use a peer review 
process. We bring firefighters in to tell us what they need and 
where it is going to best be utilized. They compete against 
themselves and analyze themselves and do a good darn good job 
of it.
    Mr. Pascrell. Thank you. Thank you, Mr. Chairman.
    Chairman Cox. Mr. Etheridge.
    Mr. Etheridge. Thank you, Mr. Chairman. And let me 
associate myself with my friend's comments on the first 
responders as you can appreciate, there again.
    Let me ask you a question because having come from North 
Carolina, the scene of an awful lot of disasters over the last 
several years with floods, hurricanes, droughts. We have seen 
most all of it except the frogs. And I hope we don't have 
those.
    [Laughter.]
    But let me ask this question. How would the state and 
Federal response differ from, let's say, a natural disaster, 
which we have had a number of there and such as hurricanes, et 
cetera and a terrorist attack, let's say a dirty bomb? who 
would take the lead in responding to such an incident?
    Mr. Brown. Under HSPD-5, the Secretary, Secretary Ridge, is 
in charge. There is no question about that. He would devolve 
that under the delegations of authority to myself as the 
undersecretary, and we would have an incident commander on site 
running the incident.
    To answer your other question, there is, in essence, no 
difference in the response to a terrorist attack, a dirty bomb, 
or a natural disaster. There is a minutia in the differences 
maybe in the assets that you use or in the way that you 
approach the response. But once the terrorist incident has 
occurred and you are in response mode, the response mode is not 
different.
    Mr. Etheridge. OK, thank you. I thought it was very 
important to get that out, because I know a lot of folks who 
have thought about it just didn't understand the subtleties of 
it.
    According to the February 28 presidential directive, the 
Secretary of Homeland Security is supposed to provide regular 
reports to the President on ``the readiness and preparedness of 
the Nation at all levels of government to prevent, prepare for, 
respond to and recover from domestic incidents.'' And I am 
reading now from the law. Would you mind sharing with us what 
steps have been taken thus far to prepare for this assessment?
    Number two, what are the baselines? When we talk about 
readiness, what is that baseline?
    And third, do they differ by state and by locality?
    Let me tell where I am coming from on my last question. 
Having come from the FEMA side, you understand there are great 
big differences in localities because there are localities, 
number one, that have nuclear plants, that have a number of 
storage areas for fuels, et cetera, and others may be in vast 
open areas. OK?
    Mr. Brown. We actually prior to the creation of the 
Department of Homeland Security, we in FEMA started doing those 
baseline assessments immediately following the September 11 
attack, at the request of then director of the Office of 
Homeland Security, Secretary Ridge. And that is the baseline by 
which we are now doing the assessments post-9/11 to see where 
the states and localities are.
    And we are trying to take into consideration all the 
factors that you just mentioned, Congressman, locality, type of 
threats that they might face from both manmade or natural 
disasters. And then trying to plug that into all of the grant 
programs that we currently have within the department, of how 
can we best get those grant programs out to those particular 
areas.
    We are also at the same time trying to do an analysis of 
how we can better communicate with those state and locals about 
the threat levels, about the threats they have, about the 
vulnerabilities they have and to encourage them to do 
intrastate planning, regional planning, interstate, if you 
will.
    You know, I keep picking on Cincinnati and Louisville only 
because I was just there talking to them a few weeks ago, of 
how can they address their vulnerabilities and get mutual aid 
agreements across those state lines. And if there are 
regulatory or statutory barriers that we need to break down, 
then let's break those down.
    So that is how we are going to develop those standards 
based on those assessments.
    Mr. Etheridge. So you are working with local and state 
officials, then?
    Mr. Brown. We have to. We have to because they are they are 
the only ones that know what their capabilities are. We can go 
in and do sorts of an analysis, but they have to tell us what 
training they have done, what equipment they have, what mutual 
aid agreements they have, what kind of agreements they have 
entered into. You get into the basic level, intercounty, 
intracounty, multi-jurisdictions, where you have municipal 
government and county government all consolidated. How are they 
doing? We have to hear that from them.
    Mr. Etheridge. We keep raising that question simply 
because, you know, we go back and we understand that. But it is 
easy when you get a distance away, somebody else help make the 
decision.
    Let me move on.
    Mr. Brown. We are not going to lose that perspective in the 
Department of Homeland Security, Congressman, I promise you.
    Mr. Etheridge. Good, I hope not.
    The presidential directive also states that ``state and 
localities have to adopt the National Incident Management 
System by Fiscal year 2005 in order to be eligible for Federal 
grants and contracts.'' However, the National Response Plan 
says that ``the Federal plans should be flexible enough to 
accommodate state and local incident management systems.''
    OK, now that being said. How can you reconcile these 
requirements from the draft plan that was developed with 
virtually no input from state and local responders?
    Mr. Brown. Well, we can't and that is why I am committed to 
getting the input from them on the NRP.
    But let me go back and address what seems to be the 
inconsistency of making certain that the NRP recognizes the 
flexibility of different incident command structures. And that 
is much like recognizing the difference between responding to a 
terrorist attack and a natural disaster.
    It is all a matter of semantics. If you look at any 
incident command system, as long as the basic structure is 
there, they can use different words about how they implement 
and utilize it as long as they have ``a basic incident command 
system.'' So that is why the flexibility is built into the NRP.
    Mr. Etheridge. But the wording doesn't necessarily indicate 
that.
    Mr. Brown. The wording is superfluous.
    Mr. Etheridge. But it--well, I am not so sure. Words are 
very powerful when you don't want to follow them. If you have 
someone in leadership who understands they are flexible, they 
are.
    My point is that I would encourage to work to make them 
more accurate and less--
    Mr. Brown. Oh, I have no problem with that whatsoever.
    Mr. Etheridge. I think that will be helpful.
    Mr. Brown. And I think, just to build on your point, the 
other thing that we have to do is to make certain that we do 
get those state and locals who might have a little bit of 
difference in the semantics of their command systems to start 
working together.
    And we will bang them over the head on that.
    Mr. Etheridge. Well, my point is that if words are in 
conflict, and people need a reason not to be involved, they 
have it.
    My final question, Mr. Chairman, and I know I am running 
out of time, the National Response Plan states that ``Private 
businesses and industry play a significant role in helping to 
mitigate the fiscal effects and economic costs of domestic 
incidents,'' and I am quoting. And according to the plan, ``The 
Secretary of Homeland Security should urge businesses to 
identify their risks, develop contingency plans and to take 
action to enhance their overall readiness.''
    My question is, is the department prepared to offer private 
industry the risk identification guidelines they will need to 
meet and do this. And second, to what degree is the government 
relying on the private sector to really take care of itself?
    Mr. Brown. Growing the analogy to the natural disaster 
role, I want to inculcate within the department, and I think 
the Secretary, I know the Secretary agrees, the whole idea that 
you mitigate ahead of any sort of disaster, whether it is, you 
know, a cyber-security attack, whether it is, you know, a 
hurricane coming up the North Carolina coast, whatever it is, 
that we influence, educate and train the private sector about 
what they can do to minimize their damage in these sort of 
attacks.
    We are going to do that within the department. We are going 
to do that in a couple of ways. Cyber-security board, 
information analysis, and particularly the infrastructure 
protection piece of that directorate is going to work very 
closely with the private sector, and most importantly, I think, 
is the Private Sector Coordination Office, which Al Martinez-
Fonz heads up, that is in constant contact with the private 
sector about what they can do and how they can work with them.
    And then at the end of this month, I am meeting with the 
Homeland Security Advisory Council that is kind of our 
connection next to the private sector about how we start 
working together to do those kinds of things.
    They are an integral part of securing this homeland. You 
know, the Federal Government does not own a whole lot. The 
private sector owns most everything.
    And so we have got to rely on them and educate them and 
work with them about how to protect themselves.
    Mr. Etheridge. Thank you, Mr. Chairman. Thank you. North 
Carolina respects FEMA because they have great reputation in 
North Carolina. And I think you come from that background, you 
can use this as a great tool to make that happen.
    Mr. Brown. That is my intention. Thank you, Congressman.
    Chairman Cox. Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman. And thank you, Mr. 
Brown, for being before us. I actually have several questions. 
Why do I not go down the list and give them to you, because I 
do not know if they are going to call a vote at some point and 
I hope it is not before the rest of us get to finish our 
questions.
    You have heard a lot of my colleagues talk about the fact 
that there are in particular their communications systems do 
not work between fire and the different law enforcement pieces 
that they have in the area, and I come from Orange County, 
California. We actually over the last 10 years have scrimped 
and saved and done without for other things and we have 
interoperability, especially with respect to communications.
    It cost us $100 million to do that for our 32 different 
municipal agencies, our county, our sheriffs and others. On the 
other hand I look to the north of me right, you know, 20 
minutes away, and we have Los Angeles County, where they have 
nothing that is really operable.
    What are you going to, my first question would be, you 
know, if everybody wants to do interoperability of 
communications, it is a very expensive thing to do, at least to 
have done it on the same system that we have, for example, in 
Orange County.
    Are areas like Orange County going to have to step back 
from funding and wait until everybody else gets funding because 
they need this interoperability, or, you know, how are you 
going to make decisions about what you fund and what you do not 
with respect to that, especially if this is coming down in 
grant-type programs?
    You know, because we did with a lot things in order to, 
with a vision to the future. So the first question is how are 
you going to take a look at that? Because this is a very 
expensive proposition to have that communication.
    second, because equipment is such an important piece of 
this, are we, or who is going to take the lead to make the 
standards necessary for some of this equipment that we are 
talking about?
    For example, on gas masks and breathing apparatus, most of 
the standards that we have been set for military use, in other 
words people who are making these things are sending them to 
the military, and yet we might have different parameters, 
different situations going into a sort of terrorist attack or 
something that would warrant that we have different type of 
equipment, even though it is breathing apparatus or chemical 
masks, et cetera.
    So is that part of what you are tasked with, and if it is, 
what is the time line for something like that, because a lot of 
my agencies are asking, they are afraid to buy equipment 
because it may be the wrong type or standards set to a 
different field of operation, that being the military.
    The third question I have for you has to do with the 
staffing and the overtime that I spoke about in my opening 
statement. You know, there is a basic need of equipment for 
some of these agencies.
    I really do not feel too badly asking for some of this 
money, and talking about these issues because I come from an 
area that is very high priority area, and I think by any 
standard you would say that a nuclear power plant, a 
Disneyland, an LAX, Crystal Cathedral, believe it or not, 
people like to blow those types of things up, as opposed to 
other places in the Nation where, quite frankly, 85 percent of 
our law enforcement agencies have less than 10 people to them.
    Mine have a lot more, and so we understand we have a lot 
more people, we have a lot more problems.
    Our biggest cost is staffing and overtime. When the city of 
Anaheim has to go on Orange Alert, it is an additional $30,000 
a day just in people it needs to put out there. The fact that 
we need to bring all the police officers, you know, working.
    And yet we don't have any kind of a grant program from 
that. I want your opinion on whether we should. Or what are we 
going to do with respect to, sort of, this unfunded Federal 
mandate.
    And the fourth question I have is your opinion, especially 
coming from FEMA, with respect to our emergency hospitals and 
the way that we take care of a potential attack. Give an 
example, you know, one of my many venues there, let's say the 
Anaheim Stadium, where you have people. We don't have beds. Our 
hospitals are really stretched right now. They are in a Band-
Aid approach. They can barely take 15 people through the front 
door, let alone the 400 we might ship from the Anaheim Stadium 
and the, you know, 100 who will self diagnose and will arrive 
to the hospital before we even ship the ones who truly are 
under these conditions and are again taking these beds and 
having this problem.
    What say you to the whole issue hospitals, because it seems 
to me that is a very weak link with respect to first response?
    Mr. Brown. Are you ready?
    Ms. Sanchez. Ready.
    Mr. Brown. Here we go.
    Let me challenge your premise that interoperability is an 
expensive proposition. Now, we are going to spend $54 million 
to identify the best demonstration projects around the country. 
But in the conversations that I have had with the science and 
technology folks, with vendors, with other people who have 
approached me, they have said, you know what, there is really 
some basic commercial off-the-shelf stuff that you can be using 
now that is going to solve some of your interoperability 
problems.
    If that is the case, I think we shouldn't just assume that 
this is all going to be very, very expensive. Sometimes I think 
that may be driven by people who want to sell us things. And we 
need to be aware of that and be very cognizant of it.
    So I would just challenge the proposition that 
interoperability is necessarily going to be expensive. Yes it 
will in terms of if we try to do this nationwide and solve all 
of these problems, it certainly might. We recognize that there 
is an expense there. I want to try to keep it as low as 
possible.
    Ms. Sanchez. I would agree, especially since, you know, 
that is not what we are going to be asking for.
    Mr. Brown. Right, exactly. Who takes the lead? I think two 
groups take the lead. I think the science and technology group 
within the Department of Homeland Security, at least that is 
who we are going to rely upon once we start identifying the 
demonstration projects and start getting the results, we are 
not going to claim to have the expertise within EP&R to say 
that is a great technology, you ought to do that. That is why 
we have science and technology.
    We will rely on our other Federal partners, the National 
Institute of Standards and others, who can come in and educate 
us and help tell us what those standards should be. So we are 
not going to try to do it ourselves.
    Ms. Sanchez. And have you started those talks because, I 
mean, people are--
    Mr. Brown. Oh, absolutely, absolutely. And that is the only 
reason why I questioned the premise about the expensiveness of 
doing interoperability because I am starting to hear from Dr. 
Queary and others that yes there are some things out there we 
need to be looking at. There are certain things that the 
Department of Defense already has that solved some of their 
interoperability problems that we have got to look at adopting 
for ourselves.
    So we shouldn't just assume that it is going to be really 
expensive. And we are trying to look across a broad spectrum of 
what we can do to address that problem.
    Staffing and overtime, I don't know. I wish I had the 
answer for you. I think there are a couple things that we can 
do that are kind of a prophylaxis-type approach that we can 
take. We need to get smarter. The Secretary has agreed that we 
are going to look at the threat warning system and how we can 
maybe adjust that or really kind of tailor it for specific 
kinds of threats.
    I want to encourage, to the best that I can, state and 
locals to adopt what we have done within EP&R and the 
department of having a checklist. And when we go from one level 
to another, just not automatically doing everything. But based 
on the threat, which gets back to us able to communicate that 
threat out to the state and locals, of doing what is 
appropriate based on the change in the threat level.
    Other than that, all I can say to you in all honesty today 
is I recognize that the staffing and overtime problem is a 
problem. And we know that and we will try to address that and 
figure out what we can do to help state and locals.
    I am fascinated that you mentioned emergency hospitals 
because that is one of my priorities. We have not done enough 
catastrophic planning. While we are focused on terrorism, I am 
also focused on the catastrophic earthquake that might occur in 
California. And how are we going to at that point have enough 
hospital beds, enough medical personnel and other things to 
address a catastrophic disaster.
    We need to do that. And we have not done catastrophic 
planning in several years and that is one of my priorities 
within the new organization. Once we do that catastrophic 
planning, we will be able to come back to you and say here is 
how we are going to do it.
    Ms. Sanchez. And our hospitals have major problems. I mean, 
they are doing decontamination chambers. Very, very seismic. In 
California is an incredible cost right now.
    Mr. Brown. Right, right. But no, it is one of the problems 
that we have to address. And catastrophic planning is the way 
to do that.
    Ms. Sanchez. Thank you.
    Mr. Brown. We don't like to think about catastrophic 
planning, but boy it needs it.
    Ms. Sanchez. Well, we look forward to working with you on 
these issues because they are very important, in particular a 
metropolitan area like L.A., Orange County.
    Mr. Brown. I understand.
    Chairman Cox. Ms. Norton?
    Ms. Norton. With a vote bearing down upon us, I have stayed 
this long, Mr. Secretary, and I apologize for having to go in 
and out on business involving my district.
    But I have stayed because of a report that I found very 
serious that was issued last week that suggested that the 
country does not have the necessary emergency preparedness for 
a chemical attack.
    And frankly, it raised my hair. Perhaps what Americans most 
fear is a chemical attack, based on what the Administration has 
told us about the affects of a chemical attack. And we keep 
hearing these substances thrown out--ricin, cyanide, which 41 
states you can get naturally, sarin, VX--you know these have 
been thrown out at us.
    So when you get a report that says that our emphasis has 
been basically on bioterrorism, smallpox, plague, with almost 
no emphasis on preparing for a chemical attack, that got my 
attention. And it was a non-partisan, non-profit, called Trust 
for America's Health and looked at every state.
    And on this state-by-state analysis, they found that only 
two states, Georgia and Iowa, have the equipment and the 
expertise to test the cyanide. That is just one chemical. And 
that is the one that is available naturally in 41 states.
    And it found, and here where the emergency preparedness 
point comes in, that only eight states had drafted plans for 
responding to a chemical attack. I have to ask you, in light of 
this report, on a state-by-state basis, what you intend to do 
to prepare first responders and health officials to deal with a 
chemical attack, which, frankly, may be more likely than a 
smallpox attack or a plague attack, which, of course, are 
biological attacks.
    Mr. Brown. This is the second time in the hearing I have 
heard about this report. And I am going to try to get a copy of 
it and look through it and see what it says.
    We have done a couple of things. One is through the Fire 
Grant program, we have made certain that personal protective 
equipment is one of the categories that local first responders 
can get, so that they can be trained in now to use that PPE--
personal protective equipment--and how to respond to a chemical 
attack, to do training.
    So that is something that is done through the Fire Grant 
programs.
    Ms. Norton. And you believe that people are purchasing--
    Mr. Brown. Oh, you mean, purchasing through the Fire Grant 
program?
    Ms. Norton. Yes.
    Mr. Brown. Absolutely. That is one of the purchases that is 
being made through those grants.
    The second thing is Congress was again very good to us last 
year and gave us some great money for the urban search and 
rescue teams, and we have done all of the training. And I think 
we are not quite finished equipping all of them, but we are 
getting pretty close to equipping all of the urban search and 
rescue teams to be WMD capable.
    So those are two specific--
    Ms. Norton. It seems to be the equipment and the expertise 
that is lacking, so you can have all of the training in the 
world, but if you don't have the equipment and you don't know 
what to do.
    Mr. Brown. Right.
    And that is why we thought the urban search and rescue 
teams were a priority. That should be one of the priorities for 
the Fire Grants also. That is one of the categories that they 
can apply for to get the training.
    But then I want to address a third area, and that is, you 
know, we have talked a lot about Citizens Corps and citizen 
preparedness. I think we need to do a better job and I think 
the Ready Campaign that the Secretary launched through the 
department, the Citizen Corps campaign that the President 
launched, the USA Freedom Corps, are all very good programs 
about telling citizens two things: What is the real risk, and 
what can they do?
    Because oftentimes, the risk is--well, a chemical attack is 
dangerous. Sometimes the smartest thing to do is stay in the 
house. Wait there for two or three hours. The chemicals 
dissipate, and then it is safe to leave.
    Oftentimes, people are going to panic and hear there has 
been a chemical spill, and they are going to run outside and--
    Ms. Norton. And so when are we going to begin, when are 
people going to begin to understand that and to learn that?
    Mr. Brown. Well, we are doing our darndest and trying to 
educate everyone through these campaigns now about that. Yet we 
took some hits in the initial start of that about the duct tape 
and plastic sheeting. And I am not embarrassed to talked about 
it here today.
    Because remember when the barge explored in New York harbor 
from the off-loading of the oil? The first thing that the local 
emergency manager told people in that neighborhood in Staten 
Island was, Stay indoors, close your windows, turn off your air 
conditioner.
    So sheltering in place is an absolute credible tool for 
emergency management. And we need to educate folks about how to 
do that, and how not to panic when those things occur.
    So I will go back and look at this report, and then we will 
come back and talk to you about exactly what we are doing in 
those other areas to train and equip first responders to deal 
with it.
    Ms. Norton. I do think what you say about getting the word 
out, stop, look and listen, rather than running outside, 
perhaps right into the chemical attack, is very important.
    Mr. Brown. Yes.
    Ms. Norton. I would suggest that you respond to the 
chairman, to the committee and to the ranking member on this 
notion that, literally, most states wouldn't have any 
information to relay because they have neither the equipment 
nor the expertise to know what the chemical attack is.
    So that is on the threshold level, at the ground level. And 
I would appreciate that whatever you could give the committee 
about the goals you have and when you intend to meet them for 
helping the states to get that kind of equipment and that kind 
of training.
    Mr. Brown. Be happy to do that.
    Ms. Norton. Thank you very much, Mr. Secretary.
    Chairman Cox. We thank the gentlelady.
    The Chair thanks the witness for his time today.
    And this hearing stands adjourned.
    [Whereupon, at 4:23 p.m., the subcommittee was adjourned.]

           Questions for the Record from the Majority Members

    Question 1: The mission of the Emergency Preparedness and Response 
(EPR) Directorate within DHS is to improve the Nation's capability to 
reduce losses from all disaster, including terrorist attacks. Given 
that the EPR is anchored by the incorporation of FEMA, how are the 
objectives of this new mission being met by an agency that has 
historically functioned to aid cyclical natural and other major 
disasters?
    Answer: FEMA's heritage comes from being prepared for all hazards, 
including a nuclear threat during the Cold War. While some natural 
disasters are cyclical, tornadoes, flash flooding, and earthquakes, for 
example, happen without notice, demanding that FEMA he prepared to 
coordinate the Federal government's response and recovery efforts to 
supplement state and local activities.
    Although many people think of FEMA in our most common very public 
role in responding to natural disasters, our capabilities have already 
been fully tested in other events such as terrorism. In fact, our 
management of response and recovery efforts after the Oklahoma City 
bombing and the terrorist attacks of 9/11 were completely in keeping 
with the work we do in responding to natural events. FEMA's activities 
focused on saving lives and protecting life and property, such as 
coordinating Urban Search and Rescue Teams, Disaster Medical Assistance 
Teams, and Disaster Mortuary Teams, and providing assistance for debris 
removal, emergency protective measures, temporary housing, disaster 
unemployment, and crisis counseling, and are the same regardless of the 
cause of the event.
    The lessons learned from these events have been shared with the 
emergency management community and help to improve our training and 
preparation for future events. FEMA's mission is all-hazards, which now 
includes a focus on terrorism as a threat to our nation. FEMA was also 
asked to lead a Departmental and interagency effort to develop a 
Catastrophic Incident Response Annex to the National Response Plan. 
This Annex, while all-hazards in scope, is nevertheless focused heavily 
on WMD events precipitated by acts of terrorism.
    Terrorism preparedness and response are not new missions for FEMA. 
Executive Order 12148, Federal Emergency Management, of July 1979, 
paragraph 2-103, provided that: ``The Director [ FEMA] shall be 
responsible [...]for the coordination of preparedness and planning to 
reduce the consequences of major terrorist incidents.'' FEMA responded 
to the April 19, 1995, bombing of the Murrah Federal Building in 
Oklahoma City before it responded to the September 11, 2001, attacks on 
the World Trade Center and the Pentagon.
    If FEMA has provided response and recovery assistance to state and 
local governments, certain nonprofits, and individuals more in 
``cyclical natural and other major disasters'' than in large-scale 
terrorism incidents, that is because historically there have been far 
more such natural disasters on U.S. soil than there have been large-
scale terrorism incidents. However, FEMA was directed in Executive 
Order 12148 to ensure that ``all civil defense and civil emergency 
functions, resources, and systems of Executive agencies are [ 
developed, tested and utilized to prepare for, mitigate, respond to and 
recover from the effects on the population of all forms of 
emergencies'' (emphasis added).
    The ongoing challenge for FEMA, and for state and local emergency 
management, is to give each hazard's unique characteristics its due 
(based on risk and/or policy-makers' preferences), while maintaining a 
foundation of functional responses common to multiple hazards that can 
provide the flexibility to deal with the unusual, such as the space 
shuttle Columbia incident. That is what FEMA means by an ``all-
hazards'' approach: not that response to every type of emergency is 
exactly the same, but that there are commonalities. Getting those 
commonalities right is the foundation for addressing the unique aspects 
of certain hazards successfully, and provides the greatest adaptability 
for addressing newly emerging hazards and threats in a community, 
state, or Nation.
    FEMA continues to take an all-hazards approach to preparedness, 
response, mitigation, and recovery. We recognize that in the present 
environment, terrorism requires immediate and direct attention. Our 
core mission is to provide leadership and support to reduce the loss of 
life and property and to protect our nation's institutions from all 
types of hazards through a comprehensive, risk-based, all-hazards 
approach. We continue to work with state and local governments, the 
first responder community, and our Federal partners to take an all-
hazards approach to emergency preparedness and response.
    Substantial effort is being made to consolidate and integrate all 
of the different disaster response programs, teams, and assets in DHS. 
FEMA is designing new approaches and implementing new efficiencies that 
will result in a more unified, integrated, and comprehensive approach 
to all-hazards disaster response. The improved coordination of all 
response programs and efforts to introduce a new response culture will 
make DHS better able to elevate operational disaster response 
capabilities to a whole new level of proficiency, one that will further 
the principles of the National Response Plan and National Incident 
Management System and better serve the American people.
    All of the disaster response operations, programs, and activities 
are being reviewed to make sure that they are complementary and form a 
cohesive national response system that eliminates duplication and 
inefficiencies. Related to this review, measures are being planned that 
will help reduce the time it takes for disaster response teams to get 
to a disaster site and the time it takes to deliver needed disaster 
supplies. In addition, greater emphasis will be placed on catastrophic 
disaster planning, including planning for responding to acts of 
terrorism.
    Question 2: The Homeland Security Act transferred the functions, 
personnel, and assets of the Strategic National Stockpile to the EPR, 
the law mandates that the HHS Secretary continue to manage the 
stockpile and determine and procure its contents. What exactly is the 
role of the EPR in regards to Stockpile and how are you coordinating 
deployment decisions with CDC and other public health agencies?
    Answer: The Homeland Security Act of 2002 established joint 
management of the Strategic National Stockpile (SNS) by DHS and the 
Department of Health and Human Services (HHS) on March 1, 2003. The two 
Departments signed a Memorandum of Agreement (MOA) that delineated the 
individual management responsibilities of each Department. DHS and HHS 
have amended the MOA to articulate more clearly the roles of the two 
Departments. Currently, DHS provides the strategic direction and 
performance levels that HHSICDC must meet in management of the SNS on a 
day-to-day basis. Capabilities of the SNS have not changed. Requests 
for SNS materiel and response procedures remain the same.
    DHS and HHS continue to work closely to ensure that the joint 
responsibilities for the SNS allow it to respond effectively in concert 
with the other DHS response elements. New drugs and vaccines developed 
under Project BioShield, the comprehensive effort to develop and make 
available effective drugs and vaccine to protect against attacks using 
biological and chemical weapons or other dangerous pathogens, will 
ultimately reside in the SNS and also be available to help ensure the 
health security of the United States. The first interagency agreement 
under the BioShield program has been negotiated between DHS and HHS, 
for development, procurement and eventual inclusion in the SNS of 
Recombinant Protective Antigen (rPA), a next-generation anthrax 
vaccine.
    In the fiscal year 2005 budget proposal, and in the current 
Bioshield legislation, the Administration has proposed to return 
principal responsibility for the SNS to HHS. HHS would coordinate with 
DHS in operating the SNS.
    Question 3: Do you feel that the Homeland Security Act gives you 
adequate authorities beyond those in place for natural disaster in 
light of your enhanced counter-terrorism mission?
    Answer: In FEMA's role of preparing for, responding to, recovering 
from, and mitigating against all-hazards, including terrorist-related 
events, the Stafford Act provides FEMA with sufficient authority to 
carry out its role and responsibilities as enhanced by the Homeland 
Security Act. The HSA continued the existing authority provided 
pursuant to the Stafford Act and supplemented those authorities with 
additional assets, including the Domestic Emergency Support Team, the 
National Disaster Medical System, the Nuclear Incident Response Team, 
and the Strategic National Stockpile. it is important to note, however, 
that Homeland Security Presidential Directive 5 (HSPD-5) required DHS 
to ``review existing authorities and regulations and prepare 
recommendations for the President on revisions necessary to implement 
fully the National Response Plan.'' This authorities review is 
currently underway and will include recommendations for any additional 
authorities that may be necessary and consistent to implement the 
National Response Plan.
    Question 4: What intelligence products is your directorate 
routinely receiving today and how are they reaching you? Are those 
products getting to you quickly and in a form that enables you quickly 
to pass them on to your field personnel--as well as the state and local 
officials--who need them?
    Answer: FEMA is well connected with the intelligence community 
through dedicated personnel liaison contacts, cleared couriers, and 
electronic communications systems to include secure facsimile, AUTODIN, 
the Joint Worldwide Intelligence Communications System, and the Secure 
Internet Protocol Network. FEMA also receives the Director of Central 
Intelligence Senior Executive Intelligence Briefing via cleared 
couriers Monday through Saturday, as well as finished intelligence 
produced by the National Intelligence Council and the Directorate of 
Intelligence. Further, the DHS Information Analysis and Infrastructure 
Protection Directorate provides FEMA with applicable intelligence 
information and warning products through their representation in the 
Homeland Security Operations Center.
    FEMA is not an intelligence collection or production and is 
prohibited from creating and disseminating finished intelligence 
outside of its own organization Intelligence of interest to non-
headquarters FEMA offices and organizations possessing the proper 
clearance and ``need to know'' can be accomplished at the non-
compartmented level through secure facsimile and the FEMA Secure Local 
Area Network as well as through the AUTODIN.
    Question 5: Do you get routine intelligence briefings? How often 
and from what agencies? Is the IAIP directorate giving you any 
independent threat analysis of its own?
    Answer: FEMA receives the Director of Central Intelligence Senior 
Executive Intelligence Briefing via cleared couriers Monday through 
Saturday, as well as finished intelligence produced by the National 
Intelligence Council and the Directorate of Intelligence. Further, the 
JAIP Directorate provides FEMA with intelligence and warning products 
produced by the Directorate, as is applicable, through their 
representation in the Homeland Security Operations Center.
    Question 6: Has creation of the Department of Homeland Security 
increased the flow of intelligence information into the entities that 
are now in the Department's EP&R directorate, or is the intelligence 
flow about the same as before?
    Answer: Yes, the intelligence flow has increased. Additionally, 
Critical Infrastructure Protection intelligence flows from the DHS 
Information Analysis and Infrastructure Protection (TAIP) Directorate 
into the United States Fire Administration's Emergency Management and 
Response Information Sharing and Analysis Center (EMR-ISAC). This 
information is then disseminated to the EMR community for its use in 
protecting their own infrastructures.
    Question 7: Frequently the front line responders are the first on 
the scene of an event. What process has been established within your 
Directorate to up-feed that information to the decision makers at the 
EPR?
    Answer: FEMA receives information from state and local responders 
through the Governor or the state emergency manager. The Response 
Division's structure is based on the Incident Management System so that 
it is aligned to meet the needs of state and local responders. In 
addition, it is designed to meet the President's directives established 
within Homeland Security Presidential Directive (HSPD)-5, which called 
for the National Incident Management System (NIMS) and the National 
Response Plan (NRP). The Response Division is managing the activities 
of many national response assets formerly maintained within other 
Federal agencies. These include: the National Disaster Medical System, 
the Domestic Emergency Support Team, the Strategic National Stockpile, 
and the Nuclear Incident Response Team. By consolidating response 
plans, programs, and systems for delivering assistance and responding 
to various types of incidents into one coordinated, consolidated, and 
comprehensive national system, the Department will be able to provide a 
more streamlined approach to incident management. This streamlining and 
consolidating will serve to improve the information flow in both 
directions, up to senior decision makers and down to the State and 
local first responders in the field.
    FEMA's United States Fire Administration (USFA) is integrating 
information about the NIMS and the NRP into all courses at both its 
National Fire Academy and its Emergency Management Institute. Both 
institutions have taught courses on the Incident Command System--one of 
the primary components of the NIMS--for many years. Courses at both 
institutions, with consistent NIMS information, will ensure that front 
line responders receive the appropriate training to be able to 
effectively manage an incident and provide the necessary information 
from the Incident Management Team (IMT), through the multi-agency 
coordination system, to the appropriate Federal entity within the NRP. 
The USFA is also providing IMT training to develop Type 3 IMTs within 
States and Urban Area Security Initiative regions; these Type 3 IMTs 
will provide for a smoother transition and more effective communication 
flow during major and or complex incidents, including incidents of 
national significance.
    Furthermore, FEMA's ten regional offices are in communication with 
state and local government offices and emergency management 
professionals on a daily basis. These relationships foster the 
efficient and effective exchange of information, particularly when an 
event occurs. For example, when there is an approaching hurricane, FEMA 
regional offices send designated employees to state emergency 
management offices to help prepare, to begin gathering information, and 
to provide guidance for Federal assistance.
    Question 8: Of the seven categories of functions described in the 
President's reorganization plan for the EPR, five focus on response and 
recovery activities. How are you providing adequate attention to 
preparedness activities for the directorate?
    Answer: Within FEMA, the Preparedness Division has responsibility 
for a broad range of programs and initiatives for all-hazard capability 
building and capability assurance. These include training programs at 
the National Fire Academy and Emergency Management Institute, the 
Chemical Stockpile Emergency Preparedness Program (CSEPP), the 
Radiological Emergency Preparedness Program (REPP), and all-hazards 
assessment and exercise activities, such as the National Emergency 
Management Baseline Capability Assessment Program. Under the National 
Emergency Management Baseline Capability Assessment Program, FEMA is 
funding and sponsoring assessments of state-level emergency management 
capability against a common set of voluntary standards. All 56 state 
and state-level jurisdictions are expected to participate in this 
program, slated for completion in fiscal year 2005. The results of 
these assessments will help FEMA, the Department of Homeland Security, 
and states develop strategies to better target assistance to areas of 
greatest common need. For improving FEMA's response and recovery 
efforts, the Preparedness Division has implemented and manages a very 
robust Remedial Action Management Program that ensures field-level 
response and recovery issues are brought to the prompt attention of 
functional decision-makers for the purpose of commencing appropriate 
remediation. In short, while preparedness may not have garnered many 
lines in the reorganization plan, FEMA's employees pay substantial 
attention to preparedness every day, using the resources Congress and 
the Administration have allocated to this important work. Most 
important, the local civilian responders are the same persons that FEMA 
works with in exercises whether it is CSEPP, REPP, or the Capability 
Programs. Thus, the critical continuity with our state and local 
partners in preparedness continues into our response and recovery work, 
where knowing the participants can smooth the way for the most 
effective response. Please also see the answer to Question 13.
    FEMA's Preparedness Division provides leadership in the 
coordination and facilitation of preparing the Nation to respond to and 
recover from disasters and emergencies of all types through development 
of standards, training, assessments and exercises for groups and 
individuals having key emergency responsibilities, including state and 
local governments, first responders, and communities. Our goal is to 
minimize loss of life and property and suffering and disruption caused 
by disasters and emergencies through better preparedness at all 
levels--from the Federal Government to the individual. The Preparedness 
Division is organized into a number of branches and sections. It 
continues to:
    <bullet> Develop and provide resource materials for training aids, 
and overall planning and operational guidance to assist state, local, 
and tribal governments in preparing for the response to and recovery 
from all-hazards disasters and emergencies.
    <bullet> Coordinate the development of national operational 
standards/performance measures and protocols, and state and local 
mutual aid standards and protocols to support all-hazards capability 
building, program guidance, implementation procedures, and reporting 
criteria.
    <bullet> Enhance existing emergency preparedness systems to 
effectively respond to a public health crisis, especially a weapons of 
mass destruction event.
    The United States Fire Administration (USFA) continues its work 
with the fire and emergency service community and in the training 
arena. The USFA's National Emergency Training Center, including the 
National Fire Academy and the Emergency Management Institute, and the 
USFA's Noble Training Center continue to deliver quality training to 
the nation's first responder and emergency management community.
    Question 9: The National Domestic Preparedness Office (NDPO) was 
established in the FBI to coordinate Federal assistance to first 
responders in the area of domestic terrorism preparedness. The function 
of NDPO was transferred from the FBI to FEMA to consolidate all Federal 
domestic preparedness. What is the functioning status of NDPO?
    Answer: The NDPO essentially ceased to exist prior to the passage 
of the Homeland Security Act, and thus no longer functionally exists, 
therefore there were no functions of the NDPO to be transferred to 
FEMA; no staff or funding transferred. Within DHS, the Office for 
Domestic Preparedness has been assigned responsibility for coordinating 
Federal terrorism preparedness assistance to first responders.
    Question 10: The Domestic Emergency Support Team (DEST) is a stand-
by interagency team of experts led by the FBI to provide advice and 
guidance in a situation involving WMDs. The Act transferred the 
functions of DEST from the FBI to the EPR. How are you working to 
coordinate the activities of DEST with the FBI?
    Answer: The Domestic Emergency Support Team (DEST) provides 
information management support; enhanced communications capabilities; 
tailored expertise, assessment, and analysis capabilities; and 
consequence contingency planning capabilities. The operational control 
of the DEST transferred from the FBI to DHS on March 1,2003. While each 
agency supplies its own personnel and equipment to the DEST, DHS has 
assumed the administrative and logistical responsibilities for the 
team. Coordination with the FBI will continue through FBI 
representatives who serve on the DEST.
    Question 11: The Act directs the HHS Secretary to set goals and 
priorities and to collaborate with the Secretary of DHS to develop a 
coordinated strategy to improve state, local and hospital preparedness. 
Please update the committee on the level of coordination that the EPR 
has had with HHS in preparing our front line health care programs, 
professionals and hospitals.
    Answer: There are several areas of collaboration with HHS. FEMA is 
working closely with ODP and HHS on procedures for implementation of 
HSPD 8 and national goal setting. We coordinate closely with HHS on the 
contents, budget and deployment of the Strategic National Stockpile. We 
continue to work with HHS in the integration of the NDMS system into 
FEMA. We also continue to work with HI-IS regarding the Noble Training 
Center.
    NDMS has worked closely with HHS on surge capacity issues 
identified during Exercise TOPOFF II. Also, DHS representatives have 
actively participated in workgroups that are proposing methodologies to 
enhance hospital surge capacity through training of personnel, 
identifying resources, and developing plans. DHS and HHS will be 
working to improve the coordination between our two agencies.
    The NDMS staff continues to look at integrated strategies to 
enhance hospital preparedness. HHS and DHS have worked very closely in 
the workgroups to ensure that DHS and HHS programs are coordinated, 
including joint efforts to develop the Catastrophic Incident Response 
Plan Annex to the NRP. DHS and HHS continue to coordinate the SNS 
efforts to prepare state and local health organizations to receive and 
distribute SNS material. NDMS assets are being fully incorporated into 
FEMA disaster response team and logistic activities, and increases in 
NDMS hospital training and exercises, as well as improving the 
capability to evacuate patients, are planned in the coming years.
    FEMA's United States Fire Administration (USFA) is also working to 
increase the coordination between first responders and hospitals during 
multi-casualty arid mass casualty incidents of all types. USFA's 
National Fire Academy (NFA) delivers courses on topics including EMS 
Management, EMS Special Operations, EMS Operations at Multi-Casualty 
Incidents, Incident Command System for EMS, and Fire Service/Hospital 
Coordination for Multi-Casualty and WMD Incidents. USFA's Emergency 
Management Institute (EMI) offers Hospital Emergency Response Training 
for WMD Events. Both NFA and EMI offer courses at USFA's Noble Training 
Cent in Anniston, Alabama, a former military hospital established for 
EMS and medical response training. Last year, we delivered the training 
schedule initiated by HHS while we developed additional offerings in 
the area of mass casualties and weapons of mass destruction. This year 
we are offering an expanded schedule of FEMA courses at Noble in 
partnership with HHS (CDC and the Health Services and Resources 
Administration).
    Additionally, DHS and HHS have an equally close relationship with 
regard to Project Bioshield. The proposed BioShield program and the 
current legislation call for DHS to perform threat assessments and to 
inform HHS of potential threats. HI-IS, based on the threat information 
received, will decide if an adequate countermeasure for the threat 
currently exists.
    Questions on TOPOFF II
    Question 12: TOPOFF II cost an estimated $16 million and involved 
more than 8,500 people from 100 Federal, state and local agencies, the 
American Red Cross, and the Canadian government. Understandably, no 
results or conclusions have been published from the exercise, however, 
can you give us a sense of what the Directorate learned from TOPOFF II?
    Answer: As you note, specific findings from the exercise are ``For 
Official Use Only'' and are not available at this time for the public 
record. However, in the most general sense, TOPOFF II allowed us to 
appreciate more fully some of the new interactions and coordination 
requirements associated with becoming part of a larger Department that 
has been assigned certain responsibilities by the President under 
Homeland Security Presidential
    Directive 5. We also were able to test integration of non-FEMA 
assets that are now part of DHS. We did much of this at the same time 
as we were responding to real-world tornadoes.
    Question 13: The purpose of an emergency drill is to learn where 
your weaknesses are so that you can address those areas. What areas of 
weakness did you identify?
    Answer: TOPOFF II provided important lessons regarding Federal, 
state, and local integration. The exercise appeared to lead to some 
uncertainty about who had the authority to deploy certain assets. Also, 
it became apparent that as the NRP undergoes development, the 
integration of response plans and policies merit 
consideration?particularly where existing plans are considered 
effective for emergency response. TOPOFF II results indicated that the 
roles and responsibilities of the principle Federal official (PFO) need 
to be clarified with respect to those of the FBI Special Agent in 
Charge, the FEMA regional director, and the Federal coordinating 
officer. In addition, the PFO requires an emergency support team with 
the flexibility and expertise to provide support across the full range 
of homeland security operations.
    We expected beforehand that communications would be a problem in 
TOPOFF II. Communications is not just about technology. Technology is a 
tool to create a channel for communications, but good communications is 
also about common understanding of who is supposed to receive what 
content in what form by when, and even an appreciation of why. In any 
exercise or real-world operation, there is always at the very least one 
person or organization that does not share in this common 
understanding--and so there is always at least one person or 
organization that will identify communications as a problem, or it will 
be identified as the source of the problem, even if things ``work'' 
overall. In that sense, while communications is not necessarily a 
weakness, we will always have plenty of work to do in preparedness--in 
the policy, planning, training, and exercise worlds--to foster and then 
sustain a common understanding of coordination relationships and 
information requirements in response. Technology can help bring the 
information together and display it in a better ``common operating 
picture.''
    Question 14: Will another such exercise be necessary in the future? 
If so, what will you do differently?
    Answer: Exercises like TOPOFF II--for terrorism and for other 
scenarios--are valuable, and we will continue to support large-scale 
exercises of our response and recovery operations. However, we can add 
more value to our participation in such large-scale exercises by doing 
more to make them the culmination of smaller, tightly focused exercises 
for our response teams and decision-makers. TOPOFF II, with its issue 
seminars, was an improvement over TOPOFF 2000 in that regard. In 
addition, since first response to almost any emergency is at the 
community level, we have to put equal or greater emphasis on 
conununity-based exercises. The Office of Domestic Preparedness is 
responsible for scheduling, coordinating and conducting large-scale 
exercises involving national-level participation through their National 
Exercise Program. They are currently planning for the third Top 
Officials exercise, TOPOFF III.
    Question 15: One area of concern post-September 11 was the ability 
of levels of government to communicate effectively and coordinate 
plans. Was the communication system a success in TOPOFF II
        (a) How effective was coordination between local, state, and 
        Federal agencies?
    Answer: All levels of government worked well together in TOPOFF II. 
That is not to say that communications and coordination were perfect. 
They were not. But contact was established, information was shared, and 
there were means for consultation. It is important to note that TOPOFF 
II was conducted just a few short months following the establishment of 
the new Department. In many respects, TOPOFF II served as a test for a 
number of new processes, procedures and protocols established to 
coordinate incident management activities, and it was invaluable in 
that regard.
        (b) Some press reports indicated that there were capacity 
        problems in Chicago's hospitals during the exercise. Is this 
        true?
    Answer: Chicago was hit harder by the 1995 heat wave than by TOPOFF 
II; during the exercise several Chicago hospital officials indicated 
they were able to keep up with the number of people arriving at their 
emergency rooms. It is important to take a systems approach regionally 
and nationally, sharing information on general and specialized hospital 
capacity, in order to meet any surge in demand for medical care. Along 
those lines, the federally coordinated National Disaster Medical System 
NDMS) offers a single, integrated medical response capability to assist 
state and local governments when they are faced with a public health 
emergency. Within NDMS, Federal Coordinating Centers recruit hospitals 
for voluntary agreements to commit a number of acute care beds, subject 
to availability, for NDMS patients.
        (c) What contingency plans are being put in place so that in 
        the case of a widespread outbreak people would be able to find 
        treatment?
    Answer: Within DHS, the federally coordinated National Disaster 
Medical System (NDMS) offers a single, integrated medical response 
capability to assist state and local governments when they are faced 
with a public health emergency. Within NDMS, Federal Coordinating 
Centers recruit hospitals for voluntary agreements to commit a number 
of acute care beds, subject to availability, for NDMS patients. FEMA 
also would deploy the Strategic National Stockpile if requested, along 
with a technical response unit to provide technical assistance and 
assist the State in breakdown and distribution.
    In the event of a widespread outbreak, HHS would be the lead 
Federal agency. In that event, HHS would utilize the NDMS and other 
assets, from the PHS Commissioned Corps Readiness Force, the Centers 
for Disease Control and Prevention, the Department of Veterans Affairs. 
and the Department of Defense. We also note that, within HHS, the 
Health Resources and Services Administration has a Hospital 
Preparedness program to ready hospitals and supporting health care 
systems--primary care facilities, EMS systems, poison control centers--
to deliver coordinated and effective care to victims of terrorism and 
other public health emergencies. The President's fiscal year 05 budget 
request includes funding for medical surge capability and pilot 
programs.
    Question 16: During this exercise, the threat level was raised to 
``Red'' to indicate that the country had been attacked. Can you 
describe what additional procedures are put into place as a result of 
this elevated status?
    Answer: Without entering into details, FEMA increases the security 
posture of its facilities, takes measures to preserve the continuity of 
its essential operations, and depending on the specifics of the threat, 
alerts or deploys specific response assets.
    Question 17: Some critics of the exercise argued that it wasn't 
effective because it was too planned out and lacked the element of 
surprise. How do you answer those criticisms?
    Answer: The exercise achieved its intended goal; it not only 
demonstrated and validated those response capabilities and processes 
that work well, it also revealed areas that need further improvement. 
Those are the overarching goals of every exercise, and, within that 
context, the exercise was a success. All exercises are planned We 
create artificial stimuli to see whether or not we elicit an expected 
response, and we line up resources from a resource pool that is not as 
extensive as what we have to draw upon in a real-world event. An 
exercise would only be too planned-out if everything worked perfectly 
and no one learned anything--but then it would be a demonstration 
rather than an exercise. Obviously, the players did not have the total 
script and could not have total certainty that actual response actions 
would be the expected response actions. Just as with an SAT exam, where 
students know when the test will be given and have test preparation 
books and courses available to them, they still have to perform.

        Questions for the Record from The Honorable Kay Granger

    U.S. Customs placing VACIS/Radiation Detection Equipment at the 
Borders:
    Question: As you may be aware, U.S. Customs is entering into an 
effort to deploy VACIS detection equipment at border crossings to 
screen all rail cargo entering the United States, The railroad industry 
has been cooperating with this effort, but it appears that Customs 
expects the railroads to bear all costs related to constructing 
inspection facilities.
    (1). Is your department aware of the costs that the railroad 
industry will bear with the implementation of these facilities?
    Answer: Customs and Border Protection (CBP) has provided direction 
to the rail companies impacted by the deployment of Rail VACIS 
technology. This direction comes from two sources. The first source is 
the language contained in the Declaration of Principles (DOP). The DOP 
is the culmination of months of discussions between CBP, Canada Customs 
and Revenue Agency (CCRA), Canadian Pacific Railway (CP) and Canadian 
National Railway (CN). The document is a road map of principles to be 
utilized by parties from the United States and Canada aimed at 
improving overall rail security on our common border.
    Item number seven of the DOP addresses examination facilities and 
states the following: ``In return for CBP providing the screening 
equipment at Walkerville Yard and Sarnia Yard, CN and CP agreed to 
provide, where currently lacking, facilities in the United States for 
conducting security examinations. CN and CP further agreed to arrange 
for and fund the labor for unstuffing these shipments for examination, 
up to a maximum annual examination rate of 5 percent of total 
shipments. CBP will incur the expense for all examinations performed 
over 5 percent of rail cars.'' The DOP emphasizes that it is the 
responsibility of the Canadian Rail Companies (CN and CP) to bear the 
cost of exam facilities.
    The second source of direction comes from the Tariff Act of 1930 as 
amended, and the implementing regulations governing the presentation of 
merchandise for customs examination. While DHS always seeks to do its 
job in the most efficient way for business, when examinations are 
required, longstanding regulations at 19 CFR 151.6 are clear that ``the 
importer shall bear any expense involved in preparing the merchandise 
for Customs examination and in the closing of the packages.'' This 
regulation applies regardless of the mode of transportation, including 
rail.
    (2). Is Customs aware of the potential railroad congestion 
consequences related to VACIS inspections, especially for passenger 
trains using the same tracks as inspected freight trains?
    Answer: We have discussed this area of concern with the appropriate 
parties. Options are available to the rail companies, including 
providing necessary trackage for the purpose of railcar inspection. In 
some cases this may mean an additional siding where railcars are 
removed from the mainline, thus allowing the continued flow of rail 
traffic.
    Our non-intrusive inspection (Nil) technology, such as Rail VACIS, 
is viewed as a force multiplier that enables us to effectively and 
efficiently screen or examine a larger portion of the stream of 
commercial traffic while facilitating the flow of legitimate trade and 
traffic.
    (3). Would you be willing to explore funding options to assist the 
rail industry in the amelioration of VACIS-related problems? These are 
costs that other modes of transportation do not bear and, thus, place 
an unfair burden on one of the securest modes of transportation. Does 
Customs have any plans for reimbursing the railroads for these costs?
    Answer: The priority mission of CBP is to detect and prevent 
terrorists and terrorist weapons from entering the United States while 
simultaneously facilitating legitimate trade and travel. The deployment 
of large-scale NIT technology such as Rail VACIS will provide CBP with 
the ability to effectively screen 100 percent of rail traffic arriving 
in the United States from Canada for contraband, including weapons of 
mass destruction.
    The rail industry is free to explore any and all finding options 
available to them. CBP is not in a position to advise or assist in that 
endeavor. Other modes of transportation have been required to provide 
the same type of examination facilities that the rail sector is only 
now being asked to provide. There are no plans for reimbursement at 
this time.

        Questions for the Record From Ranking Member Jim Turner

    EP&R and ODP Coordination
    Member Comment: In April of 2002, GAO testified, ``In general, the 
lack of effective coordination among Federal agencies, and also between 
Federal agencies and state/local entities is the result of basic 
problems that need to be resolved: (1) The problem of overlap and 
duplication of programs; lack of a clear definition of appropriate 
roles leads to confusion; and (2) a lack of direction and guidance as 
should be provided by Federal agencies to state and local governments 
and also the private sector. In addition, GAO has identified at least 
16 Federal grants that can be used by first responders--states, local 
governments, and fire and law enforcement officials--to buy equipment, 
train, run exercises, and conduct preparedness planning.
    Question I: How has DHS addressed these problems that GAO 
identified over one year ago, specifically with respect to the grant 
programs administered by the EP&R Directorate and the Office for 
Domestic Preparedness?
    Answer: The DHS Secretary provided notice to Congress on January 
26, 2004, of his intent to consolidate ODP and the Office of State and 
Local Coordination (SLGC) into anew office entitled the Office of State 
and Local Government Coordination and Preparedness (SLGCP). The purpose 
of this consolidation is to enhance overall coordination and to provide 
greater program integration, simplified application and award 
processes, and greater. consistency in policy and program development.
    Question 2: State and local governments remain confused about who 
in DHS is their point-of-contact for all preparedness and response 
issues. How will DHS and your Directorate streamline, simplify, and 
coordinate multiple grant programs to make it easier for first 
responders to get the funds and technical assistance they need?
    Answer: The DHS Secretary provided notice to Congress on January 
26, 2004, of his intent to consolidate ODP and the Office of State and 
Local Coordination (SLGC) into a new office entitled the Office of 
State and Local Government Coordination and Preparedness (SLGCP). The 
purpose of this consolidation is to enhance overall coordination and to 
provide greater program integration, simplified application and award 
processes, and greater consistency in policy and program development.
    Question 3: What is the rationale for keeping ODP as a separate 
organizational entity outside of EP&R, as opposed to having ODP report 
to the EP&R Under Secretary? Was this not the Administration's original 
proposal when it created the Office for National Preparedness in FEMA, 
a move that was applauded by GAO?
    Answer: The Homeland Security Act directed that ODP be a separate 
office in a different directorate in DHS. The Homeland Security Act 
mandates a role for ODP to conduct terrorism preparedness, and for FEMA 
to conduct preparedness for all-hazards.
    Question 4: What role, if any, does the Office for State and Local 
Government Coordination play in grant process?
    Answer: The Office of State and Local Government Coordination 
(SLGC) and the Office for Domestic Preparedness (ODP) will be merged 
into a single entity to be called the Office of State and Local 
Government Coordination and Preparedness (SLGCP). SLGCP will meet the 
need for a single point of contact for state and local preparedness 
grant programs.
    Question 5: How have ODP and EP&R logically separated these two 
preparedness programs? How is such a separation consistent with the 
all-hazards preparedness and response plans that have been developed by 
the states and localities? Are states and localities required to 
develop two parallel plans, one for WMD incidents and one for 
``normal'' disasters?
    Answer: Within the Department, we are working to coordinate our 
programs more closely. We are working closely together to set goals for 
preparedness and ensure our programs taken together will meet the 
objectives. The Administration has moved certain FEMA grant programs to 
ODP and has expressed the intent to merge ODP and the Office for State 
and Local Government Coordination, in order to better facilitate a 
``one-stop shop.''
    Question 6: What is EP&R's specific role--if any--in terrorism 
preparedness, training and exercises? Does EP&R have any role in 
terrorism preparedness, or is it only responsible for other hazards?
    Answer: Title V of the Homeland Security Act of 2002 makes the 
Under Secretary of EPR responsible for ``helping to ensure the 
effectiveness of emergency response providers to terrorist attacks, 
major disasters, and other emergencies'' and for ``building a 
comprehensive National Incident Management System [... for ...] such 
attacks and disasters.'' The Act also requires FEMA to retain its 
functions and responsibilities under the Stafford Act. FEMA has a role 
in terrorism preparedness because FEMA has a responsibility for all-
hazards preparedness.
    FEMA possesses a wide-ranging operational mission, and is populated 
with staff with extensive experience in preparing for, responding to 
and recovering from the consequences of incidents, emergencies and 
disasters, irrespective of cause or complexity. This body of 
operational expertise makes FEMA uniquely qualified to continue its 
long-standing responsibility of coordinating operational all-hazards 
preparedness to the nation.
    FEMA continues to support all-hazards emergency preparedness, 
training, and exercises on the basis that the management of the 
consequences from any event has numerous essential elements that may 
need to be supplemented by special actions for some events. As an 
example--Mass Care Sheltering is common to all events that cause 
persons to be displaced; they need to be sheltered and fed in a safe, 
healthful, and secure location. This requires the same basic facilities 
and services in natural events and may only need supplemental screening 
persons for weapons of mass destruction (WMD) contamination if the 
event is terrorist-initiated (this would be the same for an industrial 
chemical accident as well). Significant hazards facing the Nation 
continue to be addressed. FEMA continues to provide public assistance 
and individual assistance, including crisis counseling, and organizes 
Disaster Legal Assistance, in presidentially declared natural and 
manmade disasters and emergencies.
    Operational planning is a key Preparedness function, and FEMA has 
years of experience and accumulated expertise planning for, responding 
to and recovering from emergencies and disasters. Accordingly, FEMA was 
asked to lead a Departmental and interagency effort to develop a 
Catastrophic Incident Response Annex to the National Response Plan. 
This Annex, while all-hazards in scope, is nevertheless focused heavily 
on WMD events precipitated by acts of terrorism. The draft Annex 
outlines a strategy for accelerating the provision of needed Federal 
resources and assistance in support of the response to a catastrophic 
incident involving mass casualties and mass evacuees. Since it is 
expected that such a catastrophe will so overwhelm the local response 
architecture that their ability to execute timely needs assessments 
will be impaired, a key component of this strategy is to immediately 
begin pushing predetermined assets to a federal mobilization center 
near the incident venue, to ensure they are immediately available to 
support the incident management effort when requested by state/local 
authorities.
    FEMA, through its United States Fire Administration (USFA), 
provides training for first responders and technical assistance for 
first responder and emergency management agencies on all hazards, 
including emergency response to terrorism incidents and terrorism 
response planning. Some of the courses were developed jointly with ODP 
while they were in the Department of Justice. The USFA's National Fire 
Academy (NFA) has an Emergency Response to Terrorism curriculum with 
eight courses, plus many additional courses related to incident 
management (including the NIMS), which apply to all hazards. Similarly, 
USFA's Emergency Management Institute has several terrorism-related 
courses for emergency management personnel
    Question 7: Is EP&R participating in the ODP process of collecting 
updated preparedness data from the states? For example, did EP&R have 
any input in revising the ODP data collection tool?
    Answer: FEMA is working closely with ODP on the development of the 
National Preparedness Goal under l-ISPD-8. FEMA has provided input into 
the revised ODP data collection tool. Some of the questions now go 
beyond terrorism-specific concerns to include an all-hazards approach 
to traditional terrorism-specific concerns--for example, in the areas 
of planning and interoperable communications.
    FEMA has detailed three individuals to ODP to ease program 
transition, and both agencies work together on a daily basis. FEMA 
worked closely with ODP to develop its fiscal year 2003 State Domestic 
Preparedness Program assessment documentation and has participated in 
conducting regional workshops to ensure the agencies' programs 
complemented, but did not duplicate, one another.
    Question 8: How often do EP&R staff access the ODP information, and 
what exactly is the process for accessing this information (e.g., is 
the EP&R information technology network linked to the ODP database, or 
do EP&R staff have to access the database at the ODP office?).
    Answer: FEMA submits a request for information and views the 
information at ODP. In the last 11 months, FEMA has requested 
information four times.
    Question 9: What duplications of effort or grant programs have EP&R 
and ODP discovered, and how have these duplications been resolved?
    Answer: As earlier stated, the DHS Secretary intends to consolidate 
ODP and the Office of State and Local Coordination (SLGC) into a new 
office entitled the Office of State and Local Government Coordination 
and Preparedness (SLGCP). The purpose of this consolidation is to 
enhance overall coordination and to provide greater program 
integration, simplified application and award processes, and greater 
consistency in policy and program development.
    Question 10: How exactly does the ODP data inform the FEMA 
Capability Assessment for Readiness (CAR) process, as well as other 
EP&R programs? When will the current CAR be completed, and will the 
results of the CAR be provided to Congress?
    Answer: ODP's previous assessment effort was primarily oriented 
toward training, equipment, and exercises. CAR has attempted a holistic 
assessment of states' emergency management programs. In 2001, FEMA 
provided Congress the results of the 2000 State CAR. We are currently 
conducting a National Emergency Management Baseline--Capability 
Assurance Program (NEMB-CAP). Under the NEMB-CAP, FEMA is finding and 
sponsoring assessments of state-level emergency management capability 
against a common set of voluntary standards. All 56 state and state-
level jurisdictions are expected to participate in this program, slated 
for completion in fiscal year 2005. The results of those assessments 
will help FEMA, ODP, the Department of Homeland Security, and the 
states develop strategies to better target assistance to areas of 
greatest common need. An initial Progress Report was produced in 
November 2003, and we will continue to develop and produce progress 
reports every six months. Because these reports identify aggregate 
areas of weakness, and potential vulnerabilities, they are For Official 
Use Only.
    Question 11: Through the CAR, or other programs, how is DHS helping 
first responders assess their risks, capacity needs, and readiness? How 
is DHS ensuring that first responders (particularly state and local 
governments) are using a common method for assessing risks, determining 
needs, and measuring readiness? Finally, how is DHS providing 
information and intelligence to help them make these assessments?
    Answer: FEMA has provided two versions of its Local CAR, unabridged 
and abridged (e.g., for smaller communities without an extensive 
emergency management program), for states' use in assessing the 
emergency management capabilities of their local governments. Likewise, 
we have provided a version of CAR specifically for Tribal governments 
to use on a voluntary basis. We have developed a terrorism-specific 
supplement to the Local CAR as well. FEMA is also funding and 
sponsoring assessments of state-level emergency management capability 
against a common set of voluntary standards under our National 
Emergency Management Baseline-Capability Assessment Program. Finally, 
we are developing an interactive, web-based self-assessment tool for 
Federal, state, tribal, and local governments based on the National 
Incident Management System.
    Question 12: How will DHS know when state and local governments 
have done enough to prepare for terrorist attacks, natural disasters, 
and accidents?
    Answer: HSPD-8 ``establishes policies to strengthen the 
preparedness of the United States to prevent and respond to threatened 
or actual domestic terrorist attacks, major disasters, and other 
emergencies by requiring a national domestic all-hazards preparedness 
goal, establishing mechanisms for improved delivery of Federal 
preparedness assistance to Stat and local governments, and outlining 
actions to strengthen preparedness capabilities of Federal, State, and 
local entitie FEI and ODP are working closely on the implementation of 
these policies and the development of a National Preparedness Goal.
    Preparedness is an on-going effort. Even where local and state 
governments may reach a defined level of preparedness, they must 
grapple with personnel turnover, equipment maintenance, changes in 
organizations and resources that affect plans, new or revised policies, 
and so on. They also must continually demonstrate to themselves and 
others that, where they have achieved a standard, they continue to meet 
it.
    The National Incident Management System NIMS), published March 1, 
2004, by DHS, establishes the framework and requirements for effective, 
interoperable incident management at all levels of government. To 
facilitate and coordinate standards development in the areas of 
training, equipment, organization, and capability, as well as to 
measure and assure compliance with those standards, DHS is establishing 
a NIMS Integration Center. Progress is already underway. An initial 
version of a National Incident Management Capability Assessment Support 
Tool has been developed and will provide a mechanism for all 
jurisdictions to report (and for the Department to monitor and track) 
compliance with NIMS requirements.
    FEMA is working with the Science and Technology Directorate to 
identify existing standards for Emergency Management, Fire Services, 
Law Enforcement, and all first responders,which will be validated. This 
process will identify any standards that require revision or updating, 
as well as identify the areas where standards are missing and require 
priority action to produce the missing standards. The complete 
inventory of applicable standards will then provide the foundation of 
the capability assurance process that will measure the implementation 
of the standards.
    Assistance to Firefighters Grant Program
    Member Comment: Authorized in 2000, the F.I.R.E. Act directed the 
FEMA Director to make grants on a competitive basis directly to fire 
departments of a state for the purpose of enhancing the department's 
ability to protect the health and safety of the public as well as that 
of firefighting personnel facing fire and fire-related hazards. Under 
current law, the ``Response to Terrorism or Use of Weapons of Mass 
Destruction'' is only one authorized use of assistance to firefighter 
grant funds. The Administration's fiscal year 2004 request requires 
that all grant funds be used for, ``terrorism preparedness or dual-use 
activities, provided that these activities are aligned with state or 
local terrorism preparedness plans.''
    In response to questions from the Committee during the hearing 
regarding the requirement that all FIRE grant funds be aligned with 
terrorism preparedness planning, Under Secretary Brown stated, ``I 
would not characterize it in that fashion.''
    Question 13: Does the Administration's fiscal year 2004 budget 
request require that the use of FIRE Grant funds be aligned with state 
or local terrorism preparedness plans. If so, is this requirement 
consistent with the legislative intent of this program?
    Answer: The fiscal year 2005 budget request states that priority 
shall be given to fire grant applications enhancing terrorism 
preparedness. Currently, there is no legislative requirement to 
coordinate with state or local preparedness plans. Since the grants are 
competitive, requirements are viewed as elements that diminish the 
competitive structure. However, if such alignment were preferred, it 
could be reflected as a part of the competitive rating of applications. 
In spite of this, we emphasized the eligibility of terrorism 
preparedness initiatives in our guidance for the fiscal year 2004 Fire 
Grant program. Applications requesting equipment or training to prepare 
for terrorism events should be validated as being aligned with state 
terrorism preparedness plans by state representatives who are familiar 
with the plans.
    Question 14: What was the rationale for transferring the management 
and administration of this program, given the fact that USFA's 
stewardship of this program has been universally praised, particularly 
the program's peer-review process?
    Answer: In order to facilitate a ``one-stop shop'' approach to 
grants to the states, the Office for Domestic Preparedness has been 
named the lead office for financial assistance to first responders, and 
the fire grants are intended for some of the same customers. The peer 
review process will remain part of the fiscal year 2004 Fire Grant 
Program under ODP. Under the fiscal year 2004 Appropriation and the 
President's fiscal year 2005 budget request, fire grants will remain in 
the Office for Domestic Preparedness.
    Question 15: Can EP&R assure Congress that this program will 
continue to function efficiently and effectively--with grants 
distributed directly to local fire departments--should ODP or another 
DHS component assume responsibility for program management?
    Answer: FEMA will continue to work closely with ODP to support the 
programmatic efforts to administer these grants as intended by Congress 
and the Administration's budget request.
    Question 16: What are the plans and timeframes for getting this 
office fully operational? What priorities has DHS set for this office 
to improve coordination and collaboration with our state and local 
partners?
    Answer: The Office of State and Local Government Coordination 
(SLGC) was established by the Homeland Security Act of 2002 to serve as 
a single point-of-contact for facilitation and coordination of 
Departmental programs that impact state, local, territorial, and tribal 
governments. This office was operational as of March 24, 2003; however, 
it has grown and now has representatives from all four functional 
Directorates in DHS as well as law enforcement liaisons.
    Priorities for SLGC include: (1) facilitating the coordination of 
DHS-wide policies and programs that impact state, local, territorial, 
and tribal governments; (2) serving as the primary point-of-contact 
within DHS for exchanging information with state, local, territorial, 
and tribal homeland security personnel; (3) identifying homeland 
security- related activities, best practices. and processes that are 
most efficiently accomplished at the Federal, state, local or regional 
levels; and (4) utilizing this information to ensure that opportunities 
for improvement are provided to our state, territorial, tribal, and 
local counterparts.
    In a January 26, 2004, letter to the Speaker of the House of 
Representatives, Secretary Ridge stated his intent to consolidate the 
Office for Domestic Preparedness (ODP), which currently is within the 
Directorate for Border and Transportation Security, with SLGC, which 
reports directly to the Secretary. The Secretary stated further that he 
intended to assign the current Director of ODP to the position of 
Executive Director of this consolidated office, which will be entitled 
the Office of State and Local Government Coordination and Preparedness 
(SLGCP) and shall report directly to the Secretary.
    Role of EP&R and Office for State and Local Government Coordination
    Question 17: How will this office work with the EP&R Directorate 
and increase its outreach to state and local jurisdictions to get their 
input and buy-in for policies, measures, standards, etc.? What is the 
division of responsibility for state and local government coordination 
between the EP&R Directorate and the Office of State and Local 
Government Coordination?
    Answer: We have participated in the Office of State and Local 
Government Coordination's (OSLGC's) efforts to determine what 
assessment activities are taking place with local and state 
governments. We will continue to work with OSLGC and support efforts to 
satisfy common local and state customers of the Department's multi-
faceted activities. OSLGC is a staff office, and we are a line office 
dealing with local and state governments on a regular basis in 
executing our programs.
    Communications Equipment Standards
    Member Comment: The fiscal year 2003 Supplemental Appropriations 
Bill provided the EP&R Directorate with $54,750,000 for the Emergency 
Management Planning and Assistance account for interoperable 
communications. In his prepared testimony for the Con Under Secretary 
Brown indicated that the funds used for grants to local jurisdictions 
that will compete for demonstration projects that will explore uses of 
equipment and technologies to increase interoperability among the fire 
service, law enforcement, and emergency medical service communities. 
These demonstration projects will serve as models of interoperable 
solutions that can be shared throughout the nation.
    Question 18: When will EP&R select the jurisdictions that will 
conduct the demonstration projects? If the jurisdictions have already 
been selected, please provide the Committee with a list of those 
jurisdictions.
    Answer: On Thursday, September 25, 2003, Secretary Ridge announced 
the 17 communities that will receive a total of $79.6 million in funds 
for interoperable communications demonstration projects. The recipients 
of the fiscal year 2003 Interoperability Communication Grants include:
    Conway, AR ($2,082,385);
    Rehoboth Beach, DE ($2,406,284);
    St. Clair County, IL ($6,000,000);
    Woodbury County, IA ($5,995,822);
    Worcester County, MD ($5,629,013);
    Monroe County, MI ($6,000,000);
    Ramsey County, MN ($6,000,000);
    Independence, MO ($5,496,750);
    Lewis and Clark County, MT ($4,475,916);
    Grafton County, NH ($2,176,168);
    Erie County, NY ($6,000,000);
    Tulsa, OK ($846,263);
    Westmoreland County. PA ($5,964,973);
    Narragansett, RI ($3,041,942);
    Charlottesville/Albemarle County/UVA, VA ($6,000,000);
    Clallam County, WA ($5,765,100); and
    Harrison County, WV ($5,689,684).
    Question 19: When will the demonstration projects be completed, 
arid when will the findings of these projects be made available? Please 
provide a general overview of the types of information that will be 
included in final reports on the demonstration projects.
    Answer: Officially, the performance period for the grant program is 
12 months from the date of the award and will be closed out at the end 
of September 2004. In September 2004, the grantees will be required to 
conduct an evaluation to document the successes and impediments 
experienced by the grant recipients in implementing the demonstration 
projects. Grantees will be required to submit the evaluation to FEMA. 
The evaluations will help to export the lessons learned to other states 
and communities. The evaluation template will be developed in 
coordination with SAFECOM and AGILE and distributed by FEMA and COPS 
for conducting the final evaluation. SAFECOM, AGILE, and NIST will 
provide assistance for completion of the template.
    Standards and Personnel Costs for Elevated Threat Alerts
    Question 20: What guidance, if any, has DHS provided to Federal, 
state, and local responders with regard to the actions they should take 
or consider when the national threat level increases--for example, from 
yellow to orange? If there is guidance, is it the same across the 
nation, or does it vary by location--e.g., for major ports, sparsely 
populated areas, etc.?
    Answer: According to ODP, states and localities are utilizing 
Critical Infrastructure Protection grant funds to pay for some overtime 
costs, as well as other preparedness functions associated with 
elevations in the national threat level.
    In addition, the United States Fire Administration has developed 
and distributed a document, Fire and Emergency Services Preparedness 
Guide for the Homeland Security Advisory System, to assist fire, 
emergency medical services, and emergency management agencies with 
implementing the Homeland Security Advisory System (HSAS) into their 
operations. This preparedness document also provides guidance for 
agency response to changes in the HSAS threat level.
    Question 21: What other funding mechanisms is DHS considering to 
offset the costs incurred by state and local governments caused by 
elevations in the national threat level? Are state and local 
governments using the ODP Critical Infrastructure Protection grants 
solely to fund personnel and overtime costs?
    Answer: The Department of Homeland Security (the Department) 
recognizes the significant financial impact that periods of High 
(ORANGE) threat levels have had on state and local governments. To this 
end, the Department, through the Office for Domestic Preparedness 
(ODP), is providing support for states and localities to offset some of 
the costs associated with periods of heightened security.
    Through ODP's fiscal year 2003 State Homeland Security Grant 
Program (SHSGP), Part II, the Department provided $200 million for 
states to dedicate to ``Critical Infrastructure Protection.'' States 
could use these funds for purposes including: (1) public safety agency 
overtime costs; (2) contract security personnel costs; and (3) state-
ordered National Guard deployments required to augment security at 
critical infrastructure during the ORANGE threat alert level periods 
from February 7, 2003, through February 27, 2003; March 17, 2003, 
through April 16, 2003; May 20, 2003, through May 30, 2003; and 
December 21, 2003, through January 9, 2004. Reimbursement is available 
for costs incurred during those time periods only. However, states that 
did not expend all their allocated Critical Infrastructure Protection 
funds during those periods were allowed to retain the funds through the 
end of the award period for use in conjunction with future periods of 
heightened threat.
    Additionally, through ODP's fiscal year 2003 Urban Areas Security 
Initiative (UASI), Part II, 30 urban areas were provided $700 million 
to address the unique security requirements of large urban areas. Under 
UASI, Part II, grantees and sub grantees were eligible to use up to 25 
percent of the gross amount of their award to reimburse for operational 
expenses including: (1) public safety agency overtime costs; (2) 
contract security personnel costs; and (3) state-ordered National Guard 
deployments required to augment security at critical infrastructure 
during the above-mentioned four ORANGE threat alert level periods. 
Reimbursement is available for costs incurred during those time periods 
only.
    To determine the impact on states of heightened states of alert, 
ODP asked states to provide information on expenses incurred for 
protections of critical infrastructure protection during the most 
recent Orange threat alert level period (from December 21, 2003, 
through January 9, 2004). ODP provided a template to every state and 
received feedback from 25 states, which reported to have spent a total 
of $12,840,568 on overtime costs associated with the protection of 
critical infrastructure sites during that period. Of this total, a 
majority was spent on public safety officers' overtime costs.
    ODP has also opened the fiscal year 2004 UASI, which will provide 
$725 million to 50 urban areas and 25 selected transit systems, to 
allow for not more than 25 percent of the total grant award in the 
reimbursable categories noted above under SHSGP, Part II and UASI, Part 
II. States may provide reimbursement for such expenses incurred during 
the most recent Orange threat alert level period (from December 21, 
2003, through January 9, 2004). In addition, states may use up to 25 
percent of their Law Enforcement Terrorism Prevention Program (LETPP) 
portion of the fiscal year 2004 Homeland Security Grant Program (HSGP) 
for the same operational expenses noted above under SHSGP, Part II and 
UASI, Part II. Under the fiscal year 2004 HSGP, states were allocated 
$500 million for LETPP.
    Top Officials (TOPOFF) II Exercise
    Question 22: ODP led the Administration's efforts in managing the 
TOPOFF II exercise. Will ODP continue to manage this exercise series? 
What is EP&R's role--if any--in future terrorist exercise programs? 
Will EP&R lead the conduct of any exercises this year involving state 
and local governments? If so, please describe these exercises.
    Answer: We anticipate that ODP will continue to manage the TOPOFF 
series as part of its responsibility to manage the National Exercise 
Program. Also, we anticipate that FEMA, as the DHS focalpoint for 
response and recovery efforts, will continue to be a major player in 
terrorist exercises--as it was this year, for example, in Northern 
Command's UNIFIED DEFENSE 04. FEMA's regions collaborate extensively 
with state and local governments to coordinate participation in 
national-level exercises. FEMA regions also work with state and local 
governments on other exercises. Finally, FEMA's Radiological Emergency 
Preparedness Program and Chemical Stockpile Emergency Preparedness 
Program have substantial exercise components as part of meeting FEMA's 
responsibilities for evaluating offsite preparedness around nuclear 
power plants and chemical stockpile locations.
    Question 23: If a terrorist incident occurred tomorrow, what would 
be the organizational structure for response coordination? Who in DES 
makes the final decisions regarding the Federal response, and are all 
participating agencies cognizant of the Federal command and control 
structure?
    Answer: According to both the National Incident Management System 
(NIMS) and the draft National Response Plan (NRP), management of 
incidents is the responsibility of the local government; state and 
Federal entities support the local response. FEMA's United States Fire 
Administration, in addition to providing incident management training 
for all first responder agencies, is developing Incident Management 
Teams (IMTs) at the local, regional and state levels. These IMTs would 
be trained in ICS, NIMS, and the NRP, and would provide a smooth 
interface with Federal resources.
    Deployment of Federal disaster response assets is the 
responsibility of the Secretary, DES, and this authority has been 
delegated to the Under Secretary for EPR. All decisions on deploying 
Federal resources are closely coordinated between the EPR Under 
Secretary and the DHS Secretary's office. Under HSPD-5, the Attorney 
General coordinates deployment of law enforcement assets to respond to 
the site of a terrorist incident.
    The mission of FEMA is to prepare for, respond to, and recover from 
disasters of all kinds, regardless of whether caused by terrorist 
attacks, natural disasters, outbreaks, or technological accidents.
    The structure of the Response Division of FEMA is based on the 
Incident Management System so that it is aligned to meet the needs of 
state and local responders. In addition, it is designed to meet the 
President's directive in Homeland Security Presidential Directive 
(HSPD)-5, which called for a National Incident Management System. The 
Response Division includes and manages many national response assets 
formerly maintained within other Federal agencies. These include the 
National Disaster Medical System, the Domestic Emergency Support Team, 
the Strategic National Stockpile, and the Nuclear Incident Response 
Team.
    This consolidation of national response assets allows the Federal 
Government not only to continue to provide the same level of services 
to which the American people became accustomed during emergencies and 
disasters, but it also enhances the ability of DHS to maximize Federal 
resources, streamline delivery processes, and focus programs and assets 
to state and local needs. The basic disaster response process familiar 
to the 26 Federal agencies that are signatory to the Federal Response 
Plan continues to form the foundation of disaster response.
    Question 24: What are the roles and responsibilities of the DHS 
Principal Federal Official versus those of the FEMA/EP&R Federal 
Coordinating Officer?
    Answer: Under Homeland Security Presidential Directive (HSPD-5), 
the Secretary of Homeland Security is the principal Federal official 
for domestic incident management. The Federal Coordinating Officer is 
responsible for coordinating all disaster relief activities. Pursuant 
to the Homeland Security Act of 2002, the Secretary is responsible for 
coordinating Federal operations within the United States to prepare 
for, respond to, and recover from terrorist attacks, major disasters, 
and other emergencies. The Secretary coordinates the Federal 
Government's resources utilized in response to or recovery from 
terrorist attacks, major disasters, or other emergencies if and when 
any one of the following four conditions applies: (1) a Federal 
department or agency acting under its own authority has requested the 
assistance of the Secretary; (2) the resources of state and local 
authorities are overwhelmed and Federal assistance has been requested 
by the appropriate state and local authorities; (3) more than one 
Federal department or agency has become substantially involved in 
responding to the incident; or (4) the Secretary has been directed to 
assume responsibility for managing the domestic incident by the 
President.
    The Secretary of Homeland Security promulgated the Initial National 
Response Plan by memorandum dated September 30, 2003. The Initial NRP 
provides interim guidance on Federal coordinating structures for 
domestic incident management until the full NRP becomes effective in 
approximately June 2004, and keeps the current family of Federal 
incident management and emergency response plans in effect during the 
interim period, except as specifically modified by the Initial NRP.
    Under the Initial NRP, when an incident meeting one of the four 
conditions listed above occurs, or in anticipation of an incident 
meeting those conditions, the Secretary may designate a Federal officer 
to serve as the Principal Federal Official (PFO) to represent the 
Secretary locally and oversee and coordinate Federal activities 
relevant to the incident. The roles and responsibilities of the PFO 
include the following:
        a. Representing the Secretary as the senior Federal official on 
        scene to enable the Secretary to carry out his role as the 
        principal Federal official for domestic incident management;
        b. Ensuring overall coordination of domestic incident 
        management activities and resource allocation on scene, 
        ensuring seamless integration of Federal incident management 
        activities in support of state, local, and tribal requirements;
        c. Providing strategic guidance to Federal entities and 
        facilitating interagency conflict resolution as necessary to 
        enable timely Federal assistance to state, local, and tribal 
        authorities;
        d. Serving as primary, although not exclusive, point for 
        Federal interface,with state, local, and tribal government 
        officials, the media, and the private sector for incident 
        management;
        e. Providing real-time incident information, through the 
        support of the Federal incident management structure on scene, 
        to the Secretary, as required;
        f. Coordinating the overall Federal public communications 
        strategy at the state, local, and tribal levels and clearing 
        Federal interagency communications to the public regarding the 
        incident.
    Using the protocols identified in existing plans, to include the 
Federal Response Plan, the PFO will oversee the coordination of the 
deployment and application of Federal assets and resources in support 
of the on-scene conimander. The PFO will do this in coordination with 
other Federal officials identified in existing plans, such as the 
Federal Coordinating Officer (FCO) and the Federal Bureau of 
Investigation Special Agent in Charge. [Source: Interim NRP, September 
30, 2003]
    The Stafford Act provides for the appointment of a Federal 
Coordinating Officer (FCO) by the President immediately upon his 
declaration of a major disaster or emergency (See 42 U.S.C. Sec. 5143). 
The FCO, within the affected area, makes an initial appraisal of the 
types of relief most urgently needed; establishes field offices, as 
(s)he deems necessary and as are authorized by the President; 
coordinates the administration of relief, including activities of the 
state and local governments, and other relief or disaster assistance 
organizations, which agree to operate under his advice or direction; 
and takes such other action (s)he may deem necessary to assist local 
citizens and public officials in promptly obtaining the assistance to 
which they are entitled, including making certain that all Federal 
agencies carry out their appropriate disaster assistance roles. We are 
continuing to work on the inter-relationships between these two roles 
to assure that they are fully complementary as we work to finalize the 
National Response Plan.
    Question 25: What is the role and responsibilities of the DHS 
Homeland Security Center and Crisis Action Team versus those of the 
FEMA/EP&R HQ Operations Center and Emergency Support Team? Which 
organization should state and local governments be working with during 
disaster response?
    Answer: The Initial NRP established the National Homeland Security 
Operations Center (HSOC) and the Interagency Incident Management Group 
(11MG). The HSOC, located at DHS Headquarters, is the primary national-
level hub for operational communications and information pertaining to 
domestic incident management. The HSOC integrates and provides overall 
steady state threat monitoring and situational awareness for domestic 
incident management on a 24/7 basis. The 11MG facilitates incident 
specific national-level domestic incident management and coordination 
and replaces the Crisis Action Team. [ details on the HSOC and IIMG are 
contained in the Interim NRP.] The HSOC and 11MG coordinate and analyze 
information from all of the different DHS components, including FEMA 
and the Emergency Support Team (EST), to formulate and provide high-
level, strategic recommendations to the Secretary. The FEMA EST manages 
the actual interagency operational disaster response activities for DHS 
to respond to the needs of state and local governments. It maintains 
constant contact and coordination with the DHS IIMG and HSOC. The 
procedures for interaction between the state/local governments and the 
IIMG have not been developed, but will be an interagency collaboration 
that will be published by the Secretary of Homeland Security in a 
separate document.
    In the meantime, state and local governments should continue to 
work through the EST to address disaster response needs.
    Question 26: As of today, who makes deployment decisions for the 
specialized public health assets utilized in response to disasters, 
such as the strategic national stockpile and National Disaster Medical 
System Assets. In the event of a disaster, who approves the use of 
these resources, EP&R, Secretary Ridge, or HHS Secretary Thompson?
    Answer: Activation of the National Disaster Medical System (NDMS) 
is the responsibility of the Secretary of DHS. This authority has been 
delegated to the Under Secretary for EPR Directorate. DHS is the owner 
of the Strategic National Stockpile (SNS). However, the Memorandum of 
Agreement between DHS and HHS has been amended to allow HHS to deploy 
SNS when either the Secretary of HHS or the Secretary of DHS determines 
it necessary to do so. DHS will also coordinate with the Secretary of 
HHS in any actual deployment of the SNS. Also, the Secretary of HHS has 
authority to request that DHS activate the NDMS when he is leading an 
ESF-8 response.
    In the fiscal year 2005 budget proposal and the proposed Bioshield 
legislation, the Administration has proposed to return principal 
responsibility for the SNS to HHS. The Secretaries have also entered 
(are working to finalize?) into an MOA that outlines each agency's role 
with regard to SNS responsibilities.
    Question 27: How does DHS plan to improve coordination of these 
assets, and is new legislation required to clarify the funding 
mechanisms necessary to access and deploy response resources?
    Answer: Substantial effort is being made to consolidate and 
integrate all of the different disaster response programs, teams, and 
assets in DHS. FEMA is designing new approaches and implementing new 
efficiencies that will result in a more unified, integrated, and 
comprehensive approach to all-hazards disaster response. The improved 
coordination of all response programs and efforts to introduce a new 
response culture will make DHS better able to elevate operational 
disaster response capabilities to a whole new level of proficiency, one 
that will further the principles of the National Response Plan and 
National Incident Management System and better serve the American 
people.
    All of the disaster response operations, programs, and activities 
are being reviewed to make sure that they are complementary and work 
together to form a cohesive national response system that eliminates 
duplication and inefficiencies. Related to this, measures are planned 
that will help to reduce the time it takes for disaster response teams 
to get to a disaster site and the time it takes to deliver needed 
disaster supplies. In addition, greater emphasis will be placed on 
catastrophic disaster planning, including planning for responding to 
acts of terrorism.
    Furthermore, FEMA is in the process of assessing whether any 
legislative or regulatory changes would facilitate the implementation 
of its new statutory responsibilities. We will continue to keep 
Congress informed of any needed changes, as they develop.
    Threat Analysis
    Question 28: Has EP&R worked with other DHS organizations, such as 
the IAIP Directorate, to define the types and format of threat 
information EP&R will require to better prepare states and localities 
for acts of terrorism and other hazards?
    Answer: For executing its responsibilities under PDD-39 and the 
CONPLAN, FEMA developed a template for the information the consequence 
management community would need from intelligence and law enforcement 
to develop a response to a terrorist threat. Essentially, this involves 
what, where, when, and how, as well as an estimate of the intelligence 
and law enforcement communities' confidence in the information.
    In an environment with multiple terrorist threats and 
vulnerabilities, there must be some means of prioritizing among them. 
The terrorist threat, while the primary concern of the Department, must 
also be balanced against other risks and hazards facing states and 
locals. FEMA's Mitigation Division maintains substantial information on 
natural hazards vulnerabilities, working in partnership with other 
agencies.
    FEMA has coordinated closely with ODP in the development of its 
fiscal year 2003 State Domestic Preparedness Program assessment 
documentation and has participated in the regional workshops. FEMA is 
also working closely with UDP on the development of the National 
Preparedness Goal under HSPD-8.
    Question 29: When does EP&R expect to receive sufficient threat 
information from other DHS components, such as the IAIP Directorate, to 
begin tailoring grant programs to the areas of highest threats and 
vulnerabilities?
    Answer: DHS has decided to consolidate most grant programs in the 
Office for Domestic Preparedness (ODP), which will need to work with 
1AIP and the Office for State and Local Government Coordination to 
determine how to tailor the grants to the highest risk and 
vulnerabilities in the nation.
    Chemical Attack Preparedness
    Member Comment: On June 4, 2003, The Washington Post reported that 
the Upited States remains highly vulnerable to a chemical terrorist 
attack (``Readiness for Chemical Attack Criticized,'' page All), in 
large part because the Department of Health and Human Services and the 
Environmental Protection Agency still have not decided which agency 
would spearhead chemical testing. The article further stated that a 
spokesman at the Department of Homeland Security said he was unable to 
answer questions regarding the threat of chemical agents and chemical 
testing capabilities in the country.
    Question 30: What organization in DHS is working with state and 
local governments to ensure that their response plans include 
procedures and identify laboratory facilities for chemical agent 
testing? What standards is DHS using to measure state and local 
preparedness for terrorist attacks using (or accidental releases of) 
chemical agents?
    Answer: DHS, through the Information Analysis and Infrastructure 
Protection Directorate and the other components of the Department, has 
asked jurisdictions to prepare for nerve agents, blister agents, 
choking agents, vomiting agents, incapacitants, and tear agents by 
utilizing a cache of equipment and pharmaceuticals purchased through 
MMRS funds to treat up to 1,000 victims. Jurisdictions are required to 
include planning for receipt and distribution of the Strategic National 
Stockpile. The response plan to manage the health consequences of an 
incident resulting from the use of CBRNE agents will include components 
to detect and identify the weapon material or agent, extract victims, 
administer the appropriate antidote, decontaminate victims and triage 
them, and provide primary care prior to their transportation to a 
definitive medical care facility. The plan calls for emergency medical 
transportation of patients to hospitals or to pre offsite treatment 
facilities, as well as for emergency and inpatient services in 
hospitals that have the capacity and capability to provide the 
definitive medical care required, including the management of patients 
without prior field treatment/screening or decontamination.
    Furthermore, through HSPD-8, additional goals and standards will be 
developed in conjunction with the implementation of the National 
Preparedness Goal.
    Question 31: Are you aware of this dispute between HHS and EPA, and 
is DHS working to resolve this issue? In the event of a chemical 
attack, what agency would DHS utilize to provide analysis of the 
agent(s)?
    Answer: In the event of a chemical attack by terrorists, DHS/FEMA 
would use the current Federal Response Plan (National Response Plan) 
organizational structure to assign the task of analyzing chemical 
agents. DHS would consult HHS and EPA, as the respective leads for ESF-
8 and-10, on the best course of action. As the overall coordinator for 
terrorism responses, DHS would facilitate technical disagreements 
raised by the two agencies. EPA is the Primary Agency for ESF-10 
Hazardous Materials. Thus FEMA could issue a mission assignment to EPA 
to provide an analysis of the agent(s) in question. EPA, as Primary 
Agency for ESF-10, would work with other ESF-10-Support Agencies to 
accomplish the task, including HHS, DHS, U.S. Coast Guard, Department 
of Defense (DoD), and others. The Federal Bureau of Investigation (FBI) 
would conduct the criminal investigation aspect of the Federal 
response, and thus could directly task another Federal agency to 
identify and assess a chemical agent.
    To ensure that the country has adequate chemical analysis 
capability for clinical and environmental samples during a chemical 
attack, DHS's Science and Technology Directorate is leading an inter-
agency working group with primary participation from HHS, EPA, and the 
FBI. During initial meetings, HHS and EPA identified problems in the 
ESF-10 coordination, which was highlighted during the past events. EPA 
has the capacity for the analysis of Toxic Industrial Chemicals but not 
chemical warfare agents in environmental samples, which need special 
handling precautions and facilities. HHS does have capacity to analyze 
a limited volume of clinical samples during an attack. Therefore, these 
agencies along with others would rely on the same few select contract 
and DoD laboratories to provide chemical analysis in the event a 
warfare agent is used The FBI also utilizes these laboratories for 
forensic analysis. If the attack remains limited in scope, then these 
laboratories could process the number of samples generated for human 
health and environmental risk assessment along with needed forensics 
capability.
    The inter-agency working group is drafting a coordination committee 
plan for sampling, analysis and data reduction during a chemical attack 
to ensure that the proper number and types of samples are collected, 
analyzed, and reported for all agencies participating in the response. 
DHS would chair this committee during a chemical attack with input from 
top- level subject matter experts from each respective agency. The 
group is also conducting a survey of the entire Federal, including 
contract laboratory, capability that could be used during an attack to 
determine how much additional capability would be needed for large 
chemical attacks. These measures will determine which laboratories can 
be used and how much additional laboratory capability needs to be 
established for the preparation of a chemical attack.
    Disaster Relief Fund
    Question 32: What is the current funding balance of the Disaster 
Relief Fund? Please provide the Committee with a detailed accounting of 
all fiscal year 2003 Disaster Relief Fund obligations, to include 
specific amounts, dates, and purposes for which the funds were 
obligated.
    Answer: As of March 17, 2004, the Disaster Relief Fund (DRF) 
unobligated balance was $1,889,237,000. Enclosed is an Excel chart that 
identifies fiscal year 2003 DRF obligations for declarations for major 
disasters, emergencies, and fire management assistance (citing the 
declaration dates); DRF funding for the repetitive loss and map 
modernizations programs; Office of Inspector General reimbursements; 
and FEMA dministrative and surge activities. DRF funds are obligated as 
needed throughout the fiscal year.
        [This chart is maintained in the Committee Files]
    Question 33: Given historical trends and your own analysis, do you 
have enough unobligated funds to respond to and recover from major 
disasters and emergencies for the remainder of fiscal year 2003, or 
will the administration request a supplemental appropriation? If a 
supplemental is requested, when could that request be expected?
    Answer: Based on the funding needs for fiscal year 2003, the 
Administration, at the request of the Department of Homeland Security, 
requested an fiscal year 2003 supplemental for the DRF. Congress 
appropriated supplemental funding in the amount of $983,600,000 on 
August 1, 2003. In addition, Congress approved a supplemental for 
$441,700,000 signed on September 30, 2003.
    Emergency Management Performance Grant (EMPG) Program
    Member Comment: The National Emergency Management Association 
(NEMA) describes EMPG grants as the backbone of the nation's emergency 
management system, because it is the only source of direct Federal 
funding to state and local governments for emergency management 
capacity-building. In fiscal year 2003, EMPG received a $29.9 million 
increase--for a total of $165 million--after over ten years of 
straight-lined funding. NEMA believes continued funding increases are 
necessary to meet increased state and local commitments, because 
funding has not kept pace with inflation or with increasing demand. The 
increased flexibility of EMPG is offset by overall program funding 
shortfalls, estimated in a 2002 NEMA study to be $117.8 million.
    Question 34: Both the International Association of Emergency 
Managers (IAEM), representing local governments, and NEMA, representing 
state governments, have identified EMPG needs totaling approximately 
$300 million per fiscal year. What analyses, if any, has DHS/EP&R 
conducted to determine the needs of the state and local emergency 
management community?
    Answer: To help determine and target assistance to areas of 
greatest common need, FEMA is funding and sponsoring assessments of 
state-level emergency management capability against a common set of 
voluntary standards. All 56 state and state-level jurisdictions are 
expected to participate in this program, slated for completion in 
fiscal year 2005. FEMA also publishes and distributes Local and Tribal 
Capacity Assessment for Readiness (CAR) self-assessment tools that 
local jurisdictions and tribes can use, on a voluntary basis, to 
determine their areas of need within an emergency management context.
    Question 35: How does DHS propose that states and localities plan, 
train, and exercise for--and respond to--acts of terrorism without 
sufficient, experienced professional staff?
    Answer: The Administration has proposed that it is the 
responsibility of states and localities to provide funding for staff. 
The Federal Government's responsibilities lie more in providing 
guidance and resources for planning, training, and exercises.
    Homeland Security Presidential Directive-5 (HSPD-5)/Management of 
Domestic Incidents. National Response Plan
    Member Comment: Under the Homeland Security Act of 2002, EP&R is 
responsible for ``consolidating existing Federal Government emergency 
response plans into a single, coordinated national response plan.'' 
This national response plan (NRP) effort is described by HSPD-5, 
``Management of Domestic Incidents.'' According to a June 3, 2003, DHS 
briefing for state and local association representatives, EP&R is not 
managing the plan revision process. This process is being managed by a 
DHS task force, headed by Admiral Loy (the Administrator of the 
Transportation Security Administration), where EP&R only provides input 
to the process.
    Question 36: Why is the development of the National Response Plan 
being managed by a Task Force, headed by the TSA Administrator? What 
was DHS's rationale for assigning this responsibility to another compon 
of the Department rather than EP&R?
    Answer: The development of the NRP is being led by a Special 
Assistant to Secretary Ridge. The decision was made to place the 
leadership of the effort in the Secretary's immediate office to give it 
the appropriate level of attention, visibility and direct access to the 
Secretary. This decision reflects the criticality of the NRP 
development effort. The NRP core writing team includes cross-component 
representation within DHS, to include EPR, BTS, USCG, S&L Coordination 
Office, and ODP. The cross-component representation is integral to the 
broadened scope of the NRP document to include a full spectrum of 
incident management domains: prevention, preparedness, response, and 
recovery. The NRP builds upon the best practices of existing Federal 
plans, consolidating them into a single document. DHS EPR is fully 
engaged in the development of this very important effort.
    Question 37: How are state and local governments involved in the 
National Response Plan development process? How do EP&R and other DHS 
organizations intend to use the NRP to integrate into state and local 
response systems?
    Answer: A conference was convened the week of August 11, 2003, to 
solicit additional comments and input from Federal, state, and local 
officials to help with the further development of the NRP and the 
National Incident Management System (NIMS). Representatives from 12 
Federal agencies, the International Association for Emergency Managers, 
and National Emergency Management Association, as well as other 
representatives from the fire, police, and emergency management 
communities attended the conference. A similar conference to solicit 
input on NIMS was convened the week of November 17, 2003.
    The collective input and guidance from all of the homeland security 
partners--state, territorial, local, tribal and Federal--has been and 
will continue to be vital to the development of an effective and 
comprehensive NRP and NIMS. [Source: Secretary Ridge's memo 
promulgating the Initial NRP, September 30, 2003]
    Additionally, FEMA's United States Fire Administration, in addition 
to providing incident management training (including training on the 
NIMS and the NRP) for all first responder agencies, is developing 
Incident Management Teams (IMT5) at the local, regional and state 
levels. These IMTs would be trained in ICS, NIMS, and the NRP, and 
would provide a smooth interface with Federal resources under the NRIP.
    Comment: In his May 20 and 22 prepared testimony before the 
Committee, Secretary Ridge stated, ``To improve on-site management of 
Federal assets in the immediate aftermath of an incident, EP&R 
initiated plans for the rapid deployment of DHS Incident Management 
Teams.'' He further testified that, ``To significantly strengthen DHS 
emergency response capabilities, EP&R began incorporating Domestic 
Emergency Support Teams, Nuclear Incident Response Teams, the National 
Disaster M and the Strategic National Stockpile into its planning and 
response capabilities.''
    Question 38: Which DHS component organization, and associated 
budget account, is funding the NRP and National Incident Management 
System (NIMS) planning processes? What are the costs to date for this 
program, and what are the total expected costs for fiscal year 2003 and 
beyond?
    Answer: To date, costs directly associated with the NIMS planning 
process have been less than $1 million. This was funded from DHS's 
Departmental Operations funding. Immediate future planning costs are 
expected to be less than another $750,000. The source of this funding 
has not been determined. Costs do not include costs for government 
employee time spent on the project.
    Question 39: Both of these initiatives are characterized as being 
the ``planning'' stage. When will the Incident Management Teams be 
fully operational, and what DHS component agencies (and other Federal 
agencies) will be included on the Incident Management Teams?
    Answer: The Incident Management Team (IMT) concept involves 
eventually standing up four fully functional, self contained, rapid 
deployment teams that would consist of 10-12 members each. The IMT 
would form the core on-scene management component of the Federal 
disaster response capability interfacing with the state/local Incident 
Commander. Various options on where these teams will be placed, who 
will be assigned to the teams, and how they will be used are still 
under development. The JMTs have not been fielded yet but are an 
important aspect of FEMA's implementation of Homeland Security 
Presidential Directive (HSPD)-5. Plans are to staff, train, and equip 
the teams as resources permit over the next year.
    Question 40: Is the planning for Incident Management Teams being 
coordinated with the development of the National Response Plan, and if 
so, how is it being coordinated? Similarly, when will all of the DHS's 
response resources be fully incorporated into the National Response 
Plan?
    Answer: In accordance with HSPD-5 concerning management of domestic 
incidents, DHS has initiated the development of a National Response 
Plan (NRP) that integrates Federal domestic prevention, preparedness, 
response, and recovery plans into one all-discipline, all-hazards plan, 
including catastrophic incidents. The fully developed NRP will set 
forth the structures and mechanisms for providing national-level policy 
and operational direction to support state and local incident managers, 
and for exercising direct Federal authorities and responsibilities.
    Currently the Department has a full range of response resources, to 
support and supplement state, local, voluntary, and private response 
capabilities that can be activated through the existing Interim 
National Response Plan. Some of these include:
        <bullet> Strategic National Stockpile
        <bullet> Mobile Emergency Response Support communications, 
        teams, and equipment
        <bullet> Emergency Response Teams
        <bullet> Nuclear Incident Response Teams
        <bullet> Urban Search and Rescue Task Forces
        <bullet> National Disaster Medical System
        <bullet> Logistics Centers
    Additional resources would be requested from other Federal agencies 
(e.g., Environmental Protection Agency, Department of Transportation, 
Federal Protective Service, and Department of Defense), as required.
    The current Fed Response Plan remains functional, as modified by 
the Initial NRP. All DHS Federal response assets will be integrated 
under the NRP once it is finalized. To optimize use of all available 
resources and to ensure consistent and timely allocation, the 
Department will work closely with the affected states in identifying 
the greatest needs and most effective strategies for resource 
allocation. Efforts will be made to facilitate the use of interstate 
mutual aid, taking advantage of all available resources. When requests 
exceed available Federal resources, the interagency Catastrophic 
Disaster Response Group will be convened to prioritize resource 
allocations to meet critical needs.
    By consolidating response plans for various types of incidents into 
one coordinated and consolidated NRP, the Department will be able to 
provide a streamlined approach to incident management for the state and 
local responders.
    The Incident Management Teams, now named the Federal Initial 
Response Support Team (FIRST) by the NRP, will be fully incorporated 
into the incident command structure of the NRP/NIMS. These teams will 
act as the core, field-level response for major disasters, emergencies 
or acts of terrorism.
    Citizen Preparedness, Citizen Corps, and ``Ready.GOV''
    Member Comment: In his May 20 and 22 prepared testimony before the 
Committee, Secretary Ridge stated, ``Citizen Corps signed a partnership 
with the U.S. Junior Chamber (Jaycees) to raise public awareness about 
emergency preparedness, first aid, disaster response training and 
volunteer service. Citizen Corps initiated a partnership with the 
National Volunteer Fire Council (NVFC) to work together to raise public 
awareness about emergency preparedness, fire hazards, volunteer service 
programs and the development of fire safety training. Citizen Corps has 
added 15 additional states and territories and 266 local governments to 
the Citizen Corps Council roster. This brings the total of Citizen 
Corps Councils to 43 and 524 respectively.''
    Question 41: When will the Jaycees and the NVFC public awareness 
campaigns be completed, and how will they be implemented?
    Answer: The Jaycees and the NVFC public awareness campaigns are 
ongoing, and they are implemented through the many activities and 
marketing tools available to them. The Jaycees and the NVFC are 2 of 12 
Affiliate organizations that are part of Citizen Corps through the 
National Affiliate program.
    Citizen Corps is a national initiative that reaches out to four 
main sectors to create a community-based movement to raise public 
awareness, provide preparedness training, and foster volunteer 
opportunities in support of the local first responders. The four main 
sectors are:
        (1) The National Citizen Corps Council. These are national 
        organizations that advance the mission of first responder-
        citizen preparedness. Each of the Citizen Corps charter 
        partners (i.e., FEMA, Department of Justice, and the Department 
        of Health and Human Services) works with its respective 
        national groups to promote the Citizen Corps mission.
        (2) National Affiliates. These are national not-for-profit 
        organizations that provide resources and materials for public 
        education or training, offer volunteer service opportunities, 
        and represent volunteers with an interest in homeland security.
        (3) Other government organizations. These, too, are part of the 
        National Affiliates, and they focus on bringing other 
        government resources into the mix.
        (4) Private partnerships. These are corporations and other 
        private sector entities that are seeking ways to support state- 
        or community-level Citizen Corps efforts.
    By creating networks and partnerships with each of these major 
groups, Citizen Corps seeks to prepare for all hazards including crime, 
public health issues, and other medical emergencies. To date, 50 
governors of the 56 states and territories have formalized statewide 
Citizen Corps Councils and more than 700 local governments have formed 
Councils at either the city, county, or regional level. Approximately 
75 new councils are being formed each month.
    In addition to the Jaycees and the NVFC, other Affiliates are: 
American Safety & Health Institute, Civil Air Patrol, Department of 
Education, Environmental Protection Agency, National Crime Prevention 
Council, National Oceanic and Atmospheric Administration, Veterans of 
Foreign Wars, the National Fire Protection Association, the Save A Life 
Foundation, the National Voluntary Organizations Active in Disaster, 
the Points of Light Foundation, the National Safety Council, the 
American Radio Relay League, and the American Red Cross. Since these 
groups have strong local community presence, they become part of 
Citizen Corps Councils and promote Citizen Corps programs such as 
Volunteers in Police Service, Medical Reserve Corps, Community 
Emergency Response Training, Neighborhood Watch, and others.
    Question 42: What are the goals of these campaigns, and how will 
their success be measured?
    Answer: Listed below are the goals of the Agreements signed by both 
organizations.
    Together DHS and the Jaycees agree to work in collaborative 
partnership to:
    <bullet> Raise public awareness about appropriate actions to take 
regarding emergency preparedness, first aid and disaster response 
training, and volunteer service
    <bullet> Promote the formation of local Citizen Corps Councils 
through local Jaycee chapter participation and assist these Councils 
with implementing the programs and practices associated with Citizen 
Corps
    <bullet> Provide volunteer service opportunities that support first 
responders, disaster relief organizations, and community safety efforts
    Publicly acknowledge the affiliation of Citizen Corps and the 
Jaycees, which may include website links, co-logos on publications, and 
references in printed materials, including articles and news releases
    <bullet> Coordinate their respective activities to further their 
shared mission
    <bullet> Keep each other informed of activities conducted in 
support of Citizen Corps and provide an annual report summarizing those 
activities
    Together DHS and the NVFC agree to work in collaborative 
partnership to:
    <bullet> Raise public awareness about fire hazards and actions that 
can reduce vulnerability through the national, state, and local Citizen 
Corps Councils
    <bullet> Encourage communities to further develop fire safety 
training, volunteer service programs, and education initiatives with 
support from local Citizen Corps Councils;
    <bullet> Publicly acknowledge the affiliation of Citizen Corps and 
the NVFC, which may include website links, co-logos on publications, 
and references in printed materials;
    <bullet> Coordinate their respective activities at a level that 
furthers their shared mission; and
    <bullet> Keep each other informed of activities conducted in 
support of Citizen Corps and to provide an annual report summarizing 
those activities.
    Examples of how the Jaycees are involved include the following:
    In May 2003, many of the Jaycees State Presidents visited with 
members of Congress. They offered to coordinate Town Hall meetings that 
would focus on homeland security, preparedness, and Citizen Corps.
    Recently, in Boone County, Kentucky, a Citizen Corps Council was 
formed after the local Jaycees chapter initially approached the 
county's Emergency Management office about starting the Council.
    The Jaycees coordinated the ?Volunteer Orientation? that was 
featured on national TV affiliates and that recruited more than 150 
people for the various Citizen Corps programs.
    The Jaycees plan to focus on working with local government leaders 
to start or sustain Councils.
    The NVFC, representing the nation's volunteer fire, EMS, and rescue 
personnel, has launched a nationwide recruitment campaign in an effort 
to boost the ranks in volunteer fire service. The 1-800-FIRE-LINE is a 
toll free number that links interested citizens with emergency 
opportunities in their community. Publicity materials have also been 
developed. Schools and libraries can receive a video about 
opportunities and the 1-800-FIRE-LINE program.
    Question 43: How much has the ``Get Ready'' and the ``Ready.GOV'' 
public relations campaign cost the Department and to what effect?
    Answer: The campaign has been made possible through a $3 million 
grant from the Alfred P. Sloan Foundation to the Ad Council. DHS spent 
approximately $150,000 on printing a trifold brochure in support of the 
campaign.
    The campaign has had the most successful launch in Ad Council 
history. The website has received 1.5 billion hits and 17 million 
unique visitors. Approximately 2.7 million brochures have been 
downloaded from the website and an additional 144,000 brochures have 
been requested through the campaign's toll-free number. The Ad Council 
estimates that roughly 113 million people have heard or read about the 
Ready Campaign through public relations outreach. Donated media to the 
Campaign is estimated to be valued at $100 million.
    A Spanish outreach campaign, also funded through the Sloan 
Foundation, will launch iif December 2003, though the Spanish website 
and Spanish brochure will be available sooner.
    Question 44: How exactly has Citizen Corps enhanced the 
preparedness of state and local governments: What activities are being 
executed by Citizen Corps Councils, and how are these activities 
enhancing the programs that fall under the Citizen Corps umbrella?
    Answer: The Citizen Corps mission is to have every American 
participate in homeland security through community-based activities in 
preparedness, training, and volunteer support to first responders. As 
of August 20, 2003, a total of 50 states and territories have 
formalized statewide Citizen Corps Councils, and more than 700 local 
Citizen Corps Councils have been formed. Citizen Corps Councils help 
drive local citizen participation by coordinating Citizen Corps 
Programs, developing community action plans, assessing possible 
threats, and identifying local resources. The four Federal programs 
under the Citizen Corps umbrella include FEMA's Community Emergency 
Response Team Program, HHS' Medical Reserve Corps Program, DOJ's 
Neighborhood Watch Program, and the Volunteers in Policy Service 
program.
    Citizen Corps has 16 Affiliate partnerships, Citizen Corps 
Affiliate Programs, and Organizations offer communities resources for 
public education, outreach, and training; represent volunteers 
interested in helping to make their communities safer; or offer 
volunteer service opportunities to support first responders, disaster 
relief activities, and community safety efforts. Citizen Corps 
Affiliates include the:
    <bullet> American Radio Relay League
    <bullet> American Red Cross
    <bullet> American Safety & Health Institute
    <bullet> Civil Air Patrol
    <bullet> Department of Education's Office of Safe and Drug Free 
Schools
    <bullet> Environmental Protection Agency
    <bullet> National Crime Prevention Council
    <bullet> National Fire Protection Association
    <bullet> National Oceanic and Atmospheric Administration
    <bullet> Natiom
    <bullet> National Volunteer Fire Council
    <bullet> National Voluntary Organizations Active in Disaster
    <bullet> Points of Light Foundation and the Volunteer Center 
National Network
    <bullet> Save A Life Foundation
    <bullet> United States Junior Chamber (Jaycees)
    <bullet> Veterans of Foreign Wars
    Following are some of the activities that State and local councils 
have conducted:
    Response to Emergencies:
    <bullet> Washington State Community Emergency Response Teams (CERT) 
were called out to assist in sandbagging during unexpected flash 
floods.
    <bullet> The Republic, Missouri, Emergency Management Agency 911 
crew, consisting of teenagers, assisted with tornado damage in an 
adjoining county.
    The City of Batavia Council in Illinois has had tornado spotters 
out during 14 storm watches.
    <bullet> In Johnson County, Kansas, CERT team members have 
responded to tornado and ice storm damage.
    <bullet> In Republic, Missouri, a 911 crew was created to assist 
the city in disaster response. One area they support is the city's 
storm shelter.
    Emergency Alert System Plans:
    <bullet> Melrose, Massachusetts, alert level designations are 
prominently displayed in City Hall. A distinctive note is posted giving 
the current level along with appropriate bulletins.
    <bullet> Mississippi County, Arkansas, Citizen Corps Council alert 
plan calls for e-mail communications to inform council members of the 
changes, and refers them to the appropriate section in the plan.
    <bullet> Catalina, California, Citizen Corps Council/Golder Ranch 
Fire Dept is developing a communications system/database that uses a 
variety of means of emergency communication, including local cable, 
radio, television, and telephone trees.
    <bullet> The Mississippi County Council in Arkansas is working to 
expand the RACES/Skywarn program to provide severe weather and damage 
assessment information and has developed plans to respond to the 
National Alert System.
    <bullet> The Cortlandt Council in New York has developed internal-
use, e-mail notification action plans for government response to 
yellow, orange, and red alerts. It has also developed a local first 
responder resource manual.
    <bullet> The Hays County Council in Texas has plans to establish a 
public service FM radio station to assist with emergency 
communications.
    Participation in Emergency Training Exercises:
    <bullet> California's Fresno Citizen Corps Council members were all 
invited to be observers and/or participants in the multi-agency 
disaster exercise on May 1, 2003.
    <bullet> Wichita County, Texas, Citizen Corps Council/Local 
Emergency Planning Committee members observed and participated in a 
Conoco-Phillips Incident Command exercise that demonstrated how they 
would handle spill situations and what resources would be needed from 
the local community.
    <bullet> Pierce County in Washington had more than 200 volunteers 
perform in TOPOFF II as terrorists and victims.
    <bullet> The City of Batavia, Illinois, Council set up and ran the 
citywide Emergency Operations Center during TOPOFF II.
    <bullet> The Capital Area Citizen Corps Council in Florida works 
with county emergency management to facilitate multi-agency smallpox 
tabletop exercises.
    Biological, Chemical, and Medical Hazard Mitigation Programs:
    <bullet> Catalina, California, CCC/Northwest Community Hospital has 
an in-place plan covering almost every aspect of emergency response, 
including patient evacuation, space isolation, and coordination with 
other medical facilities, emergency systems, etc.
    <bullet> The Fresno, California, Citizen Corps Council has two 
committees surveying 650 houses of worship to determine the nature and 
scope of human and physical resources that could be made available in 
the event of a major disaster.
    <bullet> The Mississippi County Council in Arkansas participated in 
the development of a smallpox response plan.
    <bullet> The Michigan City nd LaPorte County Councils in Indiana 
have assisted witl smallpox inoculations.
    <bullet> The Melrose Council in Massachusetts has medically trained 
volunteers who assist in mass inoculations, including local flu 
vaccinations.
    Emergency response training:
    <bullet> The Citizen Corps Council of Southern Arizona has brought 
the CERT training under the organizational umbrella of Pirna Community 
College, with collaboration of the county and MMRS and will train 1000 
by the end of the year.
    <bullet> Ashtabula County, Ohio, Citizen Corps plans to bring the 
Shelter in Place and Master of Disaster programs to the local schools.
    <bullet> The Sierra County, New Mexico, Citizen Corps with the 
Sierra County Evacuation Committee will hold Evacuation and Self-
preparedness training in senior housing centers and meal sites (where 
it has been identified that special needs evacuations are needed) to be 
made aware of how to shelter in place or evacuate safely.
    <bullet> Most Citizen Corps Councils offer CERT training.
    <bullet> Many Citizen Corps Councils offer First Aid and CPR 
training to residents in addition to CERT.
    Question 45: What is the relationship between the Citizen Corps 
Councils and the Local Emergency Planning Committees (LEPC), community-
based emergency planning organizations that have existed since 1986? 
Aren't many of the Citizen Corps Council and LEPC activities 
duplicative?
    Answer: Citizen Corps Councils are all about working with resources 
that communities already have. Communities are strongly encouraged not 
to ``re-invent the wheel'' and to use what they have to make this 
concept work. For example, most state and local governments have tapped 
into their existing homeland security task forces and added a Citizen 
Corps Committee; others have tapped into their emergency management 
committees or Local Emergency Planning Committees (LEPCs) and have 
added a volunteer/citizen participation component to these existing 
groups.
    Many of the 700 local councils are LEPCs. To recognize this 
partnership and encourage the best use of limited resources at the 
local levels, DHS entered into a formal agreement with the 
Environmental Protection Agency (EPA), which has responsibility for the 
LEPCs. The July 2003 Agreement states the following partnership 
commitment:
    Together, DHS and EPA agree to work in collaborative partnership 
to:
    <bullet> Encourage LEPCs to serve as the nucleus for local Citizen 
Corps Councils or to form a collaborative partnership with Citizen 
Corps Councils, as appropriate
    <bullet> Promote mutual collaboration between SERCs and State 
Citizen Corps Councils
    <bullet> Pursue an all-hazards approach to community and family 
safety
    <bullet> Publicly acknowledge the affiliation of Citizen Corps and 
EPA, which may include website links, co-logos on publications, and 
references in printed materials, including articles and news releases
    <bullet> Coordinate their respective activities to further their 
shared mission
    <bullet> Keep each other informed of activities conducted in 
support of Citizen Corps and to provide an annual report summarizing 
those activities

                                 <all>

</pre></body></html>
